<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 9, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Hutchison, Burns, 
Inouye, Leahy, Durbin, and Mikulski.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. FRANCIS HARVEY, SECRETARY OF THE ARMY
ACCOMPANIED BY GENERAL PETER J. SCHOOMAKER, CHIEF OF STAFF OF THE ARMY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, Mr. Secretary, General. 
We're going to receive testimony from the Secretary of the 
Army, the Army Chief of Staff. Secretary Harvey, we welcome 
you. It's your first appearance before our subcommittee, and we 
look forward to working with you during these challenging 
times. They're difficult for all of us, but we're anxious to 
hear your plans for sustaining the force.
    I want to welcome some soldiers attending today, Sergeant 
First Class Jason Straight, of the Army Reserve, Operations 
Sergeant for the 459th Engineering Company, Staff Sergeant 
Clarke Caporale, Army National Guard from New York, Information 
Assurance Manager, at the Joint Forces Headquarters in New 
York, and Sergeant--Staff Sergeant Thomas Kenny, the Active 
Component Rifle Squad Leader of the 2nd Platoon of the 502nd 
Infantry of the 101st Airborne. I'm sorry to have botched up 
those introductions, gentlemen.
    We welcome you all, and we're honored to have you here with 
us, and we thank you for your service, as we thank all of you 
for your service.
    General Schoomaker, we welcome you to the subcommittee and 
look forward to your testimony. We will later welcome Senator 
Mikulski, who is a new member of our subcommittee and will be 
very valuable to us as we go forward.
    This initiative known as ``modularity'' is designed to 
reduce stress on the force by creating more deployable units 
and to ensure our soldiers are properly equipped when they 
rotate into theater operations. It's an ambitious endeavor, 
General and Mr. Secretary, that we must balance with many other 
budgetary challenges facing the Army and the whole Department. 
These include recruiting and retaining an all-volunteer force, 
improving the protection systems, recapitalization of damage to 
destroyed equipment, and reposturing our forces around the 
globe. In addition to that, we are fielding new technologies 
for the warfighter.
    The fiscal year 2006 budget proposal totals $98.6 billion 
for the Army, and the supplemental request before us--that and 
the supplemental request before us are critical for addressing 
these issues. It's imperative we exercise due diligence in 
reviewing the requests, and we want to work with you to ensure 
that our Army is provided the resources necessary to accomplish 
its mission and to continue the momentum toward the 
democratization of the Middle East.
    I want to turn this over now to my co-chairman and see if 
he has comments before we ask you to prepare--to give us your 
remarks.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman. I wish 
to join you in welcoming General Schoomaker and Dr. Harvey, our 
new Secretary of the Army.
    The Army is now undergoing a period of challenge and 
change, and the pace of overseas operations is clearly 
straining our Active, Guard, and Reserve forces. And we know 
that it's not going to be an easy job, but we stand to work 
with you, sir.
    And may I have my full statement made part of the record?
    Senator Stevens. Yes, sir, it will be.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today we welcome the Army Chief of Staff, General 
Schoomaker, along with Dr. Francis Harvey, the Army Secretary. 
Mr. Secretary, we welcome you here for your first appearance 
before this committee.
    Gentlemen, the Army is undergoing a period of challenge and 
great change. The pace of overseas operations is clearly 
straining our Active, Guard and Reserve forces.
    At the same time, we are implementing the first phase of 
Army transformation with the creation of Stryker brigades. And, 
to complicate matters further, the Army is proceeding with its 
modularity initiative, restructuring its divisions with a goal 
of increasing combat capability by creating an additional 10 
brigade combat teams.
    The cost of these efforts, both in stress and monetary 
resources, is understandably high.
    We are informed that the Army was unable to meet its 
recruiting goal for active duty soldiers last month and also 
falling short of the recruiting goals of the Reserve forces.
    In this period of change we have seen the termination of 
the Comanche helicopter and the Crusader, and the restructuring 
of the future combat system program and Army aviation.
    The Congress has fully supported the Army even adding more 
than $600 million in fiscal year 2005 to accelerate equipment 
for the Stryker brigades, but more is required.
    In the supplemental request, we find an unprecedented 
request of $5 billion to support modularity, and the creation 
of brigade combat teams. Some of our colleagues have questioned 
the propriety of using an emergency supplemental to pay for 
this new initiative.
    So, I believe it is obvious that this is a period of great 
upheaval. Gentlemen, I don't know how you are able to balance 
all of these issues in this time of war. I tip my hat to you.
    As you know, this committee has been steadfast in its 
support of the Army. I can assure you that we will do our best 
to support the needs of our men and women in uniform especially 
during this trying time.
Mr. Chairman, I look forward to hearing our witnesses discuss 
the many challenges facing the Army and their plans to meet 
them head on.

    Senator Stevens. Senator Leahy, do you have any opening 
comments?
    Senator Leahy. I don't, Mr. Chairman. I will have 
questions, though.
    Senator Stevens. Thank you very much.
    Mr. Secretary, we're pleased to have your statement. Both 
of your statements will appear in the record in full, as though 
read, but we'd take your comments, whatever you wish to say.
    Secretary Harvey. Thank you, Mr. Chairman.
    Chairman Stevens, Senator Inouye, and distinguished members 
of the subcommittee, General Schoomaker and I appreciate the 
opportunity to be here this morning and to offer testimony on 
the posture of the United States Army, which today is 
conducting operations in Iraq, Afghanistan, and some 120 other 
countries around the world.
    Let me begin by saying a few words about the great soldiers 
of our Army, the centerpiece of our formations.
    Our Nation is blessed with the world's finest Army, an all-
volunteer force representing the best our country has to offer. 
On that note, General Schoomaker and I are pleased to be joined 
today by three soldiers who, in turn, represent the over 1 
million soldiers in our Army. The Chief will introduce these 
soldiers to you at the end of my opening statement.
    The events of 9/11 radically altered the realities of 
America's security environment, making it clear that the United 
States is in a protracted war against a global enemy that 
fights with different means and standards of conduct that 
includes a total disregard for human life. To be successful in 
this protracted conflict, we must transform our Army to be more 
expeditionary, joint, rapidly deployable and adaptive, as well 
as enhance our capabilities across the entire range of military 
operations, from major combat to stability.
    To accomplish our mission of providing the necessary forces 
and capabilities to the combatant commanders in support of the 
national security and defense strategies, we have developed and 
are executing four overarching and interrelated strategies 
supported by 20 initiatives. Transformation is ingrained in all 
of these strategies, as well as in each one of the initiatives.
    These strategies are: first, providing relevant and ready 
land power to the combatant commanders; second, training and 
equipping our soldiers to serve as warriors and growing 
adaptive leaders; third, attaining a quality of life for our 
soldiers and their families that match the quality of their 
service; and, finally, providing the infrastructure to enable 
the force to fulfill its strategic roles and missions.
    We are implementing these strategies by means of 20 
supporting initiatives. In executing these initiatives, our 
actions will, at all times and in all places, be guided by the 
highest of ethical standards. Among the nine initiatives 
supporting our strategy of providing relevant and ready land 
power, I want to emphasize our major transformational effort, 
the Army modular force initiative.
    This initiative involves the total redesign of the 
operational Army into a larger, more powerful, more flexible, 
and more rapidly deployable force that will move us from a 
division-centric structure to one built around what we call the 
Brigade Combat Team Unit of Action.
    Let me note here that when discussing the size and power of 
the Army, one should not only talk about end strength, because 
the Brigade Combat Team is a much more capable and powerful 
unit. It is more useful to talk about the number of units, as 
well as the power--combat power of those individual units.
    The combat power of an individual unit is not only a 
function of people strength, but also the technology and 
quality of the equipment, particularly the weapons systems and 
the information network, the effectiveness of the tactics, 
techniques, and procedures, the adaptability and flexibility of 
the organization, the level of training, and, finally, the 
caliber and quality of the leadership. At the end of the day, 
it is the combat power of the operational Army that counts.
    There is another important point to be made regarding Army 
end strength. Because we are initiating a number of initiatives 
to transform the way the Army does business, including the 
conversion of military jobs to civilian ones in that part of 
the Army which generates the force, the so-called 
``institutional Army,'' it is possible to increase personnel 
strength of the operational Army without necessarily increasing 
overall end strength.
    Now, returning to the Army modular force initiative, the 
Brigade Combat Team Unit of Action is a standalone, self-
sufficient, and standardized tactical force of between 3,500 
and 4,000 soldiers that is organized the way it fights. 
Consequently, these brigades are more strategically responsive 
across the broad spectrum of operations required by the 21st 
century security environment.
    This transformational effort will result in a force with a 
number of key advantages. First, there will be at least a 30-
percent increase in our Active component's combat power by 
2007, an increase from 33 to 43 Brigade Combat Teams. Second, 
the number of usable Brigade Combat Teams in the rotational 
pool will increase from 48 to 77. Third, the headquarters will 
be joint-capable and organized the way it will operate in 
theater. Fourth, future network-centric developments can be 
readily applied to the modular force design as the first step 
in evolving the Brigade Combat Team Unit of Action into a 
future combat system design. Finally, and very importantly, 
when complete, modularity in combination with rebalancing the 
type of units in both the Active and Reserve components will 
significantly reduce the stress on the force because of a more 
predictable rotational cycle for all components, coupled with 
much longer dwell times at home base.
    With our four overarching strategies and 20 supporting 
initiatives, in conjunction with a fully funded base budget and 
supplemental, the Chief and I are confident that the Army can 
accomplish its mission and reach our strategic goal of being 
relevant and ready both today and tomorrow.
    Let me end by saying that none of this would be possible 
without the continuing strong support of Congress and, 
specifically, the Defense Subcommittee of the Senate 
Appropriations Committee. Thank you for this past support. And 
I ask for your full support on the base budget request, as well 
as the supplemental.
    General Schoomaker will now introduce the three soldiers 
with us today. And, after that, we'll be more than happy to 
answer the questions.
    Thank you.
    Senator Stevens. You can tell us more about them if you'd 
like, General.
    General Schoomaker. Sure, I'd like to.
    Chairman Stevens and Senator Inouye and other distinguished 
members of the subcommittee, I stand with Secretary Harvey on 
his statement, and we've submitted our posture statement and 
written statements for the record, as you've said.
    I would like to introduce these three soldiers. They've 
earned the right to sit in the front row and observe how our 
Government works. And we're very proud of them. As we've 
already said, they're the centerpiece of our Army. And I 
invited them here so they could have that front-row seat, they 
represent all three components, the Active, Guard, and Reserve 
components of our Army.
    The first is Sergeant First Class Jason Straight, who is 
from the United States (U.S.) Army Reserve. He deployed with 
his unit from West Virginia. He deployed with the Bridge 
Company from January 2003 to February 2004. He was first 
attached to the 1st Marine Expeditionary Force, and they are 
the ones that forged the river--the Tigris River to allow the 
marines to advance. They did it under fire, put the bridge in 
so that they could proceed in their attack to Baghdad. In 
addition to bridge construction, his unit was involved in the 
destruction of enemy ammunition, doing mine clearance 
activities and destroying other foreign ammunition that was 
over there. So we're very proud of him. And he represents the 
great soldiers of our U.S. Army Reserve. Thank you very much, 
Sergeant Straight.
    The next soldier I'd like to introduce is Staff Sergeant 
Clarke Caporale. Sergeant Caporale is from New York. He's a 
member of the National Guard. He's a mortarman. And during his 
time deployed on Operation Iraqi Freedom (OIF) from February 
2004 to January 2005, he was involved in firing over 150 
missions in combat with his mortar element. He was also one of 
the soldiers that became a primary trainer for the Iraqi 
National Guard and was involved in training Company D of the 
203rd Battalion Iraqi National Guard. He was a member of the 
joint coordination cell and the staff in the province there 
where he was. He earned a Combat Infantryman's Badge and the 
Expeditionary Medal for the Global War on Terrorism. Thank you.
    Staff Sergeant Thomas Kenny is a member of the regular 
Army. He is 11-Bravo Rifle Squad Leader, Infantry, 2nd 
Battalion, 502 Infantry of the 101st Airborne. Staff Sergeant 
Kenny participated in the initial assaults through Iraq, moving 
north through Karbala, Baghdad, Fallujah, and Mosul, beginning 
in March 2003 through February 2004. His unit established 
numerous hard sites that are still in use today in Mosul. He 
was also involved in overseeing the exchange of the Hussein-era 
Iraqi dinars to the post-liberation dollars. He also has earned 
the Combat Infantryman's Badge, been decorated for both the 
campaign in Iraq, as well as in Kosovo, where he was involved 
in the campaign there.
    So, again, we're very proud of these soldiers. They 
represent the centerpiece of our Army, and I join you in my 
great respect for their service and what they contribute to the 
security of our Nation.

                           PREPARED STATEMENT

    So thank you very much. I'm prepared to answer your 
questions.
    [The statement follows:]
Prepared Statement of the Honorable Francis J. Harvey and General Peter 
                             J. Schoomaker
                                                  February 6, 2005.

    America remains a nation at war, fighting adversaries who threaten 
our civilization and way of life. The most significant aspect of our 
current strategic reality is that the Global War on Terror in which we 
are now engaged will be a protracted one.
    The Army's primary mission is to provide necessary forces and 
capabilities to the Combatant Commanders in support of the National 
Security and Defense Strategies. We have more than 300,000 Soldiers 
deployed or forward stationed today to support operations in Iraq, 
Afghanistan, and other theaters of war and to deter aggression, while 
securing the homeland. We are fighting today while simultaneously 
preparing for tomorrow.
    To continue to accomplish our mission, we are aggressively 
restructuring the Army. We are transforming from a force designed for 
contingency operations in the post-Cold War era to a force designed for 
continuous operations in a new era that presents challenges to the 
Nation ranging from traditional to potentially catastrophic.
    The Army is dependent upon the resources requested in the fiscal 
year 2006 President's Budget, coupled with emergency supplemental 
appropriations, to support current operations. These funds will also 
enable the force to recover from the stress placed on equipment and 
Soldiers during combat and continually ``reset'' itself for future 
deployments. Moreover, these resources are required to continue to 
transform the Army into a larger, more powerful force built on self-
sufficient brigade-based modules. This force will be more flexible, 
more rapidly deployable and better able to sustain the protracted 
military campaigns and conduct the joint, expeditionary operations 
required by the 21st century security environment.
    We are sustaining our global commitments while making tremendous 
progress in our transformation. We will need the continued support of 
the Congress, the President, and the American people to accomplish our 
mission today and tomorrow, while providing for the well-being of our 
All-Volunteer Soldiers, their families and our civilian workforce who 
are serving the Nation in this time of war.

                                       Peter J. Schoomaker,
                        General, United States Army Chief of Staff.
                                         Francis J. Harvey,
                                             Secretary of the Army.
           purpose and organization of the posture statement
    The 2005 Army Posture Statement provides an overview of today's 
Army. Focusing on the Soldier, our centerpiece, it provides a 
perspective on the 21st century security environment. This environment 
provides the context for reaffirming our overarching Strategic Goal and 
our enduring Mission. The Posture Statement describes how the Army is 
executing four overarching, interrelated strategies--centered on 
people, forces, quality of life and infrastructure--needed to 
accomplish this Mission. Our initiatives, posture, progress, and 
requirements are explained within the context of these strategies. Army 
transformation is described not as an end in itself, but rather in 
terms of how it is already contributing to accomplishing the Mission 
today, while preparing the force to accomplish its Strategic Goal--to 
remain relevant and ready to meet the Combatant Commanders' needs--
today and tomorrow. A discussion of Risk and an examination of future 
security challenges are furnished to complete this assessment of our 
current posture as we continue to serve the Nation today, while 
preparing for the uncertainties of tomorrow. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             2005 army posture statement executive summary
21st Century Security Environment: An Era of Uncertainty and 
        Unpredictability
    Operating within an uncertain, unpredictable environment, the Army 
must be prepared to sustain operations during a period of persistent 
conflict--a blurring of familiar distinctions between war and peace.
    To improve our ability to provide forces and capabilities to the 
Combatant Commanders for the foreseeable future, the Army is undergoing 
its most profound restructuring in more than 50 years.
    With the support of the Congress, the President, and the Department 
of Defense, we are making tremendous progress.
Transforming to Accomplish the Mission: Modularity, Rebalancing, and 
        Stabilization
    Army Transformation is focused to improve the capability of the 
Soldier, who remains the centerpiece of our formations. It has four 
primary goals.
  --First, we are restructuring from a division-based to a brigade-
        based force. These brigades are designed as modules, or self-
        sufficient and standardized Brigade Combat Teams, that can be 
        more readily deployed and combined with other Army and joint 
        forces to meet the precise needs of the Combatant Commanders. 
        The result of this transformational initiative will be an 
        operational Army that is larger and more powerful, flexible and 
        rapidly deployable.
  --This program, which we call modularity, will increase the combat 
        power of the Active Component by 30 percent as well as the size 
        of the Army's overall pool of available forces by 60 percent. 
        The total number of available brigades will increase from 48 to 
        77 with 10 active brigades (three-and-a-third divisions in our 
        old terms) being added by the end of 2006. Our goal for this 
        larger pool of available forces is to enable the Army to 
        generate forces in a rotational manner that will support two 
        years at home following each deployed year for active forces, 
        four years at home following each deployed year for the Army 
        Reserve and five years at home following each deployed year for 
        National Guard forces. Implementing this program will provide 
        more time to train, predictable deployment schedules, and the 
        continuous supply of landpower required by the Combatant 
        Commanders and civil authorities.
  --The force, above the brigade level, will be supported by similarly 
        modular supporting brigades that provide aviation, fires, 
        logistics, and other support. Our headquarters structure will 
        also become far more versatile and efficient as we eliminate an 
        entire echelon of command--moving from three to two levels. 
        Similar innovations will occur in the logistics and 
        intelligence organizations that support our forces and other 
        Services.
  --Our restructuring is already well underway. The 3rd Infantry 
        Division, the vanguard of the invasion of Iraq, will return to 
        Iraq as a restructured, modular force.
  --Second, we are rebalancing our active and reserve forces to produce 
        more units with the skills in highest demand. This will realign 
        the specialties of more than 100,000 Soldiers, producing a 50 
        percent increase in infantry capabilities, with similar 
        increases in military police, civil affairs, intelligence, and 
        other critical skills. We have already converted more than 
        34,000 spaces.
  --Third, Soldiers are being stabilized within units for longer 
        periods to increase combat readiness and cohesion, reduce 
        turnover and eliminate many repetitive training requirements. 
        With fewer Soldiers and families moving, more Soldiers will be 
        available on any given day to train or to fight. This 
        initiative, started in 2004, also transitions our Army from an 
        individual replacement manning system to a unit focused 
        system--to prepare Soldiers to go to war as vital members of 
        cohesive units.
  --Fourth, we are working to complement our operational transformation 
        by ensuring that our business, force generation and training 
        functions improve how we support a wartime Army and the other 
        Services. We are divesting functions no longer relevant and 
        reengineering business processes to increase responsiveness to 
        the Combatant Commanders. Other improvements include developing 
        a joint, interdependent end-to-end logistics structure, and 
        fostering a culture of innovation to increase institutional 
        agility. We seek to improve effectiveness and identify 
        efficiencies that will free human and financial resources to 
        better support operational requirements.
Balancing Risk: The Tension Between Current and Future Demands
    The Army is grateful for the support of the Congress, the 
President, the Department of Defense, and the American people as we 
fight the Global War on Terror. Continued support--financial and 
moral--is vital. This year, like previous years since September 11, the 
Army's base budget supports force generation and sustainment operations 
and the supplemental budget request supports wartime efforts. The 
combination of these spending measures is needed to enable the Army to:
  --Recruit and retain the All-Volunteer Force and their families by 
        enabling the establishment of equitable rotation plans and 
        improving quality-of-life programs;
  --Generate and sustain a force that is properly manned, trained and 
        led, in order to prevail in the Global War on Terror, while 
        sustaining other global commitments;
  --Enhance Soldiers' ability to fight by rapidly spiraling promising 
        technologies that are ready now into the Current Force; and
  --Reset the force by repairing and recapitalizing equipment that is 
        aging rapidly--far faster than projected--due to sustained 
        combat operations in severe environmental conditions.
    The scale and the pace of Army transformation is essential to 
improve the ability of American Soldiers to defeat adversaries who will 
pose complex, irregular challenges that are becoming increasingly more 
sophisticated and dangerous than those we now face.
Focusing Resources on Wartime Requirements: Major Decisions in 2004
    The Army benefited from three major decisions in 2004, all 
providing resources to address immediate wartime needs. The Army 
restructured or adjusted 126 programs. Two of these programs had the 
most significant impact. First, the Army cancelled the Comanche Program 
and reinvested the savings into other urgent aviation requirements. 
This decision enabled us to begin purchasing new airframes, fix many 
equipment shortfalls, enhance survivability, and begin modernizing our 
fleet. Second, we modified the schedule for fielding Future Combat 
Systems to put better capabilities into the hands of our fighting 
Soldiers. Third, Congress provided the authority to increase Active 
Component end strength by 30,000 Soldiers to support the war and the 
Army's conversion to modular formations.
Our Army at War--Relevant and Ready . . . Today and Tomorrow
    Our Nation remains at war. Soldiers understand their mission. They 
are well equipped and trained for the fight. They are well led by 
excellent leaders. Our transformation is already enhancing our 
capabilities today, while ensuring our preparedness for tomorrow. These 
efforts, however, will require full support of the base budget and 
supplemental.
     21st century security environment: an era of uncertainty and 
                            unpredictability
    We remain an Army at War. It is a war unlike any other in our 
Nation's history, prosecuted not by states, but by extremists employing 
irregular means to erode our power and resolve. Our adversaries 
threaten the ideas that form the bedrock of our society, endangering 
our freedoms and way of life. Fueled by an ideology that promotes 
intractable hatred, this war will endure in some form for the 
foreseeable future. The Army, in service to the Nation, must therefore 
be prepared to sustain operations during a period of persistent 
conflict--a blurring of familiar distinctions between war and peace. 
This is the most significant aspect of the 21st century security 
environment.
    The emergence of unconventional and asymmetric threats, such as 
radical Islamic terrorist efforts aimed at the United States and other 
developed countries, has stretched the U.S. military. Protection 
afforded by geographic distance has decreased, while challenges and 
threats from extremists using weapons of mass destruction and attacks 
on civilian, military and economic targets have increased. While the 
current trend toward regional and global integration may render inter-
state war less likely, the stability and legitimacy of the conventional 
political order in regions vital to the United States are increasingly 
under pressure.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 1

    There are now new actors, methods and capabilities that imperil the 
United States, its interests and its alliances in strategically 
significant ways. The Defense Strategy has identified four types of 
emerging security challenges for U.S. forces: irregular, traditional, 
catastrophic and disruptive. The ``Four Challenges,'' described in 
Figure 1, categorize many of the issues expected in the future security 
environment. In many situations, these challenges may overlap, may 
occur simultaneously and may offer no easily discernible transition 
from one to another.
    The Defense Strategy still recognizes the traditional threat 
paradigm, focused primarily on other states and known enemies. In the 
aftermath of September 11, 2001, however, it is no longer sufficient to 
be prepared to defend only against this type of threat. Our old 
concepts of security, deterrence and warning, developed through 
traditional intelligence approaches, do not apply sufficiently in this 
new strategic environment. While we must remain ready to sustain the 
full range of our global commitments, our overwhelming military 
superiority no longer serves as an adequate deterrent against many 
emerging threats, especially those of radical fundamentalist 
terrorists.
    The implications of our environment are clear. We must understand 
the character of the irregular warfare we now face and adapt 
accordingly. In waging this war against determined adversaries, we have 
arrayed a vast, hierarchical organization against an elusive, adaptive 
network. Consequently, the Army is adapting to eliminate irrelevant 
policies, processes and doctrines. We must move beyond marginal 
improvements in our efforts to strengthen interdependencies with other 
Services and other agencies and reinforce a culture that fosters 
innovation and agility.
    To respond to the challenges presented in this era of uncertainty 
and unpredictability, the Army has accelerated its transformation. 
During times of peace, change is generally slow and deliberate--at a 
pace supported by limited resources. In wartime, however, change must 
occur faster; a measured approach to change will not work.
    We must remain ready to sustain the full range of our global 
commitments beyond those associated with the Global War on Terror. At 
the same time, the Army must be prepared to conduct sustained 
operations during a period of protracted conflict.
 strategic goal: remaining relevant and ready . . . today and tomorrow
    In light of the uncertainty and the challenges inherent to the 21st 
century security environment, the Army's overarching strategic goal is 
to remain relevant and ready by providing the Joint Force with 
essential capabilities to dominate across the full range of military 
operations. The Army will be:
  --Relevant to the challenges posed by the global security environment 
        as evidenced by the organization and training of our forces, 
        the innovation and adaptability of our leaders and the design 
        and practices of our institutional support structures.
  --Ready to provide the Combatant Commanders with the capabilities--
        principally well-led, trained and equipped forces--required to 
        achieve operational objectives across the range of military 
        operations.
    To meet this goal, the Army must position itself in terms of 
mindset, capability, effectiveness, efficiency, training, education, 
leadership and the overall culture of the Service for the context in 
which it will operate for the foreseeable future.
    The American Soldier remains our primary focus--the centerpiece of 
all that we do as an Army. Throughout our history, Soldiers have 
answered the call to end tyranny, to free the oppressed and to light 
the path to democracy for struggling nations. Soldiers--imbued with the 
ideals of the Warrior Ethos, a commitment to defend the freedoms that 
America enjoys and an unwavering belief that they will be victorious--
are, and will remain, the foundation of the Army.
    mission: supporting the national security and defense strategies
    The Army exists to serve the American people, to protect enduring 
national interests and to fulfill national military responsibilities. 
Our mission is enduring: to provide necessary forces and capabilities 
to the Combatant Commanders in support of the National Security and 
Defense Strategies. The Army is charged to provide forces able to 
conduct prompt, sustained combat on land as well as stability and 
reconstruction operations, when required. Moreover, the Army is charged 
to provide logistical and other capabilities to enable other Services 
to accomplish their missions.
    To achieve its mission, the Army is providing the Joint Force with 
capabilities required to prevail in the protracted Global War on Terror 
and sustain the full range of its global commitments. At the same time, 
the Army is undergoing one of its most profound transformations since 
World War II. Army Transformation will meet the needs of Joint Force 
Commanders today and tomorrow, by providing a campaign-quality Army 
with joint and expeditionary capabilities. A continuous cycle of 
innovation and experimentation, informed by experience, is improving 
the forces and capabilities we are providing today and ensuring that we 
are well postured for tomorrow's challenges.
    We are working to create a unique synergy from both of our tasks, 
fighting today while transforming for tomorrow, to ensure we ``get it 
right.'' The size and mix of our components and capabilities must be in 
balance. Our global posture, both at home and abroad, must enhance 
agility and readiness to conduct expeditionary operations on short 
notice. In addition, the force must be designed, equipped, sustained 
and supported in a manner that will enable us to continue to be 
effective partners, with the other Services and the armed forces of 
other nations, in the conduct of sustained, protracted military 
campaigns.
    Soldiers remain at the center of our transformation focus. Soldiers 
are the Army. It is the Soldier--fierce, well trained, well equipped 
and well led--who serves as the ultimate expression of the capabilities 
the Army provides to the Joint Force and to the Nation. As always, we 
remain dedicated to the well-being of our Soldiers, their families and 
our civilian workforce.
    The character and skill of our Soldiers, leaders and civilian 
workforce and the attitudes and actions of our family must reflect our 
military and organizational challenges. Like any large, complex 
organization committed to achieving transformational change, our 
efforts to change our culture will prove to be our true measure of 
success.
    Guided by the compelling requirement to accomplish our mission in 
service to the Nation, the Army is changing now--and making tremendous 
progress. With the continued support of Congress and the Department of 
Defense, we will maintain the momentum we have established, through our 
collective efforts, to transform capabilities, processes, leadership 
and culture.
     accomplishing the mission today: sustaining global commitments
    The Army's first priority is to sustain its increasing global 
commitments that extend across the full range of military missions, 
well beyond those associated with the Global War on Terror. Today, our 
Current Force is engaged, across the range of military operations, in 
ways we could never have forecasted before September 11, 2001, 
operating at a very high pace that will likely continue for some time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Army is providing forces and capabilities for Operation Iraqi 
Freedom, for Operation Enduring Freedom and for other global 
requirements. The Army continues to deter aggression and keep peace on 
the Korean Peninsula, on the Sinai Peninsula, in the Balkans and 
elsewhere around the world. In addition, the Army supports numerous 
humanitarian assistance missions and supports organizations such as 
Joint Task Force Bravo in Central America to counter illicit narcotics 
trafficking.
    Today, approximately 640,000 Soldiers are serving on active duty. 
315,000 Soldiers are deployed or forward stationed in more than 120 
countries to support operations in Iraq, Afghanistan and other theaters 
of war and deter aggression, while securing the homeland. These 
Soldiers are from all components: Active (155,000), Army National Guard 
(113,000) and Army Reserve (47,000). Soldiers participate in homeland 
security activities and support civil authorities for many different 
missions within the United States. A large Army civilian workforce 
(over 250,000), reinforced by contractors, supports our Army--to 
mobilize, deploy and sustain the operational forces--both at home and 
abroad.
    Soldiers from the Army National Guard and the Army Reserve are 
making a vital contribution. 150,000 Soldiers are mobilized and 
performing a diverse range of missions worldwide. In addition to their 
duties overseas, Soldiers from both the Guard and the Reserve supported 
civil authorities during disaster relief operations, such as those 
which occurred in Florida following four major hurricanes.
    On any given day, the Army National Guard has more than 10,000 
Soldiers on duty to protect key assets across the Nation, including Air 
Force bases. More than 24,000 Soldiers provided security for both the 
Democratic and Republican National Conventions and the Group of Eight 
Summit. National Guard Soldiers are also promoting stability in Iraq 
and in the Balkans, while performing complex, vital tasks such as U.S. 
Northern Command's ballistic missile defense mission. Guard Soldiers, 
operating in an unprecedented role, are organizing and training a 
multicomponent brigade in Colorado and a battalion in Alaska to execute 
the newly assigned mission.
    The Army Reserve, in addition to providing vital support for 
operations in Iraq and Afghanistan, is providing a wide range of 
response capabilities in the event of an attack on the homeland. This 
support includes almost 200 emergency preparedness liaison officers 
that interact with local communities. The Reserve has also fielded and 
trained 75 chemical decontamination platoons with more than 2,400 
Soldiers for mass casualty operations and more than 250 fully equipped 
hazardous material technicians to train with local first responders.
    enabling mission accomplishment: four overarching, interrelated 
                               strategies
    To enable mission accomplishment, the Army is executing four 
overarching, interrelated strategies. These strategies seek to 
accomplish the Army's mission, consistent with the requirements 
prescribed by the National Security and Defense Strategies. These 
strategies are enabling the Army to continue to accomplish its mission 
today--in service to the Nation--while building and maintaining the 
capabilities to ensure the Army remains relevant and ready to the needs 
of the Combatant Commanders tomorrow. The Army is:
  --Providing Relevant and Ready Landpower in support of the Combat 
        Commanders and the Joint Force to sustain the full range of our 
        global commitments;
  --Training and Equipping our Soldiers to Serve as Warriors and 
        Growing Adaptive Leaders who are highly competent, flexible and 
        able to deal with the 21st century challenges they now 
        confront;
  --Attaining a Quality of Life and Well-Being for Our People that 
        match the quality of the service they provide; and
  --Providing Infrastructure to Enable the Force to Fulfill its 
        Strategic Roles by establishing and maintaining the 
        infrastructure and the information network required to develop, 
        to generate, to train and to sustain the force.
    These interrelated strategies serve to unify our collective 
efforts. Relevant, Ready Landpower depends on Soldiers who are well 
trained, equipped and led. Soldiers must be supported by high Standards 
for Quality of Life and modern infrastructure to Enable the Force to 
Fulfill its Strategic Roles and Missions.
    The Army's current posture, initiatives and progress are described 
within the context of these interrelated strategies. The initiatives 
demonstrate how the strategies are being executed and, in a broader 
sense, the resources required to execute them. Transformation is the 
central thread which runs through each of these strategies.
    Army transformation represents much more than improvements in 
equipment or warfighting methods. It is a multidimensional, 
interdependent process that involves:
  --Adapting new technologies and business operations;
  --Improving joint warfighting concepts and business processes;
  --Changing organizational structures; and
  --Developing leaders, people and culture that reflect the realities 
        of our operating environment.
    providing relevant and ready landpower to support the combatant 
                               commanders
Building a Campaign-Quality Force with Joint and Expeditionary 
        Capabilities
    ``Campaign qualities'' refers to the Army's ability not only to win 
decisively in the conduct of combat on land but also in its ability to 
sustain operations. The Army supports the Combatant Commanders and the 
Joint Force, other agencies and coalition partners, for as long as may 
be required.
    The Army continues to improve strategic responsiveness in two ways. 
First, the Army is becoming more expeditionary. We are improving our 
ability to deploy rapidly to conduct joint operations in austere 
theaters. Our enemies are elusive, adaptive and seek refuge in complex 
terrain, often harbored by failed or failing states. They fully 
leverage many of the same technologies we do such as the Internet and 
satellite communications. To improve on our joint warfighting 
proficiency we are embracing these conditions in deployment scenarios, 
training and education.
    Second, we have improved our review and resourcing procedures to 
anticipate and support the Integrated Priority Lists developed by the 
Combatant Commanders. Likewise, we are continuing to anticipate and 
respond with urgency to our commanders' needs.
Enhancing Joint Interdependence
    Each branch of the Armed Forces excels in a different domain--land, 
air, sea and space. Joint interdependence purposefully combines each 
Service's strengths, while minimizing their vulnerabilities. The Army 
is ensuring that our systems are fully complementary with the other 
Services.
    We are working aggressively with the other Services to improve the 
ability to dominate across the range of military operations. Our 
efforts embrace two characteristics of modern warfare. First, 
technology has extended the reach of modern weapon systems to the 
extent that collective force protection and anti-access techniques are 
necessary, even in facing irregular, asymmetric challenges. Second, the 
other Services' capabilities to dominate air, sea and space have direct 
impact on ground forces' ability to dominate on land.
    Our new modular formations will operate better in joint, 
multinational and interagency environments. These formations are 
designed to enhance joint concepts for battle command, fires and 
effects, logistics, force projection, intelligence, as well as air and 
missile defense. Our joint training opportunities will continue to 
improve as we work with Joint Forces Command and the other Services to 
develop a Joint National Training Capability. The planning, scenarios, 
connectivity and overall realism we are working to create will enhance 
critical joint operations skills for commanders and Soldiers.
    The ultimate test of joint initiatives is the Soldier. If a concept 
does not empower Soldiers, then we have to question its relevance. We 
are continuing our work to ensure that emerging capabilities and 
training requirements are created joint from the outset.
Resetting the Force
    Major combat and stability operations in Iraq and Afghanistan are 
placing tremendous demands on our equipment and our Soldiers. As a 
result, we must reset those units--by preparing Soldiers and their 
equipment for future missions--often as part of new modular formations. 
We use this opportunity to reset our units forward to the future--not 
to return them to their legacy designs.
    The major elements of our Reset Program include:
  --Providing considerable training and professional development for 
        Soldiers and leaders;
  --Bringing unit readiness back up to Army standards;
  --Reorganizing returning units into modular unit designs;
  --Retraining essential tasks to incorporate lessons learned from Iraq 
        and Afghanistan; and
  --Adjusting pre-positioned stocks of ammunition and equipment to 
        support the force.
    Resetting the force reflects how we care for our people and prepare 
units for upcoming training and deployments, while positioning the Army 
to be more responsive to emerging threats and contingencies. Today, the 
standard for Active and Reserve Component reset is six and twelve 
months, respectively. Through a focused effort, our reset processes are 
becoming considerably more efficient in terms of both time and 
resources. The Army's depot capability and efforts to partner with 
industry are critical to this effort.
    The Reset Program is designed to reverse the effects of combat 
stress on our equipment. Amidst the constant demands of war, our 
equipment is aging far more rapidly than projected. Because of higher 
operational tempo, rough desert environments and limited depot 
maintenance available in theater, our operational fleets are aging four 
years for every year in theater--dramatically shortening their life. 
Over 6,500 tracked and wheeled vehicles must be recapitalized this year 
alone. An additional 500 aviation systems must also be recapitalized. 
We will require additional funding to ``buy back'' some of this age 
through extensive recapitalization programs as well as replacing combat 
losses.
    The 3rd Armored Cavalry Regiment, the 3rd Infantry Division and 129 
of the more than 500 Army Reserve units (over 25 percent) have already 
completed the Reset Program. The 4th Infantry Division, the 2nd Light 
Cavalry Regiment, the 10th Mountain Division, the 1st Armored Division, 
the 76th Infantry Brigade (Indiana), the 30th Infantry Brigade (North 
Carolina), the 82nd Airborne Division and the 101st Airborne Division 
(Air Assault) are in various stages of the Reset Program.
    Resetting units is not a one-time event. It is required for all 
redeploying units. A window of vulnerability exists at the end of our 
current operations. We project that it will take close to two years 
after the return of forces from Iraq and Afghanistan to completely 
refit our forces and to reconstitute the equipment held in our five 
pre-positioned sets. Only through an appropriately funded Reset Program 
can we extend the life of the operational fleet to remain ready to 
support and sustain protracted conflict. Congress has greatly helped 
the Army by providing supplemental funding to meet this critical need. 
We will continue to require additional resources to complete this 
essential work.
Converting to a Brigade-Based, Modular Force
    Modular conversion will enable the Army to generate force packages 
optimized to meet the demands of a particular situation, without the 
overhead and support previously provided by higher commands. Modular 
units are tailored to meet the Combatant Commanders' requirements. 
These units, known as Brigade Combat Teams (BCTs), are more robust, 
require less augmentation and are standardized in design to increase 
interoperability. They are, in essence, a self-sufficient, stand-alone 
tactical force, consisting of 3,500 to 4,000 Soldiers, that is 
organized and trains the way it fights.
    Modular BCTs will serve as the building blocks of Army 
capabilities. There are three common organizational designs for ground 
BCTs and five for support brigades. The three designs include a heavy 
brigade with two armor-mechanized infantry battalions and an armed 
reconnaissance battalion; an infantry brigade with two infantry 
battalions and an armed reconnaissance and surveillance battalion; and 
a Stryker brigade with three Stryker battalions and a reconnaissance 
and surveillance battalion. Four of the five types of support brigades 
perform a single function each: aviation; fires; sustain; and 
battlefield surveillance. The fifth, maneuver enhancement brigade, is 
organized around a versatile core of supporting units that provide 
engineer, military police, air defense, chemical and signal 
capabilities.
    By creating a modular, brigade-based Army, we are creating forces 
that are more rapidly deployable and more capable of independent action 
than our current division-based organization. Their strategic 
responsiveness will be greatly improved. Modularity increases each 
unit's capability by building in the communications, liaison and 
logistics capabilities needed to permit greater operational autonomy 
and support the ability to conduct joint, multinational operations. 
These capabilities have previously been resident at much higher 
organizational echelons.
    We are also eliminating an entire echelon of command above the 
brigade headquarters, moving from three levels to two. Doing so removes 
redundancies in command structure and frees additional personnel spaces 
for use elsewhere. We are also eliminating several layers of logistics 
headquarters to increase responsiveness, further reduce redundancy and 
improve joint logistics integration.
    In addition, the new higher-level headquarters will become 
significantly more capable and versatile than comparable headquarters 
today. These modular headquarters will be able to command and control 
any combination of capabilities: Army, joint or coalition. Their 
design, training and mindset will allow them to serve as the core of 
joint or multinational task force headquarters, with significantly 
reduced personnel augmentation. This will relieve stress on the force 
by eliminating a continuing demand to fill headquarters manning 
requirements on a temporary basis.
    The Army is also transforming its Reserve Component structures to 
the new BCT organization. We are applying the lessons learned in Iraq 
and Afghanistan to better train, equip, support and generate these 
units from their home stations. The Army Reserve is developing Army 
Reserve Expeditionary Packages to better generate and distribute 
critical force capabilities. This rotational force model streamlines 
mobilization, training and equipping of units; enhances readiness; and 
improves predictability for Soldiers, families and civilian employers.
    Execution of this transformation is already well underway. As units 
redeploy from fighting, their conversion process begins. The 3rd 
Infantry Division and the 101st Airborne Division have already 
reorganized their existing brigades and created a new brigade each. The 
3rd Infantry Division is the first converted unit returning to Iraq. 
The 10th Mountain Division and the 4th Infantry Division will soon 
follow. By the end of 2006, we will have added 10 new brigades. 
Potentially, we will create five more in 2007. The Army National Guard 
is converting 34 BCTs or separate brigades to modular designs. At the 
end of our effort, the Army will have 77 and potentially 82 total BCTs.
Rebalancing Active and Reserve Component Units and Skills
    Our current Active and Reserve Component structure is not optimized 
for rapid deployment and sustainment. We are restructuring the force to 
increase units with special skills that are routinely in high demand by 
the Combatant Commanders, such as infantry, military police, 
transportation and civil affairs. Rather than requesting additional 
force increases, we are decreasing force structure in less demand. When 
completed, we will have restructured and rebalanced more than 100,000 
positions. We have already converted more than 34,000 of these 
positions.
    We are also placing more combat support and combat service support 
structure into the Active Component to improve deployability and the 
ability to sustain operations during the first 30 days of a 
contingency. This increase in high-demand sustainment units will reduce 
the requirements for immediate mobilization of Reserve Component units.
    The Army Reserve's Federal Reserve Restructuring Initiative is 
another program that is helping to resource units at higher levels by 
converting or eliminating current force structure and specialties in 
low demand to increase those in greatest demand. This initiative 
relieves stress on units in higher demand and adds depth to the Army's 
operational forces.
Stabilizing Soldiers and Units to Enhance Cohesion and Predictability
    To improve unit cohesion and readiness, while reducing both 
turbulence in units and uncertainty for families, we are changing how 
we man our units. Our objective is to keep Soldiers in units longer to 
reduce chronically high turnover rates of Soldiers and leaders, improve 
cohesion within units and increase training proficiency and overall 
combat readiness. Units that stay together longer build higher levels 
of teamwork, understand their duties and their equipment better, 
require less periodic retraining and tend to perform better during 
deployments. Fewer moves of Soldiers and their families also saves the 
Army money.
    These assignment policies, now being implemented, will also improve 
quality of life and predictability for Soldiers, families and civilian 
employers. Stabilizing Soldiers, which in certain cases, will be 
challenging to achieve in the near term, will allow their families to 
build deeper roots within their communities and enjoy better 
opportunities for spouse employment, continuity of healthcare, 
schooling and other benefits. This program also reduces the chance of a 
Soldier moving from a unit that recently redeployed to a unit preparing 
to deploy. The Army gains more cohesive, more experienced units while 
Soldiers and families benefit from greater predictability, stability 
and access to stronger support networks that enhance well-being.
    The 172nd Separate Infantry Brigade, in Alaska, was the first unit 
to implement unit stability. The Army will man four more brigades using 
this method this year. The Army will continue to implement 
stabilization policies as units redeploy to their home stations.
Leveraging Army Science and Technology Programs
    The focus of Army science and technology is to accelerate maturing 
technologies with promising capabilities into the Current Force faster 
than expected. These technologies include:
  --Networked battle command and logistics systems;
  --Networked precision missiles and gun-launched munitions; and
  --Improved intelligence sensors, active and passive protection 
        systems, unmanned ground and air systems and low-cost 
        multispectral sensors.
    Many of these technologies are already being fielded to our front-
line Soldiers to dramatically improve their capabilities. Specific 
science and technology initiatives will improve existing capabilities 
to:
  --Detect and neutralize mines and improvised explosive devices 
        (IEDs);
  --Identify friendly forces in combat;
  --Develop medical technology for self-diagnosis and treatment;
  --Identify hostile fire indicators; and
  --Enhance survivability, training systems and robotics.
    We are working to harness the full potential of our science and 
technology establishment to improve the capability of our forces to 
defeat opponents in complex environments, which include urban terrain, 
triple-canopy jungle conditions, desert terrain, mountainous 
environments and caves.
Spiraling Future Combat Systems Capabilities into the Current Force
    Our largest, most promising, science and technology investment 
remains the pursuit of Future Combat Systems (FCS) technologies. The 
FCS-equipped force will add crucial capabilities to the Future Force to 
achieve Department of Defense transformation goals. FCS is not a 
platform. It is a family of 18 networked air and ground-based maneuver, 
maneuver support and sustainment systems.
    Networked FCS capabilities will provide unprecedented levels of 
situational awareness by integrating communications, sensors, battle 
command systems as well as manned and unmanned reconnaissance and 
surveillance systems. FCS-equipped units, operating as a system of 
systems, will be more deployable and survivable than our current units 
and will enhance joint capabilities. They will also be better suited to 
conduct immediate operations, over extremely long distances, with other 
members of the Joint Force, to produce strategic effects.
    In July 2004, the Army restructured the FCS program to accelerate 
the introduction of battle command, the Army network and other crucial 
capabilities to the Current Force, while we continue to build our 
initial FCS-equipped BCT. Improvements to the Army network, known as 
LandWarNet, are focused on applying lessons learned from Iraq and 
Afghanistan to improve our forces' ability to see first, understand 
first, act first and finish decisively. LandWarNet, designed to support 
all Joint communications architectures, will apply the most mature 
technologies commercially available and support the fielding of the 
Joint Network Node, the Warfighter Information Network and the Joint 
Tactical Radio System.
    The Network provides the backbone for introducing the key FCS 
capabilities identified to be fielded early which include:
  --Unattended ground sensors;
  --Intelligent munitions;
  --Non-line-of-sight launch systems and cannon artillery; and
  --A range of unmanned aerial platforms.
    These systems provide greater target detection, force protection 
and precision-attack capabilities than we have today. Specific programs 
will enhance protection from enemy mortars, artillery and rockets and 
improve Soldiers' ability to communicate in urban and other complex 
settings. The acceleration of selective FCS technologies is providing 
immediate solutions to critical problems our Soldiers face today. The 
technologies we spiral into the Current Force today, coupled with the 
doctrinal and organizational concepts being developed to enable them, 
will also help to improve the decisions we make concerning the Future 
Force.
Restructuring Army Aviation
    The Army is also transforming its aviation forces to develop 
modular, capabilities-based forces optimized to operate in a more joint 
environment. This past year, the Army cancelled the Comanche Program 
and redirected its resources into other Army aviation programs. The 
technologies developed by the Comanche Program are being used in our 
current Army aviation platforms.
    The reallocation of funding allowed the Army to modularize, 
modernize and improve its force protection capabilities. The Army is 
accelerating aircrew protection and fielding Aircraft Survivability 
Equipment. Our modular structure reduces the number of brigade designs 
from seven to two. Over the next six years, we are purchasing more than 
800 new aircraft that include 108 attack, 365 utility and 368 armed 
reconnaissance helicopters. We are also modernizing an additional 300 
helicopters. These initiatives will enable the Army to extend the life 
of its critical aviation assets beyond 2020. This will greatly reduce 
the age of our aviation fleet, improve readiness rates and reduce 
maintenance costs.
    As a result of the Comanche termination decision, the Army will:
  --Accelerate the modernization of Reserve Component aviation;
  --Accelerate the Unmanned Aerial Vehicle, Light Utility Helicopter 
        and Armed Reconnaissance Helicopter programs;
  --Focus additional resources on the Future Cargo Aircraft program 
        designed to improve intra-theater lift capacity;
  --Develop a common cockpit for cargo and utility aircraft;
  --Field improved deployability and sustainment kits; and
  --Purchase and install advanced avionics packages.
    This restructuring will result in dramatic Army-wide efficiencies 
by reducing training costs and standardizing both maintenance and 
logistics requirements.
   training and equipping soldiers to serve as warriors and growing 
                            adaptive leaders
Reinforcing Our Centerpiece: Soldiers as Warriors
    Human skills may change as technology and warfare demand greater 
versatility. No matter how much the tools of warfare improve, it is the 
Soldier who must exploit these tools to accomplish his mission. The 
Soldier will remain the ultimate combination of sensor and shooter.
    The Army prepares every Soldier to be a Warrior by replicating, to 
the maximum degree possible, the stark realities of combat to condition 
Soldiers to react instinctively. We have changed our training systems 
to reflect the realities of war and to better prepare our Soldiers. Our 
goal is to build Soldiers' confidence in themselves, their equipment, 
their leaders and their fellow Soldiers.
    The biggest change is in our initial military training for new 
Soldiers. Initial-entry Soldiers are now being prepared to operate in 
an environment that knows no boundaries. They are receiving 
substantially more marksmanship training, hand-to-hand combat 
instruction, an increased emphasis on physical fitness, live-fire 
convoy training and more focus on skills Soldiers need to operate and 
survive in combat.
    Our Soldiers are smart, competent and totally dedicated to 
defending the Nation. All are guided by Army Values (Figure 2). They 
commit to live by the ideals contained in The Soldier's Creed (Figure 
3). This creed captures the Warrior Ethos and outlines the professional 
attitudes and beliefs desired of American Soldiers.

    ----------------------------------------------------------------

                              Army Values
    Loyalty: Bear true faith and allegiance to the U.S. Constitution, 
the Army, your unit, and other soldiers.
    Duty: Fulfill your obligations.
    Respect: Treat people as they should be treated.
    Selfless-Service: Put the welfare of the Nation, the Army, and your 
subordinates before your own.
    Honor: Live up to all the Army values.
    Integrity: Do what's right, legally and morally.
    Personal Courage: Face fear, danger, or adversity (physical or 
moral).

    ----------------------------------------------------------------

                                Figure 2

    ----------------------------------------------------------------

                          The Soldier's Creed
    I am an American soldier.
    I am a warrior and a member of a team. I serve the people of the 
United States and live the Army values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained and 
proficient in my warrior tasks and drills. I always maintain my arms, 
my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American soldier.

    ----------------------------------------------------------------

                                Figure 3

    Mental and physical toughness underpin the beliefs embraced in the 
Soldier's Creed and must be developed within all Soldiers--without 
regard to their specialty, their unit or their location on the 
battlefield. The Warrior Ethos engenders the refusal to accept failure, 
the conviction that military service is much more than just another 
job, and the unfailing commitment to be victorious. It defines who 
Soldiers are and what Soldiers must do. It is derived from our long-
standing Army Values and reinforces a personal commitment to service.
    Soldiers join the Army to serve. Our Soldiers know that their 
service is required to secure our Nation's freedoms and to maintain the 
American way of life. We will never take for granted the personal 
sacrifices our Soldiers and their families endure, which include facing 
the hardship of war, extended periods of separation and, in the case of 
our Reserve Component Soldiers, concerns over continued employment and 
advancement in their civilian jobs.
Recruiting and Retaining Soldiers
    The Army continues to attract highly qualified and motivated young 
people to serve. To maintain our high-quality Army, we must recruit and 
retain good Soldiers. We are proud of the men and women who come into 
the Armed Forces to make a difference, to be part of something larger 
than themselves and to ``give something back'' to their country.
    In 2004, we met our Active and Reserve recruiting goals. The Army 
National Guard fell just short of its overall recruiting goal. While 
the recruiting environment is a challenging one, we have not lowered 
our standards. Our reenlistment rates reflect a positive outlook toward 
continued service. In 2004, the Active Component far exceeded its 
retention goal (107 percent) while the Army Reserve and Army National 
Guard achieved 99 percent of their goals.
    Our continued success is a testament to the citizen-patriots of 
America who enlist and reenlist in our ranks, yet we know that our 
operational situation could negatively impact recruiting and retention. 
We are therefore resourcing several incentives to help attract and 
retain the right people. We continue to offer options for continued 
service while meeting Soldiers' individual goals. Moreover, we continue 
to adjust policies and incentives to access new Soldiers, reenlist 
current Soldiers and reduce unit attrition rates. This ensures that our 
Army is manned with top-quality people and capitalizes on investments 
in training, education and mentoring.
    In light of the challenges we foresee, we will need the best minds 
within the Army, Congress, industry and academia to create the 
environment and to devise and implement strategies to sustain our ranks 
with the high-quality men and women that are our centerpiece.
Equipping Our Soldiers
    Our Soldiers rely on and deserve the very best protection and 
equipment we can provide. To equip them for the challenges they face, 
one of the most critical issues we are addressing is vehicle armor. 
With the support of Congress, acting in full partnership with industry, 
the Army has dramatically increased the pace of both production and 
fielding. By March 2005, the current requirement of approximately 
32,500 tactical wheeled vehicles in the Iraq and Afghanistan theaters 
will be protected either with integrated, add-on or locally fabricated 
armor. By June 2005, we will have replaced all fabricated armor with 
add-on armor. This rapid delivery schedule has increased the number of 
armored vehicles in theater one-hundred-fold since August 2003.
    Figure 4 lists eight key Soldier protection areas ranging from 
providing body armor for Soldiers to armor for HMMWVs, trucks and other 
key vehicles. Our enemies will continue to adapt their tactics; we will 
remain steadfast in our commitment to protect our Soldiers by meeting 
and exceeding theater requirements in all areas.
    In addition to protecting Soldiers, the Army is working 
aggressively to provide them the best possible equipment. The Army has 
established two programs to anticipate Soldiers' needs and respond 
quickly to those identified by commanders. Through emergency 
supplemental appropriations, Congress has been particularly helpful in 
funding these vital programs.

                   EQUIPPING OUR SOLDIERS: SOLDIER PROTECTION PROGRAMS IN IRAQ AND AFGHANISTAN
----------------------------------------------------------------------------------------------------------------
               Area                       Where we were August 2003             Where we are in January 2005
----------------------------------------------------------------------------------------------------------------
Soldier body armor...............  Estimated 109,000 soldiers equipped;    All soldiers and DOD civilians in
                                    Deltoid Auxiliary Protectors not        theater equipped; plus 60,000
                                    fielded.                                Deltoid Auxiliary Protectors issued
Up-armored HMMWVs................  Approximately 250 in theater..........  More than 6,400 HMMWVs fielded
Tactical wheeled vehicle add-on    Developing plan to equip more than      More than 19,000 vehicles in theater
 armor kits.                        10,000 vehicles.                        have add-on armor kits
Armored security vehicles (ASV)..  ASV program cancelled during the 2003   82 ASVs in theater; total requirement
                                    budget and programming decision.        of 872 approved
Bradley reactive armor tiles       140 vehicle sets delivered............  592 sets delivered; acceleration plan
 (BRAT).                                                                    in execution
Counter-IED device...............  Minimal capability in theater.........  1,496 systems in theater
Tactical and small unmanned        Two systems deployed to theater;        128 systems deployed; requirement
 aerial vehicle (UAV).              requirement is 194.                     remains 194
Aircraft survivability equipment   No fixed wing ASE; in process of        All theater aircraft upgraded with
 (ASE).                             upgrading CH-47 Chinook and UH-60       basic ASE. In process of upgrading
                                    Blackhawk aircraft with basic ASE.      to an advanced common missile
                                                                            warning system/improved
                                                                            countermeasure munitions dispenser
                                                                            (CMWS/ICMD)
----------------------------------------------------------------------------------------------------------------


                                Figure 4

    The Rapid Fielding Initiative (RFI) is designed to fill Soldier 
equipment shortfalls by quickly fielding commercial off-the-shelf 
technology rather than waiting for standard acquisition programs to 
address these shortages. RFI is increasing Soldier capabilities at an 
unprecedented pace. Since September 2002, we have equipped 36 Brigade 
Combat Teams. In 2004 alone, the Army equipped more than 180,000 
Soldiers.
    We are equipping deploying National Guard, Army Reserve and Active 
Component Soldiers to a common standard. Current plans call for 
equipping about 258,000 Soldiers in 2005 and the entire operational 
force by September 2007. We are using fielding teams at home stations 
and in theater to ensure that every Soldier receives 49 items including 
body armor, advanced ballistic helmets, hydration systems, ballistic 
goggles, kneepads, elbow pads and other items. The equipment being 
issued to units reflects the lessons learned during three years of 
fighting in complex environments, including optical sights for weapons, 
grappling hooks, door rams and fiber optic viewers to support Soldiers' 
ability to observe from protected positions.
    The Rapid Equipping Force (REF) typically uses commercial and 
field-engineered solutions to quickly meet operational needs. REF has 
executed numerous initiatives to support the Army's Improvised 
Explosive Device (IED) Task Force and the requirements of the other 
Services. REF solutions meet immediate needs and are then assessed for 
wider fielding and incorporation into standard acquisition processes.
    REF teams in Afghanistan and Iraq interact with commanders at 
brigade and battalion levels. Equipment provided ranges from lock shims 
to open padlocks nondestructively to far more sophisticated, remote-
controlled reconnaissance devices to explore caves, tunnels, wells and 
other confined spaces without endangering Soldiers. REF also provides 
predeployment and in-theater training on the technological solutions it 
provides.
Training Soldiers and Growing Adaptive Leaders
    A balance of training and education is required to prepare Soldiers 
to perform their duties. Training prepares Soldiers and leaders to 
operate in relatively certain conditions, focusing on ``what to 
think.'' Education prepares Soldiers and leaders to operate in 
uncertain conditions, focusing more on ``how to think.'' We are 
developing more rigorous, stressful training scenarios to prepare 
leaders to be more comfortable while operating amidst uncertainty.
    Our programs develop leaders with the right mix of unit 
experiences, training and education needed to adapt to the rigors and 
challenges of war. We continue to adjust training, across the Army, to 
reflect the joint operating environment by incorporating the lessons 
learned from current operations. We are also implementing the National 
Security Personnel System, an innovative new approach to civilian 
personnel management and leader identification. This will help to 
transform our management and development of critical Army civilians and 
achieve our desired objectives for the overall mindset and culture of 
the force.
    In light of the challenges posed by the 21st century security 
environment, the Army is moving from an ``alert-train-deploy'' training 
model to a ``train-alert-deploy-employ'' model. We recognize that, in 
an increasing number of situations, we will have little time to train 
prior to deploying. For this reason, Army transformation is focused on 
providing key training and education to increase readiness for no-
notice expeditionary operations.
    We have incorporated lessons learned into all of our systems and 
training scenarios at our mobilization stations and combat training 
centers. This adaptation is having an immediate, tangible impact on the 
streets of Iraq, the battlefields of Afghanistan and in other places 
around the world. Other key improvements include:
  --Increased funding to adapt ranges and facilities to reflect likely 
        combat situations;
  --Adjusted Defense Language Institute requirements to meet immediate 
        operational needs for Arabic translators;
  --Increased ammunition allocations to improve every Soldier's live-
        fire weapons training; and
  --Required live-fire training to ensure all Soldiers and units 
        develop proficiency in the key battle drills needed to conduct 
        safe convoy operations and other tasks.
    To ensure our leaders learn from our veterans, we have implemented 
formal assignment guidelines to make best use of Soldier and leader 
experiences. We are assigning veterans to key joint billets as well as 
to key instructor and doctrine development positions. In addition, our 
most experienced officers and noncommissioned officers will return to 
operational units to apply their experiences in leading our fighting 
units.
    The Army remains committed to the education of our leaders even 
during this period of war. In fact, we are more aggressively pursuing 
leaders' education now than during any other period of conflict in our 
history. We are educating our leaders to expand their minds, increase 
their cultural awareness and to promote a ``lifetime of learning.'' 
These initiatives to our professional military education are based on 
three pillars--institutional education, self-study and experience. The 
synergy created by the combination of these three forms of education 
provides our leaders with enhanced capabilities to adapt to an 
increasingly ambiguous security environment.
    To facilitate excellence in our leaders at every level, Joint 
Professional Military Education (JPME) is embedded throughout Army 
learning. Joint awareness is introduced in precommissioning education 
and training of all officers, as well as the mid-level noncommissioned 
officer courses. Our training and education systems further emphasize a 
more in-depth understanding of joint principles and concepts beginning 
at the Captain/Major level for officers and the Sergeant Major level 
for our noncommissioned officers. Our senior-level JPME programs 
develop our civilian leaders and further educate military leaders on 
the joint, multinational and interagency processes. This education is 
reinforced by experiences obtained in joint assignments. This increased 
understanding of the capabilities of other Services and external 
organizations significantly improves our leaders' ability to support 
the Joint Force in achieving national objectives.
    Our military education programs teach our leaders critical thinking 
skills in ``how to think'' versus ``what to think.'' Supported by Army 
Values, the Warrior Ethos and the experiences obtained through training 
and combat, Army leaders at all levels continue to hone the skills 
required to win in the complex environment of the 21st century.
Enhancing the Combat Training Centers
    The Combat Training Center (CTC) Program provides highly realistic 
training to prepare Soldiers and leaders to execute our doctrine for 
operating with other Services, the military forces of other nations and 
other agencies of the U.S. Government. This training is essential as we 
become increasingly more interdependent with other Services, allies and 
the interagency community. The training centers include the Battle 
Command Training Program at Fort Leavenworth, Kansas; the Joint 
Readiness Training Center at Fort Polk, Louisiana; the National 
Training Center at Fort Irwin, California; and the Combat Maneuver 
Training Center at Hohenfels, Germany.
    These training centers are agents of change. Training scenarios are 
constantly updated to reflect changing battlefield conditions and 
incorporate lessons learned. In all scenarios, Soldiers and leaders are 
presented with complex, cross-cultural challenges by large numbers of 
role players who act as both combatants and foreign citizens.
    Additionally, each of the training centers is building extensive 
urban combat training facilities, as well as cave and tunnel complexes, 
to simulate wartime environments. As the Army transforms to a modular 
force, the CTCs will improve their ability to export a CTC-like 
training experience to home stations to reduce deployment requirements 
for training. The CTCs will continue to adapt to meet the training 
requirements to best serve a modularized Army.
 attaining a quality of life and well-being for our people that match 
                      the quality of their service
Maintaining the Viability of the All-Volunteer Force
    The United States Army owes its success to the All-Volunteer Force, 
which provides the high-quality, versatile young Americans we depend on 
to serve as Soldiers. This is the first time in our history in which 
the Nation has tested the All-Volunteer Force during a prolonged war. 
The quality-of-life programs that support our Soldiers and their 
families, as well as our civilian workforce, will play a major role in 
maintaining the overall viability of this concept. Determining what 
kind of All-Volunteer Army we need and developing the environment, 
compensation, education and other incentives to keep it appropriately 
manned may well be the greatest strategic challenge we face.
    Maintaining the viability of this force will depend on several 
factors. First, American citizens must remain convinced that the Army 
is a great place to serve. While Soldiers perform their duties to meet 
Army expectations, the Army, in turn, must provide an environment in 
which individual aspirations can be met. To concentrate on the 
challenges they face, Soldiers must understand the frequency and cycle 
of projected deployments. Likewise, they must believe that their 
families will be provided for in their absence. Similarly, programs to 
encourage civilian employer support to Reserve Component Soldiers, who 
comprise more than half the Army force, are required to recruit and 
retain Reserve Component Soldiers.
    The Army is executing a full, diverse range of programs and 
activities that will help us to attract and retain the quality people 
we need to maintain a volunteer force during a time of war. It is of 
national interest to retain these dedicated Soldiers to sustain the 
overall viability of our All-Volunteer Army. The support of Congress 
and the American people is vital to this effort.
Caring for Army Families and Soldiers
    Army Well-Being programs contribute to the Army's ability to 
provide trained and ready forces. These programs enable leaders to care 
for their people while accomplishing the missions assigned to their 
units. Providing for the well-being of Soldiers' families is a 
fundamental leadership imperative that requires adequate support and 
resources. We are pursuing numerous programs designed to improve spouse 
employment, ease the transitioning of high school students during moves 
and extend in-state college tuition rates to military families. We are 
also examining how best to expand support for veterans and National 
Guard and Army Reserve Soldiers. For example, TRICARE policies now 
allow for the eligibility of National Guard and Reserve Soldiers and 
their families.
    Housing programs are another way in which we manifest our care for 
Soldiers and their families. We continue to focus considerable effort 
on our Residential Communities Initiative and Barracks Modernization 
Program. Congressional support for these initiatives has had a dramatic 
effect on improving the quality of life for our Soldiers and their 
families. The Army has already privatized more than 50,000 housing 
units and will eventually privatize over 32,000 more.
    Programs like the Residential Communities Initiative, when 
reinforced with other ongoing programs, will greatly help in our 
ability to retain Soldiers and families. These programs include:
  --Improvements in healthcare, child care, youth programs, schools, 
        facilities and other well-being initiatives; and
  --Investments in new barracks for Soldiers without families, new 
        centers for Reserve Component units and significant 
        improvements in training ranges.
    We support our Soldiers who have become casualties during war 
through the Disabled Soldier Support System (DS\3\). This initiative 
provides our Army's most severely disabled Soldiers and their families 
with a system of follow-up support beyond their transition from 
military service. DS\3\ provides support to families during the initial 
casualty notification, tracks the Soldier's return trip home and 
provides appropriate assistance in coordinating pertinent local, 
federal and national agencies. For the Soldier, this support includes 
rehabilitation, support at the medical and physical evaluation boards 
(which embrace unprecedented ways for severely injured Soldiers to 
continue to serve) and integration with veterans affairs organizations, 
as required.
    The Army will continue to look for ways to improve on our DS\3\ 
initiative and deliver on our unfailing obligation to care for our 
people. To monitor and to report on the care being afforded to our 
Soldiers in the DS\3\ program, we have enlisted the support of our 
voluntary Civilian Aides to the Secretary of the Army. These aides are 
notified when disabled Soldiers are released from active service. They 
support the transition of these Soldiers to civilian life and work 
closely with civic leaders to assist in job placement, continued 
rehabilitation, education and other services to benefit these Soldiers 
and their families.
    The resilience of the young men and women and their spouses, who 
have sacrificed so that others might have a brighter future, is 
humbling and exemplary. We will honor their service and sacrifice by 
remaining steadfast in our support to them.
 providing infrastructure to enable the force to fulfill its strategic 
                           roles and missions
Business Transformation
    Transformation of our business, resourcing and acquisition 
processes promotes the long-term health of the Army. It will free human 
and financial resources that can be better applied towards 
accomplishing our warfighting requirements and accelerating other 
aspects of transformation.
    We are working aggressively to streamline our business processes 
and practices by taking advantage of industry innovation through 
commercial off-the-shelf (COTS) products, outsourcing and partnering. 
We are also adopting electronic business operations and a portfolio 
management approach to information technology requirements, while 
continuing to pursue U.S. Government guidelines for competitive 
sourcing. These reform initiatives will remain congruent with other 
Department of Defense transformation initiatives, such as the Defense 
Integrated Military Human Resources System.
    One key business initiative is the General Fund Enterprise Business 
System, an integrated COTS system that will replace the Army's 30-year-
old accounting systems. The objective is to meet legislative 
requirements, while helping the Army to obtain an unqualified audit 
opinion of its annual financial statements.
    Additionally, the Army Review and Resourcing Board is helping to 
validate and resource requirements, to accelerate the ``requirements to 
solutions'' cycle time and to make recommendations to the leadership on 
resource adjustments. The Army intends to make our processes more 
flexible, transparent and responsive to both immediate and future 
requirements of the Joint Force.
    To meet the needs of the Future Force and to improve both 
effectiveness and efficiency, we are also adapting the Institutional 
Army. The Institutional Army helps to accomplish our Title 10 functions 
to recruit and train our Soldiers, generate and sustain the force and 
other Services with materiel and equipment, and prepare the force for 
the future through doctrine development, research and experimentation. 
It represents about one-third of the Army in the form of Active, 
National Guard, Army Reserve units, Department of the Army civilians 
and contractors. It includes Headquarters, Department of the Army; 
Training and Doctrine Command; Forces Command; Army Medical Command; 
Army Materiel Command; Army Corps of Engineers and numerous other 
organizations.
    The idea of adapting the Institutional Army is not new. Driven by 
strategic, operational and fiscal necessities of war, the time to do it 
is now. The Army Campaign Plan communicates the scope of adaptation 
that is required to:
  --Identify and divest ourselves of functions no longer relevant to 
        current missions;
  --Develop a joint, interdependent, end-to-end logistics structure 
        that integrates a responsive civil-military sustaining base to 
        better meet Army operational requirements;
  --Foster a culture of innovation to significantly increase 
        institutional agility; and
  --Convert military positions to civilian positions, where 
        appropriate, to improve the availability of Soldiers for 
        deploying units.
    We are incorporating these objectives into a comprehensive plan for 
adapting the Institutional Army, process-by-process, structure-by-
structure, over a multiyear period. This plan will provide context, 
direction and a general vector to support the immediate adaptation of 
the Institutional Army to reflect our wartime focus. The Army will 
develop this plan during this fiscal year.
Maintaining Our Installations as ``Flagships of Readiness''
    Our installations are an essential component in maintaining the 
premier Army in the world. Our installations are the platforms from 
which we rapidly mobilize and deploy military power and sustain our 
military families. Installations also play a vital role in training the 
force and reconstituting it upon return from deployment. They also 
provide deployed commanders with the ability to reach back for 
information and other support through advanced communications 
technology.
    To enable the creation of new modular brigades, the Army has 
greatly accelerated the normal planning, programming and budgeting 
cycle, requiring installation commanders to find innovative solutions 
to support additional Soldiers training and living on our 
installations. The Army is using existing facilities when available and 
making renovations and modifications, where feasible. Often, we must 
acquire temporary structures to satisfy facility shortfalls. We are 
also funding site preparation work, permanent utility infrastructure 
and renovation projects. Each installation has unique requirements to 
support and sustain the Army's new modular force structure.
    The condition of our installation infrastructure, such as vehicle 
maintenance and physical fitness facilities, continues to present 
challenges due to the compounding effects of many decades of 
underfunding. Investment in the installations that are homes to our 
Soldiers and families, and the workplace for our civilians, will 
continue to play a vital role in attracting and retaining volunteers to 
serve.
Improving Global Force Posture
    The Army is adjusting its global posture to meet the needs of 
Combatant Commanders. The objective is to increase strategic 
responsiveness while decreasing its overseas footprint and exposure. As 
part of a larger Department of Defense program, these adjustments will 
have a fundamental impact on our facilities and our ability to surge 
forces when needed. In place of traditional overseas bases with 
extensive infrastructure, we intend to use smaller forward operating 
bases with pre-positioned equipment and rotational presence of 
personnel.
    Parallel with the Base Realignment and Closure process, the Army is 
identifying critical joint power projection installations to support 
the mobilization, demobilization and rapid deployment of Army forces. 
We are also enhancing force reception and deployed logistics 
capabilities to quickly respond to unforeseen contingencies.
    To complete the transition to an expeditionary force, we will 
reposition ground forces to meet emerging challenges and adjust our 
permanent overseas presence to a unit-rotation model that is 
synchronized with force generation initiatives. In Europe, both heavy 
divisions will return to the United States. They are being replaced by 
expanding the airborne brigade in Italy, enhancing the Army's training 
center in Germany and establishing a possible rotational presence in 
Eastern Europe. We will maintain a rotational presence in the Middle 
East while eliminating many of our permanent bases. In the Pacific, we 
will maintain smaller forward-presence forces, but will station more 
agile and expeditionary forces capable of rapid response at power 
projection bases. Finally, we will leverage our improved readiness to 
increase our rotational training presence among our security partners.
LandWarNet
    LandWarNet is the Army's portion of the Department of Defense's 
Global Information Grid. LandWarNet, a combination of infrastructure 
and services, moves information through a seamless network and enables 
the management of warfighting and business information.
    Operations in Iraq and Afghanistan highlight the power of a highly 
mobile communications network and network-centric operations. A 
network-centric force has dramatically improved situational awareness 
and quality of information which, in turn, leads to dramatic 
improvements in military effectiveness across the range of vital 
functions including operational cycle times, command and control, force 
application, force protection and logistics. These improvements combine 
to create unprecedented levels of flexibility and agility.
    The 1st Cavalry Division and the 1st Armored Division have 
demonstrated this agility in their operations. Using the power of 
networked communications, they have been able to move information at 
unprecedented rates which has shortened the time required to conduct 
tactical and operational updates. This has accelerated the speed of 
command by enabling faster planning and execution of operations. Using 
this technology, Stryker units were able to move from northern 
locations to the south and fight two battles within 48 hours, 
demonstrating a significant improvement in both flexibility and 
agility.
    Equipping Soldiers with world-class communications capabilities is 
also improving the ability to provide logistical support. For example, 
the 3rd Infantry Division was fielded, prior to their redeployment to 
Iraq this year, with the Joint Network Transport Capability-Spiral, 
which includes the Joint Network Node, Trojan Spirit and the Combat 
Service Support Very Small Aperture Terminal. These systems provide 
versatile satellite communications that improve the ability to sustain 
operations over extended distances in complex terrain by reducing gaps 
in current capability. Three other divisions will receive these systems 
this year. We are also fielding commercial solutions available now to 
expand communications capabilities and to increase self-sufficiency.
    The Network will also help to provide ``actionable intelligence'' 
for commanders and Soldiers in a more timely manner than today. The 
Network will improve situational awareness and the quality and speed of 
combat decision making. It will leverage the Army's initiatives to 
expand human intelligence and improve analytical capabilities for 
deployed forces. Moreover, it will enable improvements in collaboration 
and analysis, while making it possible to share intelligence products 
more readily with the commanders and Soldiers that have the greatest 
need for them.
    Accelerating the fielding of Battle Command capabilities to 
establish a more capable and reliable network will support the 
Department of Defense goal to bring the joint community closer to a 
common operational picture. LandWarNet will integrate joint maneuver 
forces, joint fires and actionable intelligence to produce far greater 
capability and responsiveness. The combined effect of our Battle 
Command and Network programs will be to improve combat capability 
today, while enhancing the relevance and readiness of the Future Force.
     balancing risk: the tension between current and future demands
    To reduce the risk associated with operations in support of the 
Global War on Terror, in the aftermath of September 11, we have made 
numerous decisions to allocate resources to immediate, urgent wartime 
needs. These decisions, made prior to and during 2004, have better 
enabled our Soldiers to accomplish their missions. Our challenge, in 
the months and years ahead, will be to establish a balance between 
current and future investments that will keep risk at moderate levels 
as we support the execution of the full scope of our global commitments 
while preparing for future challenges.
``Buying Back'' Capabilities
    Prior to September 11, the Army's strategic investment decisions 
were based on a prevailing view that, in the absence of a peer 
competitor, risk could be accepted in numerous areas of procurement for 
the Current Force to facilitate substantial investment in the Future 
Force.
    In the aftermath of September 11, Army requirements changed 
dramatically. Army decisions made during 2004 reflect the need to ``buy 
back'' many of the capabilities, forsaken in recent years, now required 
to support the Combatant Commanders. Buying back these capabilities has 
reduced operational risk, improved force protection and supports 
evolving priorities. While these decisions have produced dramatic, 
immediate improvements for our Soldiers and for our capabilities in 
Iraq and Afghanistan, the costs, in excess of $6.5 billion, have been 
substantial.
Major Decisions in 2004
    During 2004, the Army restructured or cancelled 126 programs to 
free resources for more pressing wartime requirements. The most 
significant of these decisions are described below.
  --In May 2004, as highlighted earlier, the Army cancelled the 
        Comanche Program. We are reinvesting the $14.6 billion in 
        savings into pressing Army aviation requirements and correcting 
        many chronic equipment shortfalls.
  --In July 2004, the Army restructured the Future Combat Systems (FCS) 
        Program to accelerate the introduction of crucial new 
        capabilities to the Current Force. By accelerating FCS, the 
        Army will be able to spiral promising technologies into the 
        hands of Soldiers and leaders to give them the tools they need 
        now.
    Other decisions made by Congress or the Department of Defense acted 
to significantly enhance the Army's capability to accomplish its 
assigned missions.
  --In October 2004, the Army was authorized by the National Defense 
        Authorization Act to raise Active Component end strength by 
        20,000 Soldiers and, between 2005 and 2009, increase by an 
        additional 10,000 Soldiers. This increase is intended to 
        provide the personnel strength needed to implement our modular 
        conversion and rebalancing initiatives. The increase in end 
        strength also expands the potential options for operational 
        tour lengths, which we are fully evaluating in the larger 
        context of the Army's ability to generate the combat and 
        sustainment forces needed to support operations in multiple 
        theaters of war.
  --During fiscal year 2004, in addition to supporting these critical 
        decisions, the Department of Defense and the other Services 
        supported Army operations and helped to maintain 
        transformational momentum, by reprogramming significant 
        resources to Army accounts. The Army also received more than 
        $15.4 billion of a $25 billion contingency reserve fund 
        appropriated by Congress.
Meeting Today's Demands While Preparing for Tomorrow
    We have done much to mitigate risk, in all dimensions, but 
particularly in operational risk. Creating modular units; fielding of 
Stryker Brigade Combat Teams; restructuring of Army Aviation following 
the cancellation of the Comanche Program; establishing the Reset 
Program and initiating rapid fielding; and rapid equipping programs are 
all helping to meet demands for Army forces, while reducing levels of 
operational risk.
    Due to dramatically increased operational tempo, the operational 
fleet's condition and age are affecting current equipment readiness. 
Increased mileage and flight hours, coupled with the severe 
environmental conditions encountered in Iraq and Afghanistan, have 
placed greater stress on the fleet than expected. The Army will require 
assistance to address the risk. As part of the Reset Program, increased 
repair, recapitalization and replacement of systems will be required to 
ensure our fleet is maintained and fully capable.
    Numerous initiatives are focused to reduce force management risk. 
These include:
  --Establishing a larger pool of rotational forces through modularity;
  --Rebalancing the Active and Reserve Components;
  --Eliminating redundant capabilities;
  --Executing a comprehensive military-to-civilian conversion program;
  --Stabilizing the force;
  --Enhancing recruiting and retention by adding recruiters and 
        creating special incentives; and
  --Increasing the personnel strength of the operational Army.
    In addition, congressional approval of increases in Active 
Component personnel strength is helping the Army to man its 
transforming modular Brigade Combat Teams now undergoing activation or 
conversion.
    Our Army is focusing resources on spiraling higher payoff 
technologies into the Current Force to minimize future risks. Our 
investment accounts will be critical to our ability to maintain 
technological superiority and ensure the development and fielding of 
the Future Force. We will need assistance to maintain these investment 
accounts to strike the proper balance between supporting current 
operations and readiness and investing in capabilities required to 
ensure future success.
    To reduce institutional risk, we are continuing to refine our 
resourcing processes to make them more agile and responsive to the 
immediate requirements of the Combatant Commanders and to help prepare 
the Army for future challenges. Our investments in LandWarNet (to 
facilitate real time, common understanding of dynamic situations) are 
improving our installations' ability to project and sustain forces. 
This result is a more rapidly deployable force that requires less 
logistics overhead structure and a greater capacity to reach back to 
their home stations for intelligence, medical and other essential 
support.
    Increased funding will be required to accomplish our current tasks 
and simultaneously prepare for the future. Reduced funding would have a 
significant impact on procurement; repair, recapitalization and 
replacement of the heavily utilized operational fleet; resetting the 
force; and Soldier programs, while preparing the force to accomplish 
the full range of future requirements, projected in an uncertain, 
unpredictable era.
         remaining relevant and ready in service to the nation
    Our commitment to the Nation is certain and unwavering. The Army 
has defended the Nation for 230 years. We continue to remain vigilant 
in this fundamental task by providing the Nation unique capabilities to 
complement those provided by the other Services.
    The Army remains a values-based organization committed to the 
ideals of Loyalty, Duty, Respect, Selfless Service, Honor, Integrity 
and Personal Courage. These ideals are embodied in the Soldier's Creed 
and the Warrior Ethos and are ingrained into the fiber of every 
American Soldier. We remain dedicated to preparing every Soldier to 
face the realities of combat and positioning the Army to face the 
challenges of the future.
    Even as we fight the Global War on Terror and sustain our other 
strategic commitments, we must continue to focus on tomorrow. We are 
challenging our institutional practices and our assessment of current 
and future warfighting capabilities by asking key questions and 
continuing to validate our answers to them:
  --What are the strategic requirements of the 21st century security 
        environment?
  --What are the characteristics and capabilities of a truly joint, 
        interdependent, network-centric force, designed to dominate 
        across the full range of military operations?
  --Will Army and joint transformation activities produce the 
        capabilities required to dominate across the range of military 
        operations in the environment where they will most likely 
        occur?
  --Are joint land forces (Army, Marines and Special Operations Forces) 
        properly sized, structured and trained to perform the full 
        scope of missions required now and in the future?
  --What are the optimal roles for the Army's Active and Reserve 
        Components and the Joint Force in homeland defense?
  --What will the impact of sustained, protracted conflict be on the 
        All-Volunteer force?
  --What combination of quality of life, compensation, incentives, 
        service options and other tools will be required to recruit and 
        retain the All-Volunteer Force of the future?
    We continue in our determination to achieve our overarching 
strategic goal: to remain relevant and ready by providing the Combatant 
Commanders with the capabilities required to dominate across the range 
of military operations.
    With the support of the Department of Defense and Congress, we are 
sustaining our global commitments while making tremendous progress in 
our transformation--the most dramatic restructuring of the Army in more 
than 50 years. We will need your continued support in order to provide 
relevant and ready forces and other capabilities to the Combatant 
Commanders, while providing for the well-being of our All-Volunteer 
Soldiers and their families who are serving the Nation in this time of 
war.
                               addendum a
                      (data required by ndaa 1994)
    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 1994 require the information in this addendum 
(Note: 521 of the NDAA has been codified in 10 U.S. Code 10542). The 
information is presented in the order and depth as required by the act. 
Section 517 requires a report relating to the implementation of the 
Pilot Program for Active Component Support of the Reserves under 
Section 414 of the NDAA for fiscal years 1992 and 1993. Section 521 
requires a detailed presentation concerning the Army National Guard, 
including information relating to the implementation of the Army 
National Guard Combat Readiness Reform Act of 1992 (title XI of Public 
Law 102-484, and referred in the addendum as ``ANGCRRA''). Section 521 
reporting was later amended by Section 704, fiscal year 1996 NDAA. U.S. 
Army Reserve information is also presented using Section 521 reporting 
criteria.
    Section 517(b)(2)(A).--(See Figure A-1) The promotion rate for 
officers considered for promotion from within the promotion zone who 
are serving as Active Component advisors to units of the Selected 
Reserve of the Ready Reserve (in accordance with that program) compared 
with the promotion rate for other officers considered for promotion 
from within the promotion zone in the same pay grade and the same 
competitive category, shown for all officers of the Army.

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                    \1\      Average \2\
------------------------------------------------------------------------
Fiscal Year 2003:
    Major.....................................         87.4         93.8
    Lieutenant Colonel........................         40.5         79.6
Fiscal Year 2004:
    Major.....................................         93.4         96.9
    Lieutenant Colonel........................         38.9         79.0
------------------------------------------------------------------------
\1\ Active Component (AC) officers serving in Reserve Component (RC)
  assignments at time of consideration.
\2\ Active Component officers not serving in Reserve Component
  assignments at the time of consideration.


                               Figure A-1

    Section 517(b)(2)(B).--(See Figure A-2) The promotion rate for 
officers considered for promotion from below the promotion zone who are 
serving as Active Component advisors to units of the Selected Reserve 
of the Ready Reserve (in accordance with that program) compared in the 
same manner as specified in subparagraph (A) (the paragraph above).

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                    \1\      Average \2\
------------------------------------------------------------------------
Fiscal Year 2003:
    Major.....................................          3.6          7.5
    Lieutenant Colonel........................  ...........          7.2
Fiscal Year 2004:
    Major.....................................          4.6          7.5
    Lieutenant Colonel........................          3.4          7.5
------------------------------------------------------------------------
\1\ Below-the-zone, active component officers serving in Reserve
  Component assignments at time of consideration.
\2\ Below-the-zone, active component officers not serving in Reserve
  Component assignments at the time of consideration.


                               Figure A-2

Section 521(b).
    1. The number and percentage of officers with at least two years of 
active duty before becoming a member of the Army National Guard or U.S. 
Army Reserve Selected Reserve units:
      a. Army National Guard (ARNG) officers: 20,653 or 56.3 percent.
      b. U.S. Army Reserve (USAR) officers: 9,828 or 25.47 percent.
    2. The number and percentage of enlisted personnel with at least 
two years of active duty before becoming a member of the Army National 
Guard or U.S. Army Reserve Selected Reserve units:
      a. ARNG enlisted: 129,985 or 42.5 percent.
      b. USAR enlisted: 36,396 or 21.64 percent.
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active duty service obligation. Of those officers:
      a. The number who are serving the remaining period of their 
        active duty service obligation as a member of the Selected 
        Reserve pursuant to section 1112(a)(1) of ANGCRRA:
        In fiscal year 2004, no officers were released to the selective 
            reserve to complete their obligation.
      b. The number for whom waivers were granted by the Secretary 
        under section 1112(a)(2) of ANGCRRA, together with the reason 
        for each waiver:
        In fiscal year 2004, no waivers were granted by the Secretary 
            of the Army.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps (ROTC) graduates and were released 
from active duty before the completion of their active duty service 
obligation and, of those officers:
      a. The number who are serving the remaining period of their 
        active duty service obligation as a member of the Selected 
        Reserve pursuant to section 1112(a)(1) of ANGCRRA:
        In fiscal year 2004, no distinguished ROTC graduates were 
            released before completing their active duty service 
            obligation.
        In fiscal year 2004, no waivers for distinguished ROTC 
            graduates were granted.
      b. The number for whom waivers were granted by the Secretary 
        under section 1112(a)(2) of ANGCRRA, together with the reason 
        for each waiver:
        In fiscal year 2004, no waivers were granted by the Secretary 
            of the Army.
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (A) two years of active duty, and (B) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
      In fiscal year 2004, four ROTC graduates were released early from 
        their active duty obligation. Of this number, none are 
        completing the remainder of their obligation through service in 
        the Army National Guard, and none through service in the U.S. 
        Army Reserve.
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant and, of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
U.S. Army Reserve data also reported):
      a. ARNG.--1,490 ARNG officers from units were recommended for 
        unit vacancy promotion and promoted. An active duty officer 
        concurred with 100 percent.
      b. USAR.--178 USAR officers from units were recommended for unit 
        vacancy promotion. 121 were favorably considered.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for noncommissioned 
officers and the reason for each such waiver:
      In fiscal year 2004, no waivers were granted by the Secretary of 
        the Army.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and nondeployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (A narrative summary of information pertaining to the U. S. 
Army Reserve is also provided):
      a. ARNG.--In fiscal year 2004, the number of ARNG non-deployable 
        personnel was 38,221. The National Guard Bureau (NGB) maintains 
        the detailed information by State.
      b. USAR.--In fiscal year 2004, the total number of USAR non-
        deployable personnel was 34,318. The United States Army Reserve 
        Command maintains non-deployable Soldier statistical 
        information.
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard (and Army Reserve):
      a. ARNG.--The number of ARNG Soldiers discharged during the 
        previous fiscal year pursuant to section 11115(c)(1) of ANGCRRA 
        for not completing the minimum training required for deployment 
        within 24 months after entering the ARNG is 30 Officers and 
        10,285 enlisted, which includes all 54 States and territories. 
        The breakdown by each State is maintained by NGB.
      b. USAR.--The number of USAR Soldiers discharged in fiscal year 
        2004 due to not completing required military Initial Entry 
        Training (IET) includes 109 officers and 415 enlisted. Those 
        Soldiers who have not completed the required IET within the 
        first 24 months are discharged from the Army Reserve. The 
        United States Army Reserve Command maintains statistical 
        information on non-completion of IET by Army Reserve Soldiers.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary during the previous fiscal year under section 
1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) of 
ANGCRRA described in paragraph (9), together with the reason for each 
waiver:
      In fiscal year 2004, no waivers were granted by the Secretary of 
        the Army.
    11. The number of Army National Guard members, shown for each State 
(and the number of U.S. Army Reserve members), who were screened during 
the preceding fiscal year to determine whether they meet minimum 
physical profile standards required for deployment and, of those 
members: (a) the number and percentage who did not meet minimum 
physical profile standards required for deployment; and (b) the number 
and percentage who were transferred pursuant to section 1116 of ANGCRRA 
to the personnel accounting category described in paragraph (8):
      a. Screened during the preceding fiscal year to determine whether 
        they meet minimum physical profile standards required for 
        deployment:
        ARNG.--In fiscal year 2004, approximately 70,068 ARNG Soldiers 
            underwent a physical. Of these personnel, 2,068, or 3 
            percent, did not meet the minimum physical profile 
            standards required for deployment.
        USAR.--In fiscal year 2004, approximately 20,864 USAR Soldiers 
            underwent a retention physical. Of these, 2,086, or 10 
            percent, were identified for review.
      b. The number and percentage that were transferred pursuant to 
        section 1116 of ANGCRRA to the personnel accounting category 
        described in paragraph (8):
        ARNG.--In fiscal year 2004 6,223 Soldiers were transferred from 
            a deployable to a non-deployable status.
        USAR.--In fiscal year 2004 312 Soldiers, or less than 1 percent 
            of the Army Reserve Selected Reserve, were transferred from 
            a deployable to a non-deployable status.
    12. The number of members, and the percentage total membership, of 
the Army National Guard, shown for each State, who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    13. The number of members, and the percentage of the total 
membership, of the Army National Guard, shown for each State, who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    14. The number of members, and the percentage of the total 
membership, of the Army National Guard, shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization and, of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1118 of ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and U.S. Army Reserve Force Support Package 
(FSP) unit), and a description, displayed in broad categories and by 
State, of what training would need to be accomplished for Army National 
Guard combat units (and U.S. Army Reserve FSP units) in a post-
mobilization period for purposes of section 1119 of ANGCRRA:
      a. ARNG.--Estimated time for post-mobilization training is 
        reported through the Unit Status Report, is classified, and is 
        maintained by the Department of the Army, G-3:
        Information on the type of training required by units during 
            post- mobilization is maintained by U.S. Army Forces 
            Command (FORSCOM) and the Continental United States Armies 
            (CONUSAs).
        Post-mobilization training for enhanced Separate Brigades 
            (eSB)/ARNG Brigade Combat Teams (BCTs) can be categorized 
            as maneuver, attack, defend, command and control, gunnery, 
            NBC defense, and sustainment. Theater specific training 
            requirements to include Antiterrorism (AT) and Force 
            Protection (FP) training are also conducted during the 
            post-mobilization training period.
      b. USAR.--To meet the on-going operational requirements of OIF 
        and OEF, Army Reserve training is now based on a higher 
        readiness requirement to meet the train-alert-mobilize deploy 
        model, which reduces emphasis on post mobilization training. 
        The Army Reserve force must be ready before mobilization. This 
        change requires a new training strategy and increased resource 
        requirements for additional individual and unit training:
        Army Reserve units with significant numbers of cross-leveled or 
            Individual Ready Reserve (IRR) Soldier fills require 
            additional collective training time at the Mobilization 
            Stations. Current mobilization timelines often do not allow 
            for a Mission Rehearsal Exercise (MRE) for deploying combat 
            support and combat service support (CS/CSS) units to the 
            same standard as deploying combat units. However, these 
            units receive home station training to compensate for this 
            shortfall.
        To continue providing capabilities to support the Army in 
            sustained joint and expeditionary operations and to provide 
            predictability for Soldiers, families and employers, the 
            Army Reserve is implementing the Army Reserve Expeditionary 
            Force (AREF). Beginning in 2005, ten like-structured 
            deployable organizations called Army Rotational 
            Expeditionary Packages (AREPs) will be formed. Units in 
            each AREP will plan to mobilize to deploy for up to twelve 
            months once every five or six years. Unit capabilities and 
            readiness within an AREP will be formally validated as it 
            approaches the employment window. The Army Reserve will 
            implement the AREF in 10 phases. As the Army Reserve 
            transforms, early AREP rotations and their timelines will 
            be condensed. As the concept is fully implemented, the 
            rotations and their phases will become more distinct and 
            sequential.
    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the U.S. Army Reserve):
      a. ARNG.--During the preceding fiscal year the ARNG made 
        significant progress towards incorporating Training Aids, 
        Devices, Simulators, and Simulations (TADSS) as an integral 
        part of its training strategy and supported numerous units at 
        mobilization stations with virtual and constructive training 
        tools. In addition, the ARNG training division teamed with the 
        Army G3 to validate virtual maneuver simulators for the entire 
        ARNG heavy force.
      The ARNG is fielding the Advanced Bradley Full-Crew Interactive 
        Simulation Trainer (AB-FIST) that provides full crew precision 
        gunnery for the M2 and M3 family of vehicles. The system 
        underwent a rigorous Limited User Test (LUT) with the U.S. Army 
        Infantry School (USAIS) and the Army Research Institute (ARI). 
        In fiscal year 2004, the AB-FIST was approved by the USAIS 
        Commanding General, as a training device that can be used for 
        Bradley gunnery crew training in addition to the Conduct of 
        Fire Trainer to meet established live fire prerequisites as 
        outlined in DA PAM 350-38. To support maneuver training the 
        ARNG is fielding updated Simulations Network (SIMNET) virtual 
        maneuver simulators for the M1A1 and M2A2 vehicles. The 
        upgraded SIMNET modules feature a new PC-based visual system, 
        host computer, and a sound system. These tank and mechanized 
        infantry platoon sets have upgraded After Action Review (AAR) 
        stations.
      ARNG Battle Staff Trainers are being updated with the Army's 
        latest approved Janus software versions. Janus software 
        operates on portable PCs. The ARNG continues to procure new 
        hardware to ensure these systems can operate the Objective One 
        Semi-Automated Forces (OneSAF) software when it is fielded in 
        fiscal year 2007. Additionally, the Engagement Skills Trainer 
        (EST 2000) continued to be fielded in fiscal year 2004. The EST 
        2000 is the Army's approved collective marksmanship training 
        device. EST 2000 is used by the ARNG to provide unit collective 
        gunnery and tactical training for dismounted Infantry, Special 
        Operations Forces, Scouts, Engineer, Military Police Squads, 
        and Combat Support and Combat Service Support elements. These 
        systems also support units conducting the homeland defense and 
        airport security missions assigned to the ARNG.
      During fiscal year 2004, the ARNG experienced a significant 
        increase in the number of Soldiers mobilized for OIF. The 
        National Guard Bureau procured TADSS sets for deployment to 
        mobilization sites such as Camp Shelby, MS, Fort Bliss, TX, 
        Fort Hood, TX, and Fort Drum, NY. These sets consist of M1 and 
        M2 precision gunnery training devices, rifle marksmanship 
        trainers and other unit specific TADSS. Most importantly in 
        fiscal year 2004, the ARNG led the way in the development of a 
        Virtual Combat Convoy Trainer (VCCT) system. To keep costs low 
        the ARNG required the contractor to leverage existing 
        technology developed for the M1 and M2 virtual gunnery systems. 
        The National Guard Bureau funded the procurement of convoy 
        simulators that train tasks associated with the execution of a 
        convoy. Soldiers train in the simulator prior to executing a 
        convoy live fire exercise.
      Through the ARNG Distributed Battle Simulation Program (DBSP) 
        commanders, staffs and Soldiers receive assistance from 
        ``graybeard'' mentors and TADSS facilitators. DBSP is a 
        contractor organization that provides trained and experienced 
        civilians to ensure the ARNG is using all of the TADSS in a 
        meaningful way to execute annual training requirements. DBSP 
        battle staff training teams provide exercise support during the 
        planning, preparation, and execution of computer-mediated 
        battle staff training. This support augments the support 
        provided by Training Support XXI Soldiers.
      b. USAR.--The Army Reserve has continued to work with the U.S. 
        Army Infantry School and Army Training Support Command to 
        incorporate the Laser Marksmanship Training System into a 
        training strategy that supports initial entry and unit 
        sustainment training. In 2004, Army Reserve efforts with 
        Beamhit Corporation, makers of the laser training system, 
        resulted in the development of full-scale laser targets that 
        support convoy counter-ambush training. These targets permit 
        the Army Reserve's use of current roads and buildings for 
        greater realism in tactical marksmanship training. Soldiers can 
        fire the lasers with blanks from moving vehicles while engaging 
        targets that represent an ambush. Army Reserve units conduct 
        this training at home station rather than waiting to arrive at 
        mobilization stations:
        The Army Reserve also uses simulation devices like the EST 2000 
            and the VCCT systems at consolidated training sites, to 
            include mobilization stations. The Army Reserve has fielded 
            seven EST 2000s and is working with proponents, such as the 
            Military Police School, to leverage its use in MOS 
            reclassification. The Army Reserve mobilized 73 small arms 
            instructors to support CONUSA mobilization operations. At 
            some mobilization stations, ammunition consumption dropped 
            nearly 200 percent of Standards in Training Commission 
            (STRAC) ammunition authorizations to 75 percent. A second 
            mobilization of small arms instructors began in October 
            2004.
    18. Summary tables of unit readiness, shown for each State, (and 
for the U.S. Army Reserve), and drawn from the unit readiness rating 
system as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
      a. Explanations of the information shown in the table:
        Unit readiness reporting information and summary tables are 
            classified. This information is maintained by the 
            Department of the Army, G-3.
      b. Based on the information shown in the tables, the Secretary's 
        overall assessment of the deployability of units of the Army 
        National Guard (and U.S. Army Reserve), including a discussion 
        of personnel deficiencies and equipment shortfalls in 
        accordance with such section 1121:
        Unit readiness summary tables and overall assessments are 
            classified. Department of the Army, G-3, maintains this 
            information.
    19. Summary tables, shown for each State (and the U.S. Army 
Reserve), of the results of inspections of units of the Army National 
Guard (and Army Reserve) by inspector general or other commissioned 
officers of the Regular Army under the provisions of Section 105 of 
Title 32, together with explanations of the information shown in the 
tables, and including display of (a) the number of such inspections; 
(b) identification of the entity conducting each inspection; (c) the 
number of units inspected; and (d) the overall results of such 
inspections, including the inspector's determination for each inspected 
unit of whether the unit met deployability standards and, for those 
units not meeting deployability standards, the reasons for such failure 
and the status of corrective actions. Summary tables depicting CONUSA 
inspection numbers by State for the ARNG and by Regional Readiness 
Command for the USAR units are available from U.S. Army, FORSCOM:
      a. ARNG.--During fiscal year 2004, ARNG State level Inspector 
        General (IG) conducted extensive inspections throughout the 
        United States. State level IGs conducted approximately 336 
        inspections during the year, visiting 538 separate units. 
        Because IG inspections focus on findings and recommendations, 
        the units involved in these inspections were not provided with 
        a pass/fail rating. Results of individual inspections conducted 
        by an IG may be requested for release through the Inspector 
        General of the Army. Operational Readiness Evaluation Data for 
        FSP and eSBs is unavailable as these inspections were 
        eliminated as requirements in 1997. Data available under the 
        Training Assessment Model (TAM) relates to readiness levels and 
        is generally not available in an unclassified format. TAM data 
        is maintained at the State level and is available upon request 
        from State level training readiness officials.
      b. USAR.--In accordance with AR 1-201, the United States Army 
        Reserve Command (USARC) conducts inspections of Regional 
        Readiness Commands (RRCs) and Direct Reporting Units (DRUs) 
        within the USARC Organizational Inspection Program (OIP). USARC 
        maintains the results of all OIPs. The OIP focuses on findings 
        and recommendations. Units do not receive pass/fail ratings. 
        During fiscal year 2004, five OIPs were scheduled, but none 
        were conducted. Units were not inspected because of the high 
        OIF/OEF OPTEMPO. However, the Army Reserve did conduct 12 
        Battle Focus Readiness Reviews, which involved a review of over 
        180 brigade and below units. The Army Reserve also conducted 
        400 command inspections, which represents more than one-third 
        of USAR units. U.S. Army Forces Command (FORSCOM) maintains the 
        results of unit TAMs and the data for Reserve Component FSP 
        unit inspections.
    20. A listing, for each Army National Guard combat unit (and U.S. 
Army Reserve FSP units) of the active duty combat units (and other 
units) associated with that Army National Guard (and U.S. Army Reserve) 
unit in accordance with section 1131(a) of ANGCRRA, shown by State, for 
each such Army National Guard unit (and for the U.S. Army Reserve) by: 
(A) the assessment of the commander of that associated active duty unit 
of the manpower, equipment, and training resource requirements of that 
National Guard (and Army Reserve) unit in accordance with section 
1131(b)(3) of the ANGCRRA; and (B) the results of the validation by the 
commander of that associated active duty unit of the compatibility of 
that National Guard (or U.S. Army Reserve) unit with active duty forces 
in accordance with section 1131(b)(4) of ANGCRRA.
    The listing described above is contained in FORSCOM Regulation 350-
4-Active Component/Reserve Component Partnerships. Detailed assessments 
of specific RC units by associated active duty commanders are 
maintained within FORSCOM at the two CONUSAs and three CONUS-based 
corps. General comments of manpower, equipment and training resource 
requirements in accordance with ANGCRRA follow:
      a. ARNG.--For Army National Guard divisions and BCTs:
      -- Manpower.--Several BCTs have shortages in enlisted personnel 
        and junior officers. Duty Military Occupational Specialty 
        Qualification (DMOSQ) is a training challenge because Military 
        Occupational Specialties (MOS) require extensive training, 
        during a limited training window, in schools that are often 
        taught simultaneously. Within the BCTs, Full-Time Support (FTS) 
        continues to be a challenge, currently filled at approximately 
        55 percent of requirements. In ARNG divisions, recent force 
        structure changes and rebalancing actions are causing short-
        term shortfalls in fill percentages.
      -- Equipment.--The Army is making extraordinary efforts to fully 
        equip all units deploying to theater in terms of vehicles, 
        weapons, communications, force protection equipment and other 
        areas. However, the lack of modernized equipment continues to 
        hamper the BCTs. Shortages in chemical defense equipment and 
        night vision devices limit the full range of capabilities for 
        training of the BCTs. The BCTs continue to receive the bulk of 
        any new equipment fielded to the ARNG.
      -- Training.--Adequate training resources in fiscal year 2004 
        enabled BCTs to sustain platoon pre-mobilization training 
        proficiency. Distances to crew-served weapons ranges and the 
        availability of adequate maneuver areas continue to challenge 
        most units. Virtual and constructive simulation systems combine 
        with live training to provide multi-echelon collective 
        proficiency.
      b. USAR.--Within the Army Reserve, use of the Force Support 
        Package (FSP) unit model is in the process of being replaced by 
        the Army Reserve Expeditionary Packages (AREP) force management 
        model:
      -- Manpower.--The Army Reserve is continuing to improve its 
        operations and training management by building FTS manning as a 
        result of the Congressionally approved Active Guard/Reserve 
        (AGR) and Military Technician (MILTECH) ramps. However, 
        sustaining DMOSQ is impacted in some cases by limited school 
        spaces that are based on class size and student to instructor 
        ratio (2:1 for some course phases). To address this situation, 
        Army Reserve schools have begun to mobilize qualified Army 
        Reserve instructors to teach only in RC schools. The Army 
        Reserve is also starting to accelerate the conduct of courses 
        and use web-based training whenever feasible. Some MOSs require 
        extensive training, for example 15N, 25B, 45G, 91W, and 97B, 
        and sequential schools require a Soldier's absence from their 
        civilian employment for extended periods.
      -- Equipment.--Prior to September 11, the Army's strategic 
        investment decisions were based on a prevailing view that, in 
        the absence of a peer competitor, risk could be accepted in 
        numerous areas of procurement for the Current Force to 
        facilitate substantial investment in the Future Force. The 
        impact of these decisions has been evidenced across all 
        components. In the case of the Army Reserve, this has resulted 
        in not fully fielding force modernization equipment. Today, the 
        Army Reserve has approximately 78 percent of its authorized end 
        items. New procurement and cascading of older equipment from 
        the Active Component (AC) is only keeping pace with battle 
        losses and attrition. The shortage of modern equipment and the 
        retention of obsolete and obsolescent items to maintain 
        equipment on-hand readiness have begun to adversely impact the 
        Army Reserve's ability to continue to support the Army's 
        sustained joint and expeditionary operations.
           Today almost 76 percent of on-hand Army Reserve equipment is 
        deployed, mobilizing, demobilizing or assigned as ``Stay Behind 
        Equipment'' (SBE) in theater. Replacement of SBE for the Army 
        Reserve is an immediate force multiplier for the Army. The Army 
        Reserve continues to support subsequent OIF/OEF rotations and 
        other requirements by using assets from its stateside-based 
        institutional training structure. Much of the equipment 
        returning from OIF/OEF has rapidly expended its service life 
        under combat conditions and must be replaced. The concept of a 
        transformed, modular Army of ``plug and play'' units demands 
        that all units, regardless of component, be equipped to the 
        same levels and with compatible and interoperable systems. 
        Current Army procurement planning, with the assistance of 
        Congressionally directed procurement within the Total 
        Obligation Authority and the National Guard and Reserve 
        Equipment Appropriations (NGREA), are the keys to achieve this 
        goal.
      -- Training.--Some Equipment Readiness Code-A (ERC-A) equipment 
        shortages inhibit effective training. High levels of SBE and 
        backlogs at reconstitution and depot sites further exacerbate 
        the problem. Army Reserve units often have a significantly 
        older generation of equipment on which to train. Units will 
        require additional training time after mobilization to achieve 
        proficiency on collective tasks, especially if modernization 
        equipment is provided after mobilization.
    The results of the validation by the commander of that associated 
active duty unit of the compatibility of that National Guard (or U.S. 
Army Reserve) unit with active duty forces in accordance with ANGCRRA 
are maintained by the Department of the Army, G-3. General comment 
follows:
    For ARNG divisions, BCTs, ARNG Force Support Package (FSP) Units 
and Army Reserve FSP Units: Lack of Force Modernization equipment 
within the Reserve Component (RC) is the foremost AC compatibility 
issue. Until the RC units are modernized and supported at the same 
level as the AC units, most RC units will not be fully compatible with 
AC units until after mobilization. Decreased mobilization to deployment 
and/or employment timelines makes it imperative that RC units be 
modernized and equipped at the same level as the Active Component prior 
to mobilization. As Modified Tables of Organization and Equipment in 
units are updated and unit reorganization continues, the compatibility 
issue will improve.
    21. A specification of the active duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 U.S. Code 
261 note), shown (A) by State for the Army National Guard (and for the 
U.S. Army Reserve), (B) by rank of officers, warrant officers, and 
enlisted members assigned, and (C) by unit or other organizational 
entity of assignment:
      As of September 30, 2004, the Army had 4756 Active Component 
        Soldiers assigned to Title XI positions. The Army goal is 100 
        percent of the total (officer and enlisted authorizations) 
        5,000 personnel authorized for the AC/RC Program. Although 
        constrained by ongoing support to the Global War on Terror, the 
        Active Army is maintaining AC/RC program strength and plans to 
        maintain not less than an aggregate strength level of 90 
        percent (officer and NCO) during the fiscal year 2005 period as 
        addressed in the fiscal year 2005 NDAA. Army G-1 and U.S. Army 
        Human Resources Command carefully tracks fill of Title XI 
        positions (See Figure A-3).

                TITLE XI FISCAL YEAR 2004 AUTHORIZATIONS
------------------------------------------------------------------------
                                          Enlisted   Warrant
                               Officers   Soldiers   Officers    Total
------------------------------------------------------------------------
PERSCOM.....................  .........          5  .........          5
USAR........................         39        332          2        371
TRADOC......................        110        275  .........        385
FORSCOM.....................      1,428      2,471        153      3,899
GFR.........................  .........          2  .........          2
USARPAC.....................         32         62          1         94
                             -------------------------------------------
      Total.................      1,609      3,147        156      4,756
------------------------------------------------------------------------


                               Figure A-3

                                acronyms
AAR--After Action Review
AB-FIST--Advanced Bradley Full-Crew Interactive Simulation Trainer
AC--Active Component
AGR--Active Guard and Reserve
ANGCRRA--Army National Guard Combat Readiness Reform Act
AREF--Army Reserve Expeditionary Force
AREPs--Army Rotational Expeditionary Packages
ARNG--Army National Guard
ASE--Aircraft Survivability Equipment
ASV--Armored Security Vehicle
AT--Antiterrorism
BCT--Brigade Combat Team
BRAT--Bradley Reactive Armor Tiles
CH--Cargo Helicopter
CONUSAs--Continental United States Armies
COTS--Commercial-Off-the-Shelf
CS/CSS--Combat Support and Combat Service Support
CTC--Combat Training Center
DBSP--Distributed Battle Simulation Program
DMOSQ--Duty Military Occupational Specialty Qualification
DOD--Department of Defense
DRUs--Direct Reporting Units
DS\3\--Disabled Soldier Support System
ERC--Equipment Readiness Code
eSB--enhanced Separate Brigades
EST 2000--Engagement Skills Trainer 2000
FCS--Future Combat Systems
FORSCOM--U.S. Army Forces Command
FP--Force Protection
FSP--Force Support Package
FTS--Full-Time Support
GFR--Ground Forces Readiness
HMMWV--High-Mobility Multipurpose Wheeled Vehicle
IED--Improvised Explosive Device
IET--Initial Entry Training
IG--Inspector General
IRR--Individual Ready Reserve
JNTC--Joint National Training Capability
LMTS--Laser Marksmanship Training System
LUT--Limited User Test
MILTECH--Military Technician
MOS--Military Occupational Specialties
MRE--Mission Rehearsal Exercise
NBC--Nuclear, Biological, and Chemical
NCO--Noncommissioned Officer
NDAA--National Defense Authorization Act
NGB--National Guard Bureau
NGREA--National Guard and Reserve Equipment Appropriations
OEF--Operation Enduring Freedom
OIF--Operation Iraqi Freedom
OIP--Organizational Inspection Program
OneSAF--Objective One Semi-Automated Forces
OPTEMPO--Operational Tempo
PERSCOM--Personnel Command
RC--Reserve Component
REF--Rapid Equipping Force
RFI--Rapid Fielding Initiative
ROTC--Reserve Officer Training Corps
RRCs--Regional Readiness Commands
SBE--Stay Behind Equipment
SIMNET--Simulations Network
STRAC--Standards in Training Commission
TADSS--Training Aids, Devices, Simulators, and Simulations
TAM--Training Assessment Model
TRADOC--Training and Doctrine Command, U.S. Army
UA--Unit of Action
UAV--Unmanned Aerial Vehicle
UH--Utility Helicopter
U.S.--United States
USAIS--U.S. Army Infantry School
USAR--United States Army Reserve
USARC--United States Army Reserve Command
USARPAC--U.S. Army Pacific Command
VCCT--Virtual Combat Convoy Trainer
WMD--Weapons of Mass Destruction

    Senator Stevens. General, thank you very much. We're 
pleased to have that further explanation on these soldiers' 
background.
    Mr. Secretary, we welcome Mrs. Harvey. I see she's 
sitting----
    Secretary Harvey. Thank you.
    Senator Stevens [continuing]. Behind you, and we're pleased 
to have her with us today.
    I also want to call attention to the fact that, from the 
Guard and Reserve, we had Lieutenant General Steve Blum, Chief 
of the National Guard Bureau, Lieutenant General Roger Schultz, 
who's Director of the Army National Guard, Lieutenant General 
James Helmly, Chief of the Army Reserve.
    And let me welcome Senator Mikulski. I did so in her 
absence, but she has joined our subcommittee. We have served 
with her for many years on the full committee, and are 
delighted that she has come to this subcommittee.
    Senator Mikulski. Thank you very much, Mr. Chairman. I look 
forward to an active service here. Reporting for duty.
    Senator Stevens. It is welcome duty. Having been whip for 8 
years, I understand, Senator Durbin, you have duty on the floor 
and would like to be recognized. We're pleased to recognize you 
first.
    Senator Durbin. Mr. Chairman, thank you very much. And I 
want to thank Senator Inouye, as well, for giving me this 
opportunity, since I have to be on the floor in a few moments.
    Before I ask my questions, let me just say thank you. Thank 
you to the Secretary, thanks to all of the men and women in 
uniform, and those who--their families and others who support 
them. You make us proud. All of your service is--we'll never be 
able to repay. The best we can do is to say that we're going to 
stand behind you. I think you're going to find that in this 
appropriation bill, both political parties. It is nonpartisan.
    I also want to say that I've been out to Walter Reed 
several times. I've met with some of the fine men and women out 
there who have been injured in combat, and those who are 
treating them. And it is a great facility. I always ask them, 
``Is there anything I can do for the Illinois soldiers, in 
particular?'' And they say, ``They're taking care of us.'' They 
never ask me for anything, which is a good indication.

                            FORCE PROTECTION

    But for one thing, Mr. Secretary, and that was--one of the 
first visits out there, one of the soldiers said, ``You've got 
to do something about these Humvees.'' And that goes way back, 
1\1/2\ years ago. He said, ``There's just not enough protection 
on those Humvees.'' Well, that's become a major national issue, 
and many of the amputees and soldiers who have been injured, 
unfortunately, were in Humvees that were not protected. And 
they were subject to rocket-propelled grenades and these 
roadside bombs and--which still harass our troops and endanger 
them. I'm glad we're moving forward on that.
    The same complaint came about body armor. Many troops did 
not have them. A friend of mine, with a son in active military 
ended up collecting the money, paying for it himself, sending 
the body armor out to his son. He said, ``I just can't wait any 
longer. I've got to do this.''

                              TOURNIQUETS

    Now there's a new issue, Mr. Secretary, and there's one--
it's so simple and basic that I really--I've got to ask you to 
address it. And you may have seen it in the Baltimore Sun on 
Sunday. They did a lengthy piece on the whole question of 
tourniquets and whether that would be standard-issue to our 
soldiers.
    Now, I think everyone agrees that having a tourniquet ready 
and available at a moment's notice is essential in combat, to 
save lives, particularly bleeding from the extremities. Long 
before the--well, at least before the invasion of Iraq, we said 
that this should be standard-issue. Again this year, the issue 
came up, as well.
    This report from the Baltimore Sun, which I know Senator 
Mikulski is well acquainted with, goes through all of the units 
of the military that currently are given tourniquets, these $20 
tourniquets, as standard-issue: Army Rangers, Special Op 
troops, 82nd Airborne, 3rd Infantry, all marines--all carrying 
tourniquets. And yet when the survey was made of other groups, 
particularly Guard and Reserve activated groups, it was found 
that this basic $20 piece of equipment wasn't being issued to 
the soldiers. And your experts on medical treatment and making 
certain that we save lives have said this is an essential part 
of equipment.
    When the Pentagon was asked, ``Why haven't you issued 
tourniquets if they're readily available and so cheap?'' 
someone in the Pentagon said, ``Because we're in the midst of 
designing a pouch to carry them in.'' I hope that's not 
accurate.
    I would like to have you, Mr. Secretary, tell me if you are 
familiar with this problem, whether you could tell us how many 
of our soldiers today in Iraq carry with them, as standard-
issue, a tourniquet, and, if not all of them, how quickly we'll 
be able to provide this life-saving piece of equipment.
    Secretary Harvey. Yes, Senator, good question. I, like you, 
am very concerned. Soldier protection, force protection, 
quality of life of the soldiers, nothing is more important to 
me than that. As I've said on several occasions, providing for 
the well-being of the soldiers and their families is my number 
one priority.
    I am generally familiar with this issue. It came up in a 
hearing a couple of weeks ago in the--in terms of whether we 
issue our soldiers something called QuickClot, which is issued 
to the marines. And I looked into that and have found out that 
this QuickClot is--can have some side effects, in terms of 
burns and in clotting outside the wound itself. I'm informed 
that we issue a pressure bandage--it is an Israeli-designed 
pressure bandage--to our soldiers.
    So I can't give you the exact numbers, but it's--I'm under 
the opinion that we issue this pressure bandage to all our 
soldiers. The Chief may want to comment on that.
    Senator Durbin. Mr. Secretary, this is not a pressure 
bandage. I'm talking about a tourniquet. And a pressure 
bandage, even if it's standard-issue, or a clotting bandage, 
will not be adequate to deal with bleeding from an extremity. 
And if you read the story, and I'm going to send it to make 
sure you----
    Secretary Harvey. Yeah, I've perused it, yes.
    Senator Durbin. I hope you'll get a chance to look at it. 
They make it clear that, sadly, we've lost some soldiers 
because there was no place to turn for a tourniquet, a basic 
tourniquet, which is an element of first aid.
    Let me give you an example. One of the lieutenants in the 
Army, David Bernstein, who is noted in this article, bled to 
death. A West Point graduate. As Senator Mikulski adds here, 
they couldn't find anything to use as a tourniquet. They used a 
sling from an M-4 rifle, and the nozzle from a fuel can to 
twist it, to try to stop the bleeding. Sadly, he lost his life 
because a $20 basic tourniquet was not provided.
    So your response about pressure bandages and clotting 
bandages, those will not do. This article makes it clear, they 
are not responsive to the need when you have this severe trauma 
and bleeding from the extremities. And so, I hope that you will 
look very closely at this. I think it's a critical--an 
inexpensive element to save the lives of our soldiers here.
    I don't know if--General Schoomaker, if you've had 
familiarity with this.
    General Schoomaker. Sir, first of all, I'm not familiar 
with the article at all. Quite frankly, your bringing it up 
here is the first time I've heard of any problem like that. 
We've had tourniquets in the Army for almost all of my 36 years 
of service.
    Senator Durbin. Are they standard-issue to every soldier?
    General Schoomaker. They are standard in the medical 
channels. There have been improvements in the tourniquets. 
Typically, in the old days, we would carry cravats, which we 
used as tourniquets, which were standard-issue. There have 
been, since then, a variety of--the one-handed tourniquet that 
has come up more recently--there have been a variety of them, 
and I have known of no shortage of them. But this is something 
we could get into and certainly----
    Senator Durbin. General, I am told they are not standard-
issue, that they are affordable, that what is presently being 
given to soldiers does not really fit----
    General Schoomaker. Typically----
    Senator Durbin [continuing]. The need.
    General Schoomaker [continuing]. Typically, medical gear 
like this is not issued as part of a soldier's--what we would 
call organizational clothing and individual equipment (OCIE). 
It is--comes through medical channels. It's typically a unit 
standard-operating-procedure problem, and the unit generally 
will dictate what medical gear a soldier will have. And I see 
no reason why there is any shortage. And certainly 
affordability is not at issue.
    Senator Durbin. Affordability is not an issue.
    Secretary Harvey. For sure. We'll get you a detailed answer 
for the record.
    [The information follows:]

                              Tourniquets

    All Soldiers receive training on use of tourniquets upon 
initial entry into the Army, and sustained training and testing 
through the Soldier Common Task Test. Training is imperative 
for effective tourniquet application. Effective April 1, 2005, 
all new Soldiers will receive specific training on the new-
generation Combat Application Tourniquet (CAT) in Basic Combat 
Training.
    Every Soldier now carries a first aid pouch with a first 
aid dressing for use as a pressure dressing and tourniquet. 
Under current practice, all Combat Medics (military 
occupational specialty (MOS) 91W), and Combat Lifesavers (CLS) 
will carry new-generation tourniquets; however, new-generation 
tourniquet fielding to these Soldiers is not complete. (The 
target ratio of CLS to Soldiers in deploying units is one per 
squad or better.)
    Between March 2003 and March 2005, the U.S. Army Medical 
Materiel Center-Southwest Asia (USAMMC-SWA) issued 58,163 new-
generation tourniquets (four types) to CENTCOM-deployed units. 
Medical authorities in theater estimate 41 percent of deployed 
Soldiers have an approved tourniquet.
    The Defense Logistics Agency ordered 172,000 CATs in mid-
March 2005. Initial delivery of 15,000 CATs will be mid-April 
2005, with the entire 172,000 delivered to theater by mid-July 
2005. On March 31, 2005, the Army directed the USAMMC-SWA to 
order 56,000 Special Operating Forces--Tactical Tourniquets 
(SOFTT) for delivery before May 31, 2005.
    The new Soldier Improved First Aid Kit (IFAK) includes a 
CAT and is being fast-tracked via the Soldier as a System Rapid 
Fielding Initiative.
    The U.S. Army Institute of Surgical Research (USAISR) 
recently tested nine new-generation tourniquet systems and 
demonstrated that three were 100 percent effective. Based on 
these data, the CAT was selected as the tourniquet to be issued 
to individual Soldiers. USAISR recommended the SOFTT as an 
acceptable alternative to the CAT when the CAT was not 
available through the supply system. USAISR also recommended 
the emergency medical tourniquet for use in medical evacuation 
vehicles and at Echelon I-III medical facilities.

    Senator Durbin. Well, if you would--the fact that the 
Rangers, Special Ops, some divisions, like 82nd Airborne, 3rd 
Infantry, and the marines all carry it as standard-issue, I 
think, is a clear indication that----
    General Schoomaker. I will promise----
    Senator Durbin [continuing]. It could help----
    General Schoomaker [continuing]. You that the most combat--
the most combat-experienced soldiers and marines and special 
operators don't go into battle without these kinds of things.
    Senator Durbin. On themselves, individually?
    General Schoomaker. On themselves, individually. This is 
something that experience will tell you. This isn't something 
you wait for the system to give you. This is something you 
requisition through medical channels, because you have the 
experience, the knowledge, the training, and the readiness----
    Senator Durbin. And you will give----
    General Schoomaker [continuing]. To understand you need it.
    Senator Durbin [continuing]. You will give me a report on 
how many soldiers----
    General Schoomaker. We will be glad to.
    Senator Durbin [continuing]. Currently----
    General Schoomaker. Yes, sir.
    Senator Durbin [continuing]. In Iraq and Afghanistan----
    General Schoomaker. And we----
    Senator Durbin [continuing]. Carry tourniquets?
    General Schoomaker. There is no reason why there should be 
any shortage in any unit of that kind of----
    Senator Durbin. There is no reason why there should be.
    Secretary Harvey. No. No.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Senator Stevens. Senator, I'm constrained to say that when 
I was in the Army, they told us to take off our belt and take a 
knife in a sheath and use it to make a tourniquet immediately.
    General Schoomaker. Exactly right.
    Senator Stevens. It's one of those things.
    I note that the chairman is here, and I know he has other 
subcommittees to go. Remember when he used to yield to me? I 
would be pleased to yield to you.
    Senator Cochran. I'll wait my turn, Mr. Chairman. Thank 
you.
    Senator Stevens. Thank you very much.

                        RECRUITING AND RETENTION

    Secretary Harvey, what are the problems in our recruiting 
efforts? I think most of us are thinking about the problems of 
recruiting and retention--in the Army, in particular; and in 
the Guard and Reserve, as well. We seem to have a--you know, 
we--I'm told we exceeded the goal for the Army last year. And 
the goal this year is 100 percent retention. How are you doing?
    Secretary Harvey. In terms of retention, Senator, we're 
just about on our goals. Retention in the Active is 99 percent 
of goal--these are our year-to-date goals--97 for the Reserves, 
and 98 for the Guard. So, from a retention point of view, I 
think we're okay. And, as we like to say, I think we're on our 
mission for the year.
    Our challenge is in recruiting, and the Chief and I are 
both concerned about that. I don't think we're in crisis, but 
we're concerned about it. At the current time, we're at 94 
percent of our goal in the Active, 90 percent in Reserves, and 
the problem area is the National Guard, which is at 74 percent.
    Now, in response to that, we're taking the following 
actions. We're increasing the number of recruiters across the 
board, in all three areas, from 9,000 total to 12,000. We're 
increasing incentives--retention incentives, recruiting 
incentives--across the board for all three components. And, as 
you may know, we take surveys every month to ensure that the--
as we call them, ``the influencers'' are satisfied, and what 
the influencers are thinking; and that's the parents and 
coaches and counselors and so forth.
    So, it's a concern with us. I'm not going to sit here and 
tell you that we're 100 percent sure we're going to make it. 
And I'm also not going to sit here and tell you--we're not 
going to give up. We are going to put a lot of emphasis and 
focus on this area. I give it a lot of thought. And when 
someone says, ``Well, you put the recruiters''--the recruiters 
are like drilling the oil well. You say, ``I've got more 
recruiters there, now they have to strike oil.'' And we have 
another 6 months to go in the mission. And, believe me, as I 
said, we're very concerned about it. We put a lot of emphasis 
and focus and attention to it. And I meet every other week with 
our human resource people to ensure that we're doing everything 
we need to do and our message is getting across. And we do a 
lot of innovative things, like we sponsor National Association 
for Stock Car Auto Racing (NASCAR), dragsters, rodeos, and so 
forth. So we're very focused in this area, and I think the 
takeaway is that it's important, and we're doing everything 
possible to attain our goals.
    And let me note that, this year, our goal in the Active 
component is to recruit 80,000 soldiers. Last year, it started 
at 72,000; it was revised in the middle of the year to 77,000, 
which we made; and the year before that was 68,000. So, our 
goals have gone up, and our focus and initiatives and 
activities have gone up accordingly.
    Senator Stevens. General Schoomaker, have we given you 
enough tools to succeed, in terms of recruiting?
    General Schoomaker. Sir, tools--the tools you have given us 
are more than satisfactory. You've been very supportive in the 
tools. I think the Secretary has it exactly right, retention 
does not appear to be as big a challenge as recruiting. We are 
retaining soldiers. This is counter to many of the stories you 
hear, that the Guard and the Reserve and Active soldiers will 
not stay with us. They are staying with us, in increasing 
numbers.
    But I will tell you, I am personally concerned about 
recruiting. And I think that recruiting this year is going to 
be tough to make our challenge, our increased goals. And I 
think in 2006 it'll be even tougher. And so, we are going to 
have to look very hard at the tools, at our procedures, at our 
approaches. But, as I've testified before, I believe this is a 
national responsibility. This isn't just the responsibility of 
the Army and the Marine Corps, the Air Force, and the Navy to 
recruit soldiers, sailors, airmen, and marines. It is a 
responsibility of the Nation to raise the armies and the navies 
and the air forces and the marines that are necessary to defend 
this country. And I think until people embrace this challenge 
as a national responsibility and necessity, that we will be 
challenged when we're in periods of conflict, as we are today.

                           ARMY MODULAR FORCE

    Senator Stevens. I'm going to ask one of the staff to turn 
this soldier's photo around and show it to the people out in 
the audience. I'm constrained to say that when I went into the 
service, I weighed 155 pounds. And I think Senator Inouye 
weighed just about the same amount. I think that fellow's got 
on his back more than I weighed then.
    Secretary Harvey. He does. It's 150 pounds. That's a 
picture that I--that the Chief gave to me that I have in my 
office. I look at that every morning, and I think, ``How am I 
going to lighten that soldier's load?''
    Senator Stevens. That's what I was going to ask.
    Secretary Harvey. Yes. Yes. And we're--and we think about 
that often. And we're going to do it several ways, one of which 
is, as you heard, the Army modular force. We're going to be 
able to deploy to an area as a unit, not as a group of 
individuals, and that's going to help reduce that load.
    Another way we're going to do that is through information 
technology and situational awareness, where, as I mentioned in 
my opening statement, one of the advantages of the Army modular 
force initiative is that we can start now to spiral in network 
technologies so that all soldiers have better situational 
awareness, so he doesn't have to take everything he has to 
take----
    Senator Stevens. My time----
    Secretary Harvey [continuing]. Because he knows----
    Senator Stevens [continuing]. Is running out, Mr. 
Secretary. But when we went to the Stanford Research Institute, 
they were devising a vest that would really--a shirt that would 
be both armor and have a built-in battery and have a built-in--
a whole series of things that are there now.
    Secretary Harvey. We have a program executive officer (PEO) 
soldier. The Chief----
    Senator Stevens. Are we going to any innovation to try and 
lighten that load?
    Secretary Harvey. Yes. Chief?
    General Schoomaker. Sure we are. First of all--and I don't 
mean to be facetious here, but that's 150 pounds of lightweight 
gear.
    Senator Stevens. I understand that.
    General Schoomaker. That is----
    Senator Stevens. I saw some----
    General Schoomaker [continuing]. That is all the most 
advanced stuff that we can put on them. But I'll give you a 
historical example. When the 82nd Airborne Division and the 
101st Airborne Division jumped behind the lines on the night of 
June 5-6, 1944, when those paratroopers jumped behind the 
lines, they carried 80 rounds of ammunition and two hand 
grenades, a change of socks, and a protective mask. And when 
they got on the ground, they got rid of their protective mask. 
Those soldiers went into combat totally--equipped totally 
differently than these soldiers are today.
    This picture that you see there is a paratrooper in the 
173rd Airborne Brigade that jumped into Northern Iraq. That's 
the morning the Sun rose, and they're stuck up there in the mud 
with all that stuff on their back in Northern Iraq with--you 
know, basically alone and unafraid, not unlike their 
forefathers did in World War II. And they're extraordinarily 
equipped. The problem is that we've got to get the mobility of 
these soldiers, and we've got to get the interdependence of it 
that we're working on so hard with the other services to 
lighten this load. But we also have a responsibility to lighten 
this load in a different way, and that is by taking----
    Senator Stevens. I think we ought to have a copy of that 
for our office here, too, because----
    General Schoomaker. Sure.
    Senator Stevens [continuing]. It worries me.
    Senator Inouye.
    Senator Inouye. Thank you very much.
    If I may----
    Senator Stevens. Sorry to interrupt you, General, we do 
have some time restraints here.
    General Schoomaker. Sure.
    Senator Inouye. If I may follow up on the chairman's 
questioning, are you considering lowering the entry standards 
on recruiting?

                          ENLISTMENT STANDARDS

    General Schoomaker. Sir, we are not considering it, and we 
have not done it. Now, we are bumping up against our standard, 
but we have not crossed the line on our standards. And I can 
describe what they are, or I can get them to you for the 
record.
    [The information follows:]

                          Enlistment Standards

    The Army is currently not considering lowering its quality 
marks. The fiscal year 2005 Army quality goals are  90 percent 
high school diploma graduates,  67 percent test score category 
I-IIIA, and  2 percent test score category IV. The active 
Army's quality marks remain above Army goals. As of the end of 
March, they were at 90 percent high school diploma graduate, 74 
percent test score category I-IIIA, and 1.9 percent test score 
category IV.

    General Schoomaker. But the things that you are reading are 
largely untrue about us lowering standards. And I hope that we 
do not have to lower our standards. In fact, I would prefer not 
to. I'd rather go short than lower the standards that we have.
    Senator Inouye. We have been advised that there is a $285 
million shortfall for recruiting. Can you tell us why?
    General Schoomaker. Sir, I'm not familiar with that.
    Secretary Harvey. No, I'm not familiar with that, Senator. 
We certainly will ask for everything we need in that regard. As 
remarked, it's critical to the all-volunteer force.

                  IMPROVISED EXPLOSIVE DEVICES (IED'S)

    Senator Inouye. Of the 1,500 soldiers killed during the 
operations, 800 were killed by improvised explosive devices. Do 
we have enough funding here to take care of that?
    Secretary Harvey. Yes. I've--let me answer it, that I've 
been assured and informed that we have adequate funds at the 
present time to meet the theater requirements, we have adequate 
funds to do--to fund our technology-development efforts, to 
field the next-generation devices, and that we will be 
rapidly--over the next few months, rapidly fielding a number of 
devices. And we can fill you in on those details, of course, in 
a closed session, if you would like. But I'm assured that we 
have adequate funding. I'm assured that the next-generation 
technology is rapidly maturing. And I will be--and I have, and 
will be, paying very close attention to this. As you remarked, 
that's an important component of soldier protection.
    Senator Inouye. Isn't it also true that no matter how much 
we try, it will not be possible to come up with a perfect 
solution, especially when they use something like a 2,000 
bomb--a 2,000-pound bomb to knock over a tank?
    General Schoomaker. Sir, there is no one solution to this 
dilemma. And, as you know, we have had M-1 tanks totally 
destroyed by thousand pound bombs on the roads. There is the 
ability to get a big enough bomb to destroy any amount of armor 
we'll place. However, there is a prudent level of protection 
that we believe we've asked for the funding to achieve and that 
we're working to obtain. A great deal of this has to do with 
tactics, techniques, and procedures, and experience, 
intelligence, and other kinds of capabilities, obviously that 
we probably shouldn't talk about in an open session. But it is 
a comprehensive approach that must be taken to counter this 
threat, and not just the idea that some--in some physical form, 
that we're going to be able to mitigate the effects of what's 
achievable.

                                OPTEMPO

    Senator Inouye. Mr. Secretary, will the modular units 
lessen the operational tempo for the Army; thereby, reducing 
the number and length of deployments that we are now 
experiencing?
    Secretary Harvey. Yes. The objective is, at the end of the 
modular initiative, when it's totally complete, that the Active 
force will be deployed 1 year in 3. So that's 2 years at home 
station, or, as we like to call it, ``dwell time.'' For the 
National Guard, it'll be 1 year deployed, 5 years at home 
station; and for the Reserves, 1 year deployed and 4 years at 
home station. So that's our objective, and we're slowly but 
surely migrating toward that.
    General Schoomaker. Sir, if I could add to that very 
quickly. Last year, our average dwell was 1.2 years for the 
units that were coming from theater and going back. This year, 
as you take a look at the 101st and the 4th Infantry Division 
(ID), the 3rd ID, if they're--stay on schedule, their dwell 
will be about 1.8 years, on average, some of it a little bit 
longer than that. And this is directly related to the increase 
in these brigades--the brigades that we have added to the Army 
that have allowed us a broader base of rotation.
    And as we achieve the 30 percent increase on the Active 
side, and the modular initiatives on the Guard and Reserve 
side, this will continue to manifest into the kinds of dwell 
times that the Secretary described.
    Senator Inouye. The funding for modularity is included in 
the supplemental. How much of the $5 billion would you have in 
the 2006 budget?

                     FUNDING THE ARMY MODULAR FORCE

    Secretary Harvey. The funding for modularity is in the 
supplemental in 2005, and plans to be in the supplemental in 
2006. Then it will be in the base budget in 2007 beyond, the 
rest of the FYDP.
    Senator Inouye. Do you have any estimate as to the total 
cost of it?
    Secretary Harvey. Yes. The total cost, if you add it all up 
from 2005 through 2011, it's $48 billion. And, again, $10 
billion in the 2005 and 2006 supplementals, and then the 
remainder in the base budget in 2007 to 2011.
    Senator Inouye. When you're completed, you'll have 77 
brigade combat units?
    Secretary Harvey. Seventy-seven Brigade Combat Team Units 
of Action, correct, Senator.
    Senator Inouye. I'm from the ancient war. Can you describe 
what a brigade unit will look like?
    Secretary Harvey. As I mentioned in my opening statement, 
it'll be a unit of about 3,500 to 4,000 soldiers. There will be 
three types of units in the near term. There will be a light 
infantry, heavy, and a Stryker. They'll be standalone, self-
sufficient, and have all the functionality that used to--a lot 
of the functionality that used to reside in the division now is 
embedded in the Brigade Combat Team; therefore, it is 
standalone and self-sufficient. An important dimension, as we--
as I said, is standardized. That is to say--and the Chief can 
chime in here, because he's had direct experience in this--and 
that is that there was no heavy brigade or no light brigade in 
the force that was like any other one. In this, we'll have--a 
Brigade Combat Team, say, in the 3rd ID will be exactly the 
same as in every infantry.
    Chief, you my want to chime in.
    General Schoomaker. Sir, I would agree. The kinds of things 
that'll be in these modular brigades are things like increased 
military intelligence, increased bandwidth to move intelligence 
down to these brigade levels. You'll have your forward support 
battalions, which provide your logistics in the brigade--civil 
affairs, human intelligence (HUMINT), counterintelligence, 
military police (MPs), engineers, their own artillery 
battalion, as well as their own RSTA, which is reconnaissance, 
surveillance, target acquisition capability, inside of these 
brigades.
    But I have to mention, we always focus on the combat 
brigades, but the modular force also--which we don't talk 
about, but is involved in this very same money--are the support 
units of action that are outside these brigades that provide 
the enhanced capabilities, in terms of aviation, increased 
higher-level logistics and maintenance, intelligence, et 
cetera, and then on the Army Guard--or in the Army Reserve side 
or the combat service support aspects, with the expeditionary 
packages that we're putting together.
    So, it's not just at the brigade. It's at the battle 
command level, it's at the support level, all the way up where 
we are building a modular force that can plug and play based 
upon what we have to do. It's much more capable.
    Senator Inouye. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

    FISCAL YEAR 2005 SUPPLEMENTAL FUNDING FOR MOBILIZATION STATIONS

    Mr. Secretary, I notice in the supplemental budget request 
that's been submitted by the Army, you've requested $70 million 
to construct permanent barracks as part of a new operational 
readiness training complex need to meet the requirements of 
mobilizing Reserve-component units. My question is, Is any of 
this money going to be used to upgrade or improve mobilization 
centers for the National Guard in connection with the 
mobilization for Iraq and Afghanistan duties?
    Secretary Harvey. Senator, I think I'm going to have to 
take that for the record.
    I'm not familiar with that level of detail of exactly what 
that's going to be used for. It wouldn't surprise me if there's 
monies in there to improve our readiness centers.
    Senator Cochran. General Schoomaker----
    Secretary Harvey. We'll get you an answer----
    Senator Cochran [continuing]. General Schoomaker, do you 
have any information along that line?
    General Schoomaker. Sir, I don't have that level of detail, 
and I think it would be better for us to provide it to you 
accurately for the record.
    Senator Cochran. Okay.
    General Schoomaker. I've just glanced over here at our 
Guard leadership, and they also do not have that level of 
detail.
    Senator Cochran. If we could have that, we would appreciate 
it.
    [The information follows:]

 Funding in the Fiscal Year 2005 Supplemental Request for Mobilization 
                         and Training Barracks

    The fiscal year 2005 Supplemental includes $70 million in 
military construction for Mobilization and Training Barracks at 
Forts Carson, Riley, and Bliss. There is an immediate need for 
adequate facilities to support active and Reserve Component 
(approximately 80 percent) mobilization, training, deployment, 
and demobilization. These projects will directly support Army 
National Guard and Army Reserve Soldiers mobilized for the 
Global War on Terrorism. The Army National Guard has training 
and mobilization facilities in their fiscal year Defense 
Program for two of their power support platforms: Camp Shelby, 
Mississippi and Gowen Field, Idaho.

    Senator Cochran. The House is taking up the supplemental, 
as you know, and marking it up in their committee. And we are 
not going to take any action on it until they complete work on 
the bill. But we are going to look at it very carefully. We 
know that we need to supplement the budget for this fiscal year 
in connection with our operations in Iraq and Afghanistan. We 
want to help the administration achieve its goals of total 
support for our military forces so that they have what they 
need to bring this war to a successful conclusion. That's the 
goal, and I know that's your goal, too.
    In that context, a lot of National Guard units are being 
mobilized around the country. And in my State, at Camp Shelby, 
Mississippi, that facility has been designated as a 
mobilization center. And so, we've seen the 155th Armored 
Brigade from our State trained there and brought up to speed 
and deployed to the theaters. And there are other units, as 
well. It is a facility that's been in operation since World War 
II. As a matter of fact, Senator Inouye trained there when he 
was in the Army and just getting ready to be deployed to the 
European theater. And it's continued to have a rich tradition 
of training--excellent training and schools for both enlisted 
and officers.
    My son trained down there, as a matter of fact. And when 
that same unit was mobilized in Operation Desert Shield/Desert 
Storm, he trained there and went to Fort Hood, then on to the 
National Training Center. So we know how important the training 
is to get everybody up to speed.
    But I hope you will take a look to be sure that you're not 
overlooking some facilities--when you're upgrading facilities 
to be sure you have the facilities you need, don't overlook 
some of the National Guard facilities. I hope you'll take a 
look at that and see if any of that money is going to be spent 
upgrading facilities, making sure that the soldiers have what 
they need at those facilities. It may be old, but they're still 
doing a great job for the defense of our country.
    General Schoomaker. Sir, believe it or not, I trained at 
Camp Shelby.

                          IED COUNTERMEASURES

    Senator Cochran. One thing that was asked already, and that 
was about the improvised explosive devices and the 
countermeasures that you're trying to develop. I'm told that 
there was a crash program being developed--and I had the name 
of it here awhile ago--in some testing the other day, they had 
a major setback, I understand. This is called the neutralized 
IED with Radio Frequency Program. And I don't want to get into 
classified information. I note that that probably is 
classified. But there is another technology that has come to my 
attention, developed to use directed energy instead of radio 
frequencies to counteract the effects of improvised explosive 
devices. The Ionatron Corporation is developing that 
countermeasure. I hope you'll look at that, if you have 
difficulty with the improvised explosive device countermeasures 
that you're working on right now. I know you have a task force 
to counter that threat. But we want to support the initiatives. 
A lot of the troops from my State, who have been killed over in 
Iraq, have been killed with those IED weapons.
    What is the status of coming to a point where we have a 
countermeasure that's effective against those devices?
    Secretary Harvey. Let me, we can't say a lot in open 
session, as you know, Senator, but the countermeasure 
technology is a sound technology. And it's a matter of how you 
field it. It's a matter of--I'd better not get into any more. 
I'm familiar with directed energy technologies for other 
applications. I personally worked on that in one of my prior 
jobs. And we'll certainly look into that if it's viable.
    Just one remark is, the countermeasure technology is 
intended to prevent an occurrence where it would appear that 
the directed energy would cause an explosion, which then--then 
there's another dimension to how you do that, when you do that. 
And so, the countermeasure jammer technology has basic benefits 
to it, rather than directed energy.
    But we're open to all this, and it has to be--it's a 
multitude of solutions to get at this; jammers being the major 
technology. But we're certainly open to--if it's viable, to 
look into its application, because, as you said, there is--in 
my way of thinking, and in the Chief's way of thinking, there's 
nothing more important than protecting our soldiers. That's 
foremost on our minds, and we are open to everything. And 
you've been generous in the past. And I appreciate Senator 
Inouye's question about, Are there adequate resources? And this 
is not a resource issue. This is making sure we have an 
effective technology that does its job. And we have fielded 
things--and I know you read certain things in the paper--we've 
fielded things that are 60 percent effective, and we're proud 
that they are 60 percent effective, because it was zero before. 
We're not waiting for the perfect solution. We're going to 
migrate to the--as good as we can get. But we're fielding it as 
soon as we feel like it's going to give the soldiers some 
protection. It may not be 100 percent reliable, but it's better 
than nothing. So I think we have a viable approach.
    We'll look into this, if it has benefits over 
countermeasure jammers.
    Senator Cochran. I wish you provide, for the record, the 
status of the review of the technology that I just----
    Secretary Harvey. Sure.
    Senator Cochran [continuing]. Described.
    Secretary Harvey. No question.
    Senator Cochran. Thank you, Mr. Chairman.
    [The information follows:]

                       Directed Energy Technology

    The Army is aware of the directed energy technology 
developed by the Ionatron Corporation to counter improvised 
explosive devices (IEDs). In fact, the U.S. Army Armaments 
Research, Development, and Engineering Center (ARDEC) has 
reviewed the work being done at Ionatron, specifically the 
Laser-Induced Plasma Channel (LIPC). The technology shows 
promise for countermine neutralization, IED defeat, and 
possibly other non-lethal applications. In addition, other 
applications of this technology are being investigated for 
Homeland Defense. ARDEC is partnered with the Naval Research 
Laboratory, Ionatron, and the Stevens Institute of Technology 
in Hoboken, New Jersey to do further study. The President's 
budget for fiscal year 2006 includes funds for the ARDEC to 
continue evaluation of Ionatron research.

    Senator Stevens. Senator Leahy.
    Senator Cochran. Mr. Chairman, may I ask unanimous consent 
that the statement by Senator Burns be put in the record? He 
had to go to another----
    Senator Stevens. Without objection, so ordered.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I would like to thank Secretary 
Harvey and General Schoomaker for coming before our 
subcommittee this morning, to testify on the Army's fiscal year 
2006 budget. I will keep my comments brief this morning and 
save the remainder of my statement for the record.
    Our military, and the U.S. Army in particular, continues to 
have many folks engaged around the world, especially in 
Afghanistan and Iraq. It is because of today's 640,000 brave 
soldiers serving on active duty, that we are winning this war 
on terror. Our soldiers, sailors, airmen and marines are 
performing magnificently. With more than 300,000 soldiers 
deployed or forward stationed around the world, there is no 
question that our forces are being challenged.
    Out of these approximately 315,000 currently deployed 
soldiers, 113,000 are Army National Guard and 47,000 Army 
Reserve. In Montana, over 40 percent of our National Guard and 
Reserve units have been called to active duty. I intend to do 
my part as their representative to ensure our armed forces have 
what they need to win this war, protect our homeland, and come 
home safely.
    I read daily of our great American soldiers developing 
unconventional solutions to solve various problems they face in 
the field. I think it makes a great deal of sense to have the 
mechanism in place to bring good ideas from our nation's 
universities, laboratories and small businesses to the soldiers 
as soon as possible, bypassing the bureaucracy. I encourage 
your continued support of Army initiatives to expedite the 
fielding of urgently needed equipment and life-saving 
technologies. You will have this Senator's continued support of 
the Rapid Fielding Initiative (RFI) and the Rapid Equipping 
Force (REF)--two programs which accomplish just that. These 
efforts have resulted in the fielding of some truly incredible 
innovations, and I believe it is important that such efforts--
and, therefore, relevant funding levels--continue.
    I look forward to seeing how the Army will meet its 
continual recruitment and retention challenges. I read with 
some recent news articles about the Army's failure to meet 
monthly recruitment goals so far this year, putting the Army at 
risk of not meeting goals for the first time since 1999. I look 
forward to hearing what initiatives you have in place to 
address these challenges, and I pledge to work with you and 
support you on this road ahead.
    When I am back in my State of Montana, I enjoy talking with 
our active and reserve component forces. There is no doubt in 
my mind, the dedication and love these brave men and women have 
to their country and their work. Their increased optempo since 
the attacks of 9/11 and the beginning of the Global War on 
Terror does not, however, come without costs--costs not only to 
the active duty forces, guardsmen and reservists themselves, 
but to their families and employers as well.
    I am pleased to see that Army leadership has realized this 
and has reflected these challenges in the Army fiscal year 2006 
budget. This morning I look forward to hearing about the Army's 
plans for rebalancing its forces and reducing the need for 
involuntary reserve mobilization. I do think it is important 
that we look at ways to add folks to areas where the Army is 
currently facing shortages, such as military police, 
transportation and civil affairs.
    Again, I thank you both for being here this morning. I look 
forward to your testimony.

    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you very much, Mr. Chairman.

                RESERVE COMPONENTS MODULARITY AND RESET

    Mr. Secretary and General Schoomaker, as you know, Kit 
Bond, Senator Bond, of Missouri, and I are the co-chairs of the 
National Guard Caucus, something we take very seriously. And we 
support the efforts of the National Guard. I think we all agree 
that the National Guard's a critical part of our Nation's 
defense. We also know the--and we hear from our Guard members, 
we hear from other Senators on both sides of the aisle, about 
the mobilization of the Guard and Reserves, in both Iraq and 
Afghanistan. It's the largest, for reservists, since World War 
II. In fact, at my home State of Vermont, the little State of 
Vermont, we have 1,000--over 1,000 Guard members deployed. We 
are the second highest per capita in the country. Senator 
Inouye's State, Hawaii, is the highest.
    Now, we in the Guard Caucus--I think I can speak for both 
Republicans and Democrats on this--we support your efforts to 
include National Guard brigades in the Army's modularity plan, 
which will allow them to provide an important part of the 
Army's combat capability. But they're going to need the same 
advanced equipment as their active-duty counterparts. If 
they're going to be doing the same work as the active-duty 
counterparts, they should have the same equipment. They need it 
as soon as they return from their deployments so they can start 
the training. I think you both agree, training is so essential 
when they deploy.
    Now, I haven't seen any specific official figures from the 
Army about what's exactly included in the supplemental for 
Guard equipment in the reset of the deployed forces. The 
Secretary had said that we would get that information a couple 
of weeks ago. I know the subcommittee requested it. Mr. 
Secretary, we haven't gotten it yet. I wish, in the next couple 
of days, I could get provided with this kind of information. I 
want--and the subcommittee--to have an official breakdown of 
what's included with the Army Guard modularity and the 
equipment reset. Can we get that within the next couple of 
days?
    Secretary Harvey. Certainly you can.
    I'm not familiar with the request. The Chief may want to 
make a few--we can make some comments right now, if----
    Senator Leahy. Yeah, go ahead, but----
    Secretary Harvey. Yeah.
    Senator Leahy [continuing]. If we could get----
    Secretary Harvey. We will get you that----
    Senator Leahy. Yeah.
    Secretary Harvey. We will fulfill that request.
    General Schoomaker. Did you want me to make----
    Secretary Harvey. Yeah, why don't you make a few----
    General Schoomaker [continuing]. Did you want me to 
comment?
    Secretary Harvey [continuing]. Comments about----
    General Schoomaker. All right.
    First of all, in the supplemental, what we're doing to 
reset the units that we have sent to Iraq is without regard to 
component. For instance, the 30th, the 39th, the 81st, those 
units received the most advanced soldier gear that we could put 
on them, even ahead of the active force, because of when they 
were going over there. They will be reset like the active force 
when they return.
    And so, there is--unlike in the base budget, where you have 
discrete lines for Guard and active, in the supplemental we 
have aggregated, and we are resetting the units that have gone. 
Now----
    Senator Leahy. You understand my concern, though. If it's--
--
    General Schoomaker. Yes, sir.
    Senator Leahy [continuing]. Not a discrete line, it 
sometimes--we suddenly find, when you get budget crunches in 
other areas, the Guard and Reserve do not get that reset and do 
not get the----
    General Schoomaker. Yes, sir.
    Senator Leahy [continuing]. The equipment. I just want to 
make sure----
    General Schoomaker. Sure, I think that it's fair to say--
and you certainly talk to the Guard and Reserve leadership--we 
are committed to--you know, part of this reset is also part of 
transforming the Army to a more modular force. They go hand in 
glove. And so, we must use the resources that you're providing 
and the momentum we have from our deployments to expedite this 
process of making the Army more modular, and that's how we're 
doing it.
    Senator Leahy. Let's see if we can get some----
    Secretary Harvey. Senator, I can give you some specifics, 
if you'd like, right now.
    I just wanted to--and the Chief is--and this is his point, 
which is, we don't treat the Guard and Reserve any different 
than we treat the active. The Chief has started this 
initiative. It's an Army of One. And there's no difference, in 
our mind, between the active and the Guard.
    But specifically for in the fiscal year 2005 for reset, 
there's $855 million for modularity. There's $800 million 
specifically for the National Guard. And our plan in 2006 is 
$850 million for reset, $1 billion for modularity; in 2007, the 
same. So, over the next 3 years, we have about--if you add all 
those numbers up, it's about $5 billion for reset and 
modularity for--specifically for the Guard--in the 3-year 
period.
    Senator Leahy. If our staffs----
    Secretary Harvey. And we'll provide that for the record. I 
have it right here.
    [The information follows:]

                Army National Guard Modularity and Reset

    The Department needs flexible, rapidly deployable forces 
and sufficient depth and strength to sustain multiple, 
simultaneous operations. The Army is transforming to a modular 
structure to meet these challenges. This new organization will 
have 77 combat brigades, 43 in the active Force and 34 in the 
Army National Guard. Transforming to a modular organization 
will allow the Army to use its people and equipment more 
efficiently. In fiscal year 2004, the Army added three new 
active brigades and converted 11 others. In fiscal year 2005, 
the Army will add another three active brigades, and will 
convert five active and three Guard brigades into the Modular 
configuration. The investment portion of the supplemental 
contains $787 million to procure equipment to support these 
Guard brigades which are scheduled to deploy to Iraq, in 
accordance with the Army's Campaign Plan. This equipment is 
listed below.

      FISCAL YEAR 2005 ARNG EQUIPMENT SUPPLEMENTAL REQUIREMENT \1\
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
                 Nomenclature/item name                      2005 GWOT
                                                               reqts
------------------------------------------------------------------------
SINCGARS................................................          28,800
Tactical Radios (HF-150)................................           7,300
Tactical Radios (PRC-148)...............................           5,900
Tactical Radios (PRC-117)...............................           8,250
JAVELIN Control Launch Unit--RC.........................          88,000
M249 SAW MG, 5.56 mm....................................          15,864
M240 MG, Armor MG 7.62 mm...............................          18,595
M4 Carbine 5.56 mm......................................          12,621
Sniper Rifle, M107......................................           1,188
M4 Carbine Mods.........................................           4,075
M249 SAW MG Mods........................................             556
SHADOW UAV..............................................          12,500
Bradley RECAP (WTCV)....................................          70,300
CI/HUMINT Information Management System.................           5,400
AFATDS..................................................          10,950
AN/PAQ-4 (RC)...........................................           2,700
Driver Vision Enhancer..................................           3,981
Long Range Adv Scout Surveillance System................          36,970
AN/PVS-14...............................................          38,800
M119A2..................................................          23,577
Improved Target Acquisition System......................          35,000
Digitized Topographic Support System....................          10,200
KNIGHT..................................................          12,900
M240 MG Mods............................................             221
JAVELIN Control Launch Unit--AC/RC......................          27,664
Management (ADAM) Cell..................................          18,000
Mortar Fire Control System (MFCS-H).....................          38,577
PROPHET Block II/III....................................           7,891
TROJAN SPIRIT...........................................          11,052
All Source Analysis System..............................           5,856
Distributed Common Ground System--Army..................             120
Q36 (Shelters)..........................................          10,100
BCS3....................................................          21,100
LLDR....................................................          16,000
Abrams Blue Force Tracker Installation Kits.............           2,100
Maintenance Support Device..............................          23,620
FORWARD REPAIR SYSTEM...................................          36,634
Lightweight Handheld Mortar Ballistic computer (LHMBC)..           3,732
SHOP EQUIPMENT CONTACT MAINT TRUCK......................          12,111
120 mm Mortar System....................................          22,700
TRAILER MOUNTED WELDING SHOP............................           1,452
LMTC....................................................          28,200
FMTV....................................................          45,438
                                                         ---------------
      Total fiscal year 2005 ARNG equipment supplemental         787,000
       request..........................................
------------------------------------------------------------------------
\1\ Identified to support the conversion of ARNG BCTs in accordance with
  the ACP.

    Senator Leahy. I appreciate that, Dr. Harvey. I really do. 
And if we can have our staff, sort of----
    Secretary Harvey. Sure.
    Senator Leahy [continuing]. Keep in touch with this.

                    FORCE PROTECTION INDUSTRIAL BASE

    I was concerned, on the article that was in the New York 
Times on Monday, about the delay in providing armor protection 
for our troops in Iraq. The article, sort of, said it was not 
so much the lack of an industrial base, or even bad 
decisionmaking at the highest level, but some kind of absurd 
bureaucratic delays that sound like a Kafka novel as you read 
it. Former Defense Comptroller, Dov Zakheim, who was a frequent 
witness before this panel, pointed out that the Defense 
Department didn't add more manufacturers of armored vehicles 
because it didn't want to acknowledge previous mistakes and 
then alarm the public. Several of your supply chiefs were 
quoted about delays that prevented production orders from going 
out on contract more quickly and about the supply issues that 
prevented what was actually made getting into the hands of 
troops who needed it urgently.
    I think every one of us on here received letters and calls 
on this armor question. I'm hoping that the Armed Services 
Committee, the authorizing committee, will ramp up a series of 
hearings on this.
    I just want to know if you share our concern and our 
outrage. Because you look at this--you find foreign countries 
seem able to somehow get past the bureaucratic delay. I mean, 
what's happening?
    Secretary Harvey. Well, can I just--if somebody would put 
up a chart here, I'll show you, kind of a history, and then 
make some comments about it.
    Senator Leahy. And if you feel the article was inaccurate, 
say so.
    Secretary Harvey. Well, it wasn't totally accurate, for 
sure.
    This is a chart of up-armoring of the spectrum of vehicles 
that we have in theater, from Humvees to medium tactical 
wheeled vehicles to heavy. So we have seven different 
categories. And you can see there, starting in the fourth 
quarter of 2003, when the--kind of, the timeframe certainly 
wasn't around--but when this threat, the IED threat, became 
apparent, there was a very big effort to up-armor all vehicles. 
Today, you can see, over there, that we are now about--31,000 
out of the 32,000 vehicles are up-armored, so nearly 100 
percent are armored. Most importantly, no vehicle that goes out 
of camp with an American soldier goes out without armor. So 
today--and that started in the middle of February--every 
vehicle that leaves a forward operating base is armored, 
because of the record there of up-armoring.
    Now, let me just say, from my point of view, because I've 
been on the other end of procurement and I've worked in the 
aerospace and defense industry. It's universally believed that 
it takes too long--the acquisition process takes too long. 
There's stories galore about it. In this case, it was 
accelerated by leaps and bounds above what it had traditionally 
been. We had the Rapid Fielding Initiative, the Rapid Equipment 
Fielding initiative. My point of view is, progress has been 
made. It still takes too long. And I have tasked my Assistant 
Secretary for Acquisition, Logistics, and Technology--and the 
Chief and I have talked about this in great deal, that we don't 
want to lose the momentum of reducing the cycle time of 
acquisition. We want to codify and institutionalize this. And 
our idea is to see if we can take the best of an acquisitions 
system which is made somewhat for large developments, and 
distill it down so that we can rapidly field this equipment.
    I think that the record will show that we've done better. 
It's still not good enough, in my mind. We still need to get it 
quicker.
    Now, in regard to that article, it failed to mention that 
the body armor that was procured in 12 days was inferior to our 
Small Arms Protective Inserts (SAPI) plates, it was inferior to 
what was fielded. And, quite frankly, we wouldn't put it on our 
soldiers.
    So, there was a little bit of inaccuracies in the article. 
I think that you can--you know, this is half-full/half empty. 
You can look at that and say, you're there now. We're there in 
body armor, we're there in vehicle armor. It took too long. But 
it was accelerated above what it normally would be. And you 
have to understand, also, that this just isn't going to the 
hardware store; this is a design and test phase. It would be a 
tragedy for us to go develop something that didn't provide the 
protection and gave the soldier a false sense of security. So 
it had to be tested, it had to be designed specifically for 
these vehicles that--it was never intended to have armor.
    And as you can see from this picture up here, that's a up-
armored HUMVEE, and every soldier that was in that vehicle 
walked away. So there is some good news in this. But I am 
committed to further improve this acquisition cycle.
    Chief, you may want to make some comments.
    General Schoomaker. Right. May I have a couple of seconds 
to say something?
    Number one, I am not happy with the acquisition system. It 
is a product that a lot of people ought to share the blame for. 
It is designed to never make a mistake. It is not designed to 
be effective, and it is certainly not designed for war. And so, 
I have asked repeatedly that we reform the acquisition system 
to be more closely related to what I had when I was Commander 
in Chief in Special Operations Command, and that is to get the 
bureaucracy and all the fingers and all of the people that want 
to make sure that they get their piece of the lollipop out of 
the system.
    Senator Leahy. Did you say ``lollipop?''
    General Schoomaker. Of the lollipop. Lick the big lollipop. 
Uncle Sam's lollipop.
    I think we all share in some responsibility there for that.
    Number two, we have never up-armored things like jeeps. We 
had 500 of them in the Army. I'm not suggesting this was the 
best move, but it's what we had. And it was designed for scouts 
and MPs. And this war, with what we got, indicated that we had 
to provide better protection for soldiers. As we've already 
said, even M-1 tanks have been blown up. So there is a physical 
limitation to how much armor you can put on things. And one of 
the physical limitations we have are--the vehicles that we had 
to up-armor were not designed to carry the armor. And so, we've 
now had excessive rollovers of these vehicles. We've had 
excessive wear of these vehicles. We've had all kinds of 
problems with these vehicles. And so, we have made some major 
changes to get the right kind of heavy-duty vehicle to carry 
this armor.
    In light of the system we have, this is extraordinary. And 
if you want to read a great story, read about the United States 
Army and this country in World War II and the 2 years and 3 
months and 7 days it took for it to crank up its system from 
the time that the war started to get ready to go into North 
Africa. And you can read it in Rick Atkinson's book, called 
``An Army at Dawn.'' And it would make you very proud of what 
this Army has done to get ready and to fight this war in the 
last year.
    Senator Stevens. Thank you very much.
    Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    I want to assure General Schoomaker, we are very proud of 
the Army and the way----
    General Schoomaker. Thank you.
    Senator Hutchison [continuing]. They have taken the burden 
of this war on terror. It's phenomenal.
    I have two questions. First, let me say, to both the 
Secretary and to General Schoomaker, that I think your efforts 
at modularity are innovative and bold, and we want to support, 
in every way, the efforts that you are making in this regard.

                     MILITARY CONSTRUCTION (MILCON)

    I was concerned, I have to tell you, yesterday, when I was 
in my military construction hearing, to note that Army military 
construction is 16 percent down from last year; Air Force is 61 
percent up. Now, I'm not comparing services, and I am not in 
anyway saying that it's wrong that Air Force is up. However, we 
do know that the Army is carrying such a load in not only the 
war on terrorism, but in the reconfiguration. We do know that 
it will be mostly Army people moving back from Europe for the 
long term. And my question is, How can you get by with a 16 
percent cut in military construction when you are being asked 
to do so much?
    Secretary Harvey. Senator, one of the reasons--and I'll get 
you a detailed answer for the record--is, one of the effects we 
have going on here--there's a number of sub-elements, one of 
which is, because of the residential community initiative, 
which is the privatization of our housing, that--which the 
private sector now----
    Senator Hutchison. Right.
    Secretary Harvey [continuing]. Takes care of--we have less 
need for monies in Army family housing. The other effect is 
that, because we are globally rebasing, as you indicated, and 
bringing a lot of people back from Germany, the Army 
construction housing--we're just maintaining, rather than 
building anything new. We're going to maintain those residents 
in what we have.
    So let me get you a detailed answer for the record.
    [The information follows:]

                       Decrease in Milcon Budget

    While the regular Army's construction budget is lower than 
the fiscal year 2005 level, the budget represents a balance 
among the Army's requirements and supports our highest military 
construction priorities, which includes barracks, family 
housing, training ranges, Army National Guard Readiness Centers 
and aviation facilities and Army Reserve centers. The fiscal 
year 2006 budget request supports global restationing moves, 
part of which is in the base, realignment, and closure wedge. 
Reductions were made to the Army family housing appropriation 
to account for housing privatization. These funds were moved to 
the Military Pay appropriation to cover basic allowance for 
housing so Soldiers could pay their rent.

    Secretary Harvey. But I think, macroscopically, this--I'm 
looking at the numbers, and I realize--and I actually asked the 
same question, because, on the surface, it looks like, you 
know, we're not doing what we need to do. But I think, down in 
the detail, there is these other effects.
    General Schoomaker. If I could, Senator, number one, the 
work last year, where you supported the raising of the cap for 
RCI, has allowed us now to almost double the number of 
installations. We went from 23 installations now to about 45 
installations. We went from something like 30--in the high--
30,000 homes to over 85,000 homes that we're going to be able 
to build now on the RCI project. And so, this has an impact and 
an offset.
    And the second thing is, because of the plan to modularize 
the Army force, we cannot use MILCON. It doesn't work fast 
enough for us to get the barracks, et cetera, built fast 
enough. And, therefore, we're doing some of that with 
supplemental funding for the units that we're standing up to go 
to war through the temporary barracks, as an example. And we 
will follow up with permanent construction in those enduring 
facilities that we know, as we rebase, bringing 70,000 soldiers 
home from Europe, for example, and 100,000 family members, that 
will be absorbed in Continental United States (CONUS), and we 
want to make sure that, when we get through--if there is a Base 
Realignment and Closure (BRAC), we want to make sure that we 
get through the BRAC process and invest in the places that we 
need to invest, you know, as a result of that.
    So it's very complex. I think we owe you an answer for the 
record.
    Secretary Harvey. Yeah, we do.
    General Schoomaker. But my view is, we're advancing the 
checker, not retarding it----
    Senator Hutchison. Well----
    General Schoomaker [continuing]. And there's a fundamental 
difference between the Air Force and the Army in this regard, 
because they have a different situation on their hands than we 
do, as you know.
    Senator Hutchison. Well, that's true. And let me say that I 
like the privatized housing. It is so much better quality. The 
neighborhoods look like neighborhoods, and the--all of the Army 
people that I've talked to love it. Well, all the 
servicepeople, where they have these units, love it, which is 
good. But that does mean you're going to have to use the 
savings from construction to go into the lease payments that 
are a part of that contract.
    So I'm not against that, as long as you're not 
shortchanging the other types of buildings that are needed for 
better training facilities, for all of the troops that will be 
brought home and reconfigured.
    Secretary Harvey. In this regard, let me tell you, Senator, 
something we did--the Chief and I did a couple of weeks ago in 
looking into our Barracks Modernization Program, which is an 
ongoing program to bring the 136,000 barracks that we have up 
to a quality standard, plus what we call a ``One-and-One,'' 
which is a very nice arrangement where there's two separate 
rooms and a common area. We call that the ``One-and-One.'' It 
came to light in one of our briefings, to the Chief and I, that 
there are still 20,000 substandard barracks that don't meet 
quality standards. The Chief and I looked at each other. We 
said, ``That is unacceptable.'' We're reprogramming money 
within our accounts to take care of that this year, so that the 
20,000 substandards--the good news is, 80 have been converted; 
the bad news is, there's 20,000. Then you ask the question, 
``Well, when's that going to happen?'' They say, ``Well, this 
is the program. It goes to 2009.'' You say, ``Unacceptable. 
We're going to do''----
    Senator Hutchison. Good.
    Secretary Harvey [continuing]. It right now.''
    So you can rest assured that we're sensitive to this and 
that we ask our soldiers and their--in this case, the single 
soldiers--to sacrifice for this country; they can live--and, as 
you heard, their quality of life should match their quality of 
service. So we--we're putting our dollars where our words are.
    General Schoomaker. That 20,000 barracks are rooms. That is 
not buildings. So there's 177 buildings and 20,000 barrack 
spaces----
    Senator Hutchison. I understand.
    General Schoomaker [continuing]. Is what we're talking 
about. And we will----
    Senator Hutchison. And I like the----
    General Schoomaker [continuing]. Have that done.
    Senator Hutchison [continuing]. I've seen the ``One-and-
Ones.'' I like them very much.
    Secretary Harvey. Yeah.
    General Schoomaker. Yeah, the ``One-Plus-One.''

                          ARMY DEPOT CAPACITY

    Senator Hutchison. Second question, on depots. We are now--
at Red River Army Depot, for instance, they are putting out two 
to three times the work, doing a great job in armoring 
vehicles. But there was a time when Red River was not doing as 
much. And my question is, as we are looking at the long term 
for the Army, do you look at being able to surge and keeping 
the, maybe, excess depot capacity in the future for your 
vehicles, looking at the kind of security threats we're going 
to have, so that we would looking at needing to keep that 
capability that we are seeing in, now, all three of the vehicle 
maintenance depots that we have?
    General Schoomaker. From the military perspective, the 
answer is, yes. And these are the factors that we placed into 
the whole comprehensive look. I couldn't speak directly to Red 
River. As you know----
    Senator Hutchison. Right.
    General Schoomaker [continuing]. There are a number of 
arsenals and depots, et cetera. But I think it's very clear 
that the surge capacity was absolutely fundamental to our 
success in doing what we just showed here on----
    But I am concerned about things like industrial base. For 
instance, we have one ammunition plant in this country for 50 
caliber and below that services not just the Army, but the Air 
Force, the Navy, the Marine Corps, and the Coast Guard, and 
everybody else. And our requirement's for about $2 billion a 
year, and the machines in this factory are 1940 and 1942 
machines, still run by leather belts. And much of this is a 
hand process. For instance, all of the primers for all of our 
small-arms ammunition are still hand-loaded and eye-inspected.
    Senator Hutchison. Well, General Schoomaker, you mentioned 
that you don't like the acquisition process. That is a factor 
in what you're just saying, because, with one place to make 
that ammunition in America, and the costs are different from 
foreign competitors, I think looking at our own U.S. 
capabilities to make that kind of ammunition should be a factor 
in our----
    General Schoomaker. I couldn't agree more.
    Senator Hutchison [continuing]. Acquisition decisions, 
because we're going to run the one out of business because they 
can't compete with foreign companies.
    General Schoomaker. Senator, I couldn't agree more. And 
I'll tell you that, as a mitigating factor, we went offshore to 
look at foreign capacity to produce the small arms, and we went 
inside the country to look at it, and there are limitations 
commercially; not only limitations in terms of numbers that can 
be produced, but quality. And, as you know, we have very--we 
have to have very high standards in the quality of our 
ammunition, you know, for our troops.
    Senator Hutchison. Well, we want to work with you on that.
    General Schoomaker. Thank you.
    Secretary Harvey. Let me just add, Senator, to your point 
about the depots and the arsenals, which are very important in 
our ability to do what we just showed you, that, besides their 
own product lines and their own reset activities, they 
participate in a lot of the up-armoring. In 2003, across the 
five depots and three arsenals, we generated about 12 million 
productive hours. This is how you measure a factory's output. 
This year, it will be something like 19 to 20 million 
productive hours. And next year, the schedule is for 25 
million. So we have really cranked up, so to speak, the depots 
and arsenals. They have played a very important role. And we 
take a strategic look at those, and that's our view, based--
it's based on this experience.
    Senator Hutchison. Thank you very much.
    Thank you, Mr. Chairman.

                    GROUND-BASED MID-COURSE MISSION

    Senator Stevens. I just want to ask one question, if you 
can provide an answer for the record. I understand there's a 
question of using dual-status 10 title--dual-status, title 10, 
title 32 Guard personnel for the Ground-Based Midcourse mission 
in Alaska. It's my understanding that was in the basis of the 
plan--original planning for that mission, but would you, for 
the record, explain which authority the Guard personnel for 
this mission will be designated, and whether a decision will be 
made to change the original plan?
    Secretary Harvey. We'll do that, Senator.
    [The information follows:]

 Dual Status Technicians for Ground Based Mid-Course Mission in Alaska

    There are no dual status technicians contemplated for this 
mission, all are Active Guard Reserve (AGR) or active duty 
Soldiers. It has been the Army's intent to employ the original 
manning model wherein the Colorado Army National Guard (ARNG) 
and the Alaska ARNG Title 32 Active Guard Reserve Soldiers who 
transition to title 10 to perform federal operational missions. 
These missions include duties to control, operate, or maintain 
the GMD system, or to secure or defend any GMD site or asset. 
Prior to making a formal decision, the Secretary of the Army 
entered into consultation with the Under Secretary of Defense 
for Personnel and Readiness (USD(P&R)). Those consultations 
continue with USD(P&R), with a decision forthcoming.

    Senator Stevens. Now, could we have the honor of having a 
photograph taken with these three young men who are part of the 
newest Greatest Generation? We'd like to personally 
congratulate them, if that would be possible.
    Secretary Harvey. Absolutely.
    Senator Cochran. Can I ask a couple of more questions?
    Senator Stevens. Oh, pardon me, Senator, do you have--yes, 
we have time.
    Senator Cochran. Mr. Chairman, thank you very much.

                FIRESCOUT UNMANNED AERIAL VEHICLE (UAV)

    Let me ask, before we get to the photograph, there are a 
couple of questions that I had that I would like to get on the 
record today, if we could. I don't think the supplemental 
provides a request for funding of the Firescout, but I know 
that this is a new unmanned aerial vehicle that is being looked 
at very closely by both the Navy and the Army. Testing has 
already commenced by the Navy, and I understand the Army plans 
to commence testing soon. And if I'm correct, this is a new 
platform that will provide operational capability for 
commanders in the field far greater than we have in any other 
unmanned vehicle that is in the inventory at this time.
    Could you tell me if--and this is the Firescout system that 
I'm talking about, specifically--it would provide the Army with 
the opportunity to accelerate force capabilities into the 
current force. And this is my question. Even though this was 
looked at as a part of the future Army inventory, could you 
provide an estimate for the record on the earliest integration 
that you foresee for Firescout into the Army's inventory of 
resources?
    General Schoomaker. Just to make sure I understand, I think 
you're talking about the A-160 rotary UAV. Is that----
    Senator Cochran. It is----
    General Schoomaker [continuing]. Correct?
    Senator Cochran [continuing]. It can be used as an attack 
helicopter, it can be used----
    General Schoomaker. Okay.
    Senator Cochran [continuing]. To direct fire. It has a lot 
of capabilities, that's right.
    General Schoomaker. You are correct. That is being looked 
at as part of the Future Combat System. It is something, 
certainly, as it would be available, we would spiral. And we'll 
get you an answer for the record, in terms of that.
    [The information follows:]

         Integration of Firescout Unmanned Aerial Vehicle (UAV)

    The Army has selected the RQ-8 Firescout as the Future 
Combat Systems (FCS) Class IV Unmanned Aerial Vehicle (UAV) 
solution. The Army plans to field all four classes of UAV 
beginning in fiscal year 2014 to the first Unit of Action. The 
Army will continue to assess the technology readiness of the 
FCS UAVs in concert with the other FCS platforms and network to 
determine if an accelerated fielding date is feasible and 
prudent.

    Senator Cochran. Thank you.

                          HOUSING AT KAWAJLEIN

    The Senator from Texas asked you about barracks and the 
need to upgrade facilities. And this is a critical problem in 
some areas. We also want to point out, the Army has control and 
jurisdiction over Kwajalein. There's a lot of work being done 
out there in connection with our missile defense program. A lot 
of people come and go out there. But the facilities for housing 
are dilapidated, old, worn-out facilities. There are a lot of 
trailers that were built--put on the island in the 1960s, and 
are falling apart. There's a new dome construction housing 
program out there that's working well, and I'm told that you 
could use some more housing out there for the people who are 
working in this program. Since it's the Army's responsibility, 
would you look at that and see if you could accelerate the 
purchase of this--dome housing components. We think it's cost 
effective. That's what we were told. But verify that for me, 
and if it needs to be in the supplemental, let us know.
    Secretary Harvey. Okay, we'll do that.
    [The information follows:]

         U.S. Army Kwajalein Atoll (USAKA) Dome Home Initiative

    At this time, the Army is not able to accelerate funding to 
provide dome-style housing for the stationed workforce 
population at U.S. Army Kwajalein Atoll. Other pressing Army 
funding requirements in Military Construction, Army and 
Research, Development, Test and Evaluation (RDT&E), Army 
accounts outweigh the Army's ability to replace the 1960 
vintage trailers.
    While overall Army requirements exceed the ability to 
accelerate funding, the present housing situation is in an 
extremely deteriorated state. Kwajalein, an essential missile 
test and space surveillance facility, is basically a 
government-owned, contractor-operated installation. The 
demographics of Kwajalein include approximately 25 military, 70 
Army civilians, and 1,100 American contractors. For the past 
couple of decades, the infrastructure has been failing and 
continued patchwork on many deteriorated structures, to include 
many of the trailers, is no longer an option. Over 200 single-
wide aluminum 1960's vintage trailers continue to house the 
U.S. Army, government civilian and contractor personnel. Annual 
cost to maintain these trailers exceed $5,000 per unit.
    Direct appropriations for Kwajalein are provided through 
RDT&E. Recent housing upgrades at Kwajalein are the results of 
Congressional add items. Boeing, a tenant on Kwajalein, paid 
for 15 dome facilities for permanent residents in support of 
missile defense programs (specifically Ground-Based Midcourse 
under Missile Defense Agency). These domes have been in use for 
almost seven years, and will revert to government control upon 
vacation of Boeing as the GMD mission concludes. They are leak 
proof, mold and mildew resistant, free of pests, and are 
aesthetically consistent with island infrastructure. USAKA was 
Congressionally authorized and approved to build ten dome homes 
in 2003, but the funding was not appropriated. These homes were 
built with funds shifted away from other infrastructure needs. 
Commensurate with the construction, a number of trailers were 
disposed of. USAKA did receive $2.1 million in a supplemental 
in 2004 to build eight domes, and $1.8 million in 2005 for an 
additional eight domes. Total number of dome housing on island, 
either complete or under construction, is 41. These dome homes 
have a life expectancy of 50-75 years with much more cost 
effective maintenance costs than the trailers.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you.
    Thanks, Mr. Chairman.
    Senator Stevens. Yes, sir.
    Senator Cochran. I have other questions I'd like to submit 
for the record.
    Senator Stevens. We are going to submit some questions for 
the record, yes, sir. We would appreciate your response to 
those questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
               Questions Submitted to Hon. Francis Harvey
               Question Submitted by Senator Ted Stevens
                         future combat systems
    Question. What is your assessment of the Future Combat System and 
what technologies do you feel pose the greatest challenge to this 
program?
    Answer. Building on the modular organization, the Future Combat 
System (FCS)-equipped Unit of Action (UA) is designed for the future 
operational environment that our strategic thinking predicts. The 
embedded network capabilities allow the FCS-equipped UA to fully 
leverage Joint capabilities and ensure that we have created a force 
that is fully integrated and capable of achieving decision superiority.
    The FCS-equipped UAs will be the Army's future tactical warfighting 
echelon; a dominant ground combat force that complements the dominant 
Joint team. FCS will improve the strategic deployability and 
operational maneuver capability of ground combat formations without 
sacrificing lethality or survivability. The challenges for this program 
and the Army are developing the network centric environment, and 
defeating future kinetic threats. The FCS program takes these 
challenges head on to develop the kind of intelligence and situational 
awareness required for surviving in the current to future environment.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
            army national guard information systems redesign
    Question. Secretary Harvey, in February 2004 the President mandated 
a significant redesign of Army National Guard installation information 
systems to bring them into compliance with existing management systems. 
I have been informed this redesign is critical to coordinating national 
and regional responses during a natural disaster or act of terrorism. 
The redesign would also improve mobilization and training of National 
Guard brigades supporting the Global War on Terror. I did not see any 
request in the fiscal year 2006 budget submission to fund this mandate. 
What is your assessment of the Army's approach to improve Enterprise 
Resource Planning for National Guard Installations, the capabilities 
required to support deployments, and the Army plan to fund this 
Presidential mandate?
    Answer. The Army National Guard (ARNG) is currently in the process 
of overhauling and modernizing all of its automated systems to adhere 
more closely to a commercial enterprise resource planning (ERP) 
solution. The ARNG recognizes the importance of this initiative and 
reprioritized existing funding ($1.7 million fiscal year 2004 and $3 
million fiscal year 2005 Operations and Maintenance, National Guard 
(OMNG)) which was supplemented with an fiscal year 2005 Congressional 
add ($1 million OMNG). The ARNG is currently conducting an enterprise 
business process architecture study that includes not only installation 
management but also finance, logistics, and human resources.
    The February 2004 Presidential order mandating establishment of a 
Federal real property asset management system requires a significant 
re-look of the Guard's information systems to bring them into 
compliance. Federal statutes mandate that state Guard funding and 
facilities be managed by the National Guard apart from the active Army. 
The Army has embraced ERP planning philosophy, methodology, and 
commercially-proven software to take an Army enterprise approach to 
modernizing its logistics management systems that affect the operation 
of Guard units in 54 states and territories. The ARNG has begun a 
process to develop an ERP-based Guard installation management system 
which will allow Guard units, in the future, to support local and state 
authorities, state police, and state and federal agencies like FBI, 
NOAA, DEA, EPA, and CDC. Since the ARNG manages its military 
construction program, separately from the active Army, upgrades to the 
installation management system are essential for efficient 
modernization of the Army Guard's national infrastructure. In the 
future, State systems will be linked, allowing efficient and 
coordinated regional and national response. They will also be linked 
with the National Geospatial Agency's vast digital library of 
geospatial and mapping data, providing Guard commanders at all levels 
accurate and actionable visualization information of individual 
buildings, posts and Readiness Centers, highways, cities, counties, 
regions, and other items of interest. Army Guard facilities are used to 
deploy forces during emergencies and combat operations. The Guard's 
legacy information systems for installation management proved to be 
inefficient for deploying units to Afghanistan and Iraq. They are 
incapable of providing critical asset visibility outside of individual 
States, and do not have interfaces to the systems of federal and state 
emergency management agencies such as FEMA. The ARNG facilities 
receive, stage, train, and deploy ARNG during state emergencies and 
preparation for combat operations and require an installation 
management solution that will modernize installation business 
operations and support state and federal missions. In today's climate, 
where the Army plays an ever-increasing role in conflicts all over the 
globe, it is imperative that the ARNG take a proactive approach. The 
ARNG will continue to move ahead with modernization initiatives and 
fully intends to integrate Army initiatives when implemented.
    The ARNG must continue with its efforts to develop an ERP-based 
installations management system. Extending the ongoing business process 
study from high level business processes to the transactional level 
would be valuable in determining the value added of an ERP project. The 
business model, in Department of Defense architecture framework 
standards of the ARNG installations management using the access request 
information system toolset and delivery of an integrated proof of 
concept pilot implementation of the installations management solution 
using commercial, off-the-shelf software--SAP<SUP>TM</SUP> (Enterprise 
and Solution Manager), and ESRI<SUP>TM</SUP>/DISDI Geographic 
Information System would be in concert with other ongoing DOD and Army 
ERP projects. The proof of concept will be piloted at two ARNG 
facilities, to be determined at a later date.
                             rotorcraft hub
    Question. Secretary Harvey, helicopters continue to perform a 
myriad of missions around the world while the cost of operating and 
maintaining these aircraft continues to rise. I would think that with 
the increased number of aircraft operating in combat, with many 
exceeding expected annual flying hours, any technology that improves 
maintainability and performance would provide a welcome benefit.
    Hub drag is one major problem in helicopter operations that is in 
need of improvements. I have been informed that Brannon Industries, 
located in Johnson City, TN has a rotorcraft hub shroud design 
currently in development which could provide these needed improvements. 
What are your thoughts on this technology and its potential impact on 
aircraft operations, maintenance and overall savings?
    Answer. We recognize the issue of hub drag in Army helicopter 
operations and are evaluating several solutions to this issue, 
including the one offered by Brannon Industries.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                        recruiting and retention
    Question. Do you believe that enhanced enlistment bonuses, 
increased recruiters and other incentives for individual soldiers will 
be enough to overcome current recruiting difficulties for the Army?
    Answer. The Army has examined the fiscal year 2005 recruiting 
environment and expects this environment to remain equally challenging 
into fiscal year 2006 and fiscal year 2007. The operations in support 
of the Global War on Terror, Operation Iraqi Freedom and Operation 
Enduring Freedom are only a part of this recruiting environment. 
Additionally, the Nation is experiencing an improving economy as well 
as improving unemployment rates. Today's youth continue to have options 
that do not necessarily include the military. We believe that we are 
implementing a sound plan to address these issues.
    The Army is not only aggressively adjusting our number of 
recruiters, advertising dollars, and incentives. We are shaping the 
Army's future policies to allow the components to adapt much quicker to 
the Army's recruiting environment. We remain committed to attracting 
high quality men and women to serve as Soldiers.
                              end strength
    Question. In a related question, do you believe that the current 
attempt to restructure forces so more soldiers are in combat roles 
rather than administrative jobs are enough to address ``end strength'' 
concerns? Or will a legislative increase in the number of troops be 
required?
    Answer. No. Military to civilian conversions represent a fraction 
of Army efforts to make better use of available manpower and relieve 
force stress. We have numerous other actions underway such as 
rebalancing the numbers and types of capabilities between components, 
adjusting our overseas footprint, modular force designs, improved 
management of readiness and resources with the Army Force Generation 
model, use of contractors on the battlefield to offset soldier 
requirements, applying technology to leverage ``reachback'' 
capabilities here at home, and a host of other initiatives.
    Individually, these actions are not enough to address ``end 
strength'' concerns. Collectively, they represent a powerful large-
scale endeavor to relieve stress on our Soldiers and families. A 
legislative troop increase will be necessary if current force 
requirements persist (or increase) during the coming years. If force 
requirements decline over the coming months, a legislative increase 
will not be required.
                                 ______
                                 
           Questions Submitted to General Peter J. Schoomaker
               Questions Submitted by Senator Ted Stevens
                               modularity
    Question. Many are questioning the inclusion of Modularity funding 
in the supplemental. Please explain why Modularity requirements are 
included in the supplemental request and describe how Modularity has 
helped our troops currently deployed and those preparing to deploy to 
Iraq and Afghanistan.
    Answer. There are two reasons that justify why the cost of 
modularity is part of the fiscal year 2005 Supplemental. First, these 
requirements directly support the war fight because they equip units 
planned for deployment to Iraq or Afghanistan. The Army developed 
estimates for the Army Modular Force after reviewing the specific 
equipment and facility needs of those units planned for conversion. The 
supplemental supports only those equipment requirements for these near 
term deployers, both active and Reserve Component.
    Second, the accelerated process of the supplemental when compared 
to the normal budget process--a matter of months compared to almost two 
years--permits us to more precisely determine our requirements in this 
very dynamic environment. We have programmed for modularity 
requirements beginning in fiscal year 2007 when we will have more 
certainty of our deployment schedules and associated equipment and 
facility needs.
    Modularity helps our forces deployed to or preparing to deploy to 
Iraq and Afghanistan by making them more lethal and mobile. We can 
incorporate the most recent lessons learned in our training techniques 
and tactics and we can ensure our soldiers have the equipment they need 
to defend against and attack the latest tactics used by the enemy.
    In the future, modularity will relieve stress on the force by 
increasing the number of brigades and rotational depth of the force. 
With increased rotational depth, the Army can reduce the frequency and 
duration of deployments. In conjunction with the Army's force 
stabilization initiative, deployment schedules for Soldiers and their 
families will become more predictable. Modular force elements have full 
spectrum capabilities along the entire range of military operations. 
This allows the Army to generate force packages optimized to meet the 
demands of a particular situation, without the need to deploy 
additional Soldiers unless absolutely required.
                      army aviation modernization
    Question. Your recently released aviation modernization plan 
contains sweeping changes; tell us about the status of this plan and 
how you plan to mitigate risks along the way.
    Answer. The Aviation Modernization Plan is linked to the Army 
Aviation Transformation Plan and the current warfight. As such, we have 
already started the implementation of the modernization plan: 
acceleration of upgrades for aircraft survivability equipment on our 
aircraft deployed to Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF), reset and recapitalization of our current 
fleets, and continuing to complete the acquisition documentation for 
the new start programs (armed reconnaissance helicopter, light utility 
helicopter, future cargo aircraft, and the extended range multi-purpose 
unmanned aerial vehicle system). We will continue to mitigate risk by 
leveraging supplemental funding to jump start our Reset and Recap 
efforts for our legacy fleet, oversight provided from the Department of 
Defense and Department of the Army Acquisition Executive, vetting the 
new start programs through the Joint Capabilities and Integration 
Development System (JCIDS), and monitoring programmatics to ensure cost 
and production schedules are maintained for our new start programs.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                    professional military education
    Question. I have been informed that Secretary Rumsfeld asked the 
Joint Chiefs of Staff to provide options on how to reduce the officer 
professional military education programs during stress periods, such as 
during current operations. One of the recognized strengths of the 
United States Military is its professional military education. Would 
you share with this committee your thoughts on this matter?
    Answer. The Army is in the process of developing and executing 
training transformation initiatives. These include changes in structure 
(additional Intermediate Level Education (ILE) capacity), course 
content, delivery methods, and course length/administration of 
Professional Military Education/Joint Professional Military Education 
(PME/JPME) (ILE Course Location capability). The Army has made 
significant strides in the execution of JPME. These changes will better 
support both the current war effort and those of the future by 
providing officers who are better educated, more prepared and able to 
adapt easily to situations in a joint/coalition environment. The Army 
can continue to support the combatant commander by releasing the 
minimal number of officers for mission support. This will not reduce 
the Army's educational investment in developing its leaders, who can 
contribute effectively to the joint warfight. The Army is committed to 
developing its leaders, while simultaneously fulfilling all operational 
requirements.
                               modularity
    Question. The Army is placing great emphasis on its efforts to 
transition to a modular force. We know that the fiscal year 2005 
supplemental request contains funding for modularity, approximately $5 
billion for the Army. There are no funds in the fiscal year 2006 budget 
for modularity, even though this effort will continue well into the 
future. Could you describe what the current Army will look like at the 
end of fiscal year 2006 and the rate at which the remainder of the Army 
will become a modular force?
    Answer. By the end of fiscal year 2006, the Army plans for 11 
modular UEx headquarters, 46 modular combat brigades (heavy, infantry 
and Stryker) and 47 modular support brigade headquarters in the active 
Army, Army National Guard, and Army Reserve. The Army will continue 
converting active, Guard, and Reserve structure to modular force 
elements through fiscal year 2010 to create additional modular combat 
brigades, modular support brigades and subordinate elements, and 
modular UEx headquarters.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
               mobile tactical high energy laser (mthel)
    Question. The Army has not included funding for the Mobile Tactical 
High Energy Laser (MTHEL) in its fiscal year 2006 budget request. It is 
my understanding that this decision is driven partly by a lack of 
funding contribution from the Israeli government (our international 
partner on MTHEL), and partly because MTHEL funds were reprogrammed to 
support overseas operations.
    One of my great concerns about the operation in Iraq is the 
difficulty of addressing the threat posed to our troops by rockets, 
artillery and mortars (RAM). Furthermore, I believe that directed 
energy is the best solution to this problem. In particular, MTHEL has 
shown maturity and testing success against RAM threats. I believe we 
have an obligation to our troops to accelerate MTHEL operational 
capabilities to achieve better force protection.
    Do you agree that directed energy (DE) is the most practical 
solution to the problem of defending against rockets, artillery and 
mortars? If so, what is the Army's level of commitment to DE?
    Answer. Directed energy (DE) is certainly one solution the Army is 
considering. We have destroyed over 50 rocket, artillery and mortar 
(RAM) targets with the tactical high energy laser (THEL) testbed at 
White Sands Missile Range. In its current form, however, THEL is not 
easily deployable and could not provide a near-term, full-force 
protection capability against mortars.
    The Army is fully committed to researching and developing DE 
weapons and recently established a product manager's office to 
transition DE applications from research and development (R&D) 
activities to the Soldier as fully integrated and supported systems.
    In order to move technology supporting a counter RAM capability 
forward more aggressively, there are several activities we are pursuing 
concurrently. The Army continues to support the Joint Technology Office 
solid state laser (SSL) development strategy and has used fiscal year 
2005 Congressional adds to help accelerate this process. The Army is 
also working with Defense Advanced Research Projects Agency to 
accelerate other highly promising SSL technologies and laser 
architectures.
    Over $21 million is budgeted in fiscal year 2006 for continuing SSL 
technology R&D. However, after discontinuing the MTHEL program, it is 
necessary to establish other means to address required parallel 
development of weapons system components other than the laser 
generator, such as pointing and tracking systems, dynamic fire control, 
and integration into existing air defense architectures.
    Question. Given that solid state lasers (SSL) will not be 
operational for at least a decade (by most estimates) do you agree that 
the chemical MTHEL laser is the best near-term option to pursue?
    Answer. The only demonstrated Directed energy (DE) counter rocket, 
artillery and mortar (RAM) solution to date is the THEL chemical laser. 
But unfortunately, in its current form, the THEL is not easily 
deployable and could not provide a near-term, full-force protection 
capability against mortars. Due to the urgency of the requirement, the 
Army is pursuing a counter RAM kinetic energy solution based on an 
existing gun system to defeat the RAM threat and which is available 
sooner than a directed energy solution.
    Question. Please expand on the Army's decision to ``zero'' MTHEL 
and does the Army plan to reconstitute the program with different 
goals?
    Answer. The Army terminated MTHEL for three reasons. To fund other 
higher priority requirements, Israel decided to reduce its funding 
commitment to the program, and user concerns about supportability of 
the chemical laser.
    The Army has no plan to reconstitute the MTHEL program with 
different goals. Due to the urgency of the requirement, the Army 
decided to fund an existing gun system to defeat the near-term rockets, 
artillery and mortar (RAM) threat. The shorter timeline for integrating 
the gun into the counter RAM architecture was a major factor in this 
decision.
    The Army remains committed to directed energy capabilities. The 
Deputy Assistant Secretary of the Army for Research and Technology has 
a robust Science and Technology effort aimed at development of solid 
state laser (SSL) technology. Solid state is the technology the Army 
will pursue long term.
                         future combat systems
    Question. It is my understanding that the Army's biggest technology 
investment, the Future Combat System program, has been restructured to 
begin introducing more advanced network systems to the current force.
    Can you discuss this restructuring initiative and describe the 
near-term benefit to our troops in the field?
    Answer. On July 22, 2004, Army officials announced plans to 
accelerate the delivery of selected Future Combat Systems (FCS) to the 
current force. The plan expands the scope of the program's system 
development and demonstration (SDD) phase by adding four discrete 
``spirals'' of capabilities at two-year increments for the current 
forces. Spiral 1 will begin fielding in fiscal year 2008 and consist of 
prototypes fielded to the evaluation brigade combat team (E-BCT) for 
their evaluation and feedback. Following successful evaluation, 
production and fielding of Spiral 1 will commence to current force 
units in 2010. This process will be repeated for each successive 
spiral. By 2014, the Army force structure will include one Unit of 
Action (UA) equipped with all 18 + 1 FCS core systems and additional 
modular UAs with embedded FCS capability. This is the centerpiece of 
this adjustment: providing the current force with FCS capability sooner 
rather than later. Examples of the technologies that will be received 
in Spiral 1 are the non-line of sight launch system, integrated 
computer system, a version of the system of systems common operating 
environment, unattended ground sensors and intelligent munitions 
system.
    Question. It is also my understanding that FCS will be comprised of 
a family of networked air and ground-based systems that will ensure 
warfighters and commanders are more interconnected than ever before. I 
assume that testing of these networked systems will require an 
environment that has minimal radio frequency emissions.
    As you know, White Sands Missile Range in New Mexico offers the 
most comprehensive testing environment for military systems in the 
world. Furthermore, Southern New Mexico has relatively low frequency 
interference and may be well-suited for FCS ``system of systems'' 
testing.
    Would you care to comment on the type of environment that is 
optimal for FCS systems testing and whether you believe WSMR might suit 
such testing needs?
    Answer. The test program for the Future Combat Systems (FCS) 
detailed in the Test and Evaluation Master Plan (TEMP) was approved by 
the Office of the Secretary of Defense on May 8, 2003 and is presently 
under revision. The test strategy is well integrated into the systems 
engineering process and is characterized by a ``crawl, walk, run'' 
paradigm. Multiple integration phases are used to develop and integrate 
the Units of Action (UA) first in simulation and progressing to 
hardware, as simulations are replaced by emulations and subsequently 
prototype hardware. A contiguous thread of modeling & simulation (M&S) 
augmentation and support will be maintained throughout all testing and 
integration phases. These M&S include representations of components, 
systems, forces (UA, UE, Joint, and opposing forces), and threats; 
scenario generators; environment simulators; synthetic stimuli; and 
event controllers. These M&S will serve as input or nodes on the SILs 
and System of Systems Integration Laboratory (SoSIL) and wrap-arounds 
or players in technical field tests (TFTs), limited user tests, force 
development test and experiments, and the initial operational test.
    Essential to the success of the FCS is the Army's resourcing of an 
Evaluation Brigade Combat Team (E-BCT) to generate the first FCS 
equipped UA. The E-BCT is a current force Modular Brigade Combat Team 
whose purpose is to support the development, testing and evaluation of 
FCS core program, spin out technologies, and combat development. The E-
BCT will transition over time, as the FCS program matures and 
technology develops, to become the first FCS equipped UA.
    The Program Manager-UA (PM UA) will utilize E-BCT Soldiers to 
facilitate a full-motion test strategy, where movement of the Soldiers 
to multiple test sites is minimized, and Soldier interfacing with 
systems is maximized. All human resources will be conserved and 
leveraged by synchronizing test demands and requirements, and focusing 
soldier utilization to drive down program risk. This will be 
accomplished by effectively and efficiently seizing the full 
opportunity to challenge and test to the SoS's highest potential. The 
strategy/plan allows for continuous-mode operations of training and 
learning for the E-BCT, with a robust feedback mechanism to support 
systems design/engineering. This facilitates continuous improvement, 
leading to superior fielded assets to our armed forces. As stated 
above, the current FCS TEMP is under revision to support a MS B update. 
Many potential locations are being considered, White Sands Missile 
Range being one of them. Therefore, PM UA Combined Test Organization 
and the U.S. Army Test and Evaluation Command (ATEC) are assessing what 
portion of the integrated qualification testing (IQT) can be performed 
at White Sands. This assessment will be included in next iteration of 
the FCS TEMP.
    In addition to IQT, there are opportunities to access progress in a 
field environment during TFTs. A cooperative effort between the Lead 
Systems Integrator (LSI), ATEC, and the PM UA is currently defining 
range requirements and potential infrastructure upgrades to support the 
TFTs. A key to the success of the FCS test program is the SoSIL. The 
SoSIL is a distributed network that connects the LSI facilities in 
Huntington Beach, California (SoCAL Node) to their supplier's 
integration laboratories and the ATEC test ranges over the Defense 
Research Engineering Network. The single point of entry for the LSI to 
the ATEC ranges will be the Inter-range Control Center (IRCC) located 
at the Cox Range Control Facility at White Sands. This facility is 
currently being developed and funded by ATEC as part of its growing 
distributed test mission. The IRCC will enable a key reach back 
capability to the SoCAL Node for FCS systems under test at ATEC ranges.
    In conclusion, PM UA and ATEC are jointly assessing what portion of 
FCS IQT can be executed at White Sands to facilitate the full-motion 
test strategy detailed above.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                          joint common missile
    Question. The Joint Common Missile (JCM) was terminated in 
Presidential Budget Decision 753. Eight months into Phase 1 of System 
Design and Development, JCM is a remarkably healthy, low-risk program--
on schedule, on budget, and successfully demonstrating important new 
capabilities for the warfighter. Canceling the JCM ignores the opinion 
of our top military leaders and deprives our service members of a new 
capability they need to survive against future threats. Can you explain 
why this program was targeted?
    Further, the JCM meets Joint Service requirements and fills a 
critical capabilities gap that cannot be met by upgrading existing 
weapon systems. For example, JCM has twice the standoff range of the 
Hellfire, Longbow, and Maverick missiles it will replace on Army, Navy 
and Marine Corps aircraft. The accuracy of its tri-mode seeker will 
give our forces precision-strike lethality to eliminate threats that 
are located near non-combatants. That is why the top-ranking officers 
in all three services that have requested JCM--the Army, Navy, and 
Marine Corps--all believe the program must be restored. How can you 
justify terminating this program?
    Answer. The Office of the Secretary of Defense issued PBD 753, 
dated December 23, 2004, which terminated the JCM program. The Army is 
engaged with the Office of the Secretary of Defense, the Joint Staff, 
and the other Services to assess capability and inventory gaps 
generated by the JCM termination and evaluate courses of action which 
mitigate the termination.
    Question. How is the JCM program performing against established 
cost and schedule milestones?
    Answer. The program has performed extremely well with a schedule 
performance index of 0.97 and cost performance index of 0.91 on 
December 23, 2004.
    Question. In particular, what is the projected unit cost for JCM at 
full-rate production vs. the unit cost of a less-capable Hellfire 
missile?
    Answer. The Service's joint cost position identified for JCM an 
average unit production cost of $109,000 (fiscal year 2004 constant 
dollars) per missile based on a missile quantity of 48,613 with 
production planned for fiscal year 2008-18. Total program cost for the 
Army and the Navy is $8.1 billion ($1 billion for system development 
and demonstration and $7.1 billion for procurement). These are the 
baseline costs. The Hellfire model currently in procurement (Metal 
Augmented Charge AGM-114) is estimated at $78,000 (fiscal year 2004 
constant dollars) based on a buy of about 13,250 missiles. The 
estimated unit cost of Longbow Hellfire is $137,000 for a buy of about 
3,500 missiles; however, Longbow Hellfire is no longer in procurement 
and Maverick is estimated at $180,000 with an approximate quantity of 
23,164 (fiscal year 2004 constant dollars) but is no longer in 
procurement for the Navy.
                     167th theater support command
    Question. General Schoomaker, as you probably know, the future of 
Alabama's 167th, which became a Theater Support Command in 2000, is in 
jeopardy due to the Army's push to move from 5 Theater Support Commands 
to 4. Although I do not want to speculate, there appears to be an 
Active Component bias toward the 167th Theater Support Command--which 
comes at the expense of taxpayers' resources. Having one command under 
the control of the National Guard simply makes good sense in terms of 
stewardship of mission and cost. While I originally believed the issue 
would be resolved by moving the 167th under control of NORTHCOM, it now 
appears as if there may be resistance to this idea. In light of this 
development, I would appreciate hearing the Army's take on this 
situation. What is the current status of this issue and when do you 
expect to reach a resolution?
    Answer. As a result of the Army's modular force transformation 
efforts, the Army Staff is revalidating every requirement and examining 
each organization to ensure the capability retained provides the most 
effective use of the force structure available. Part of the 
transformation of Theater Logistics includes conversion of the current 
five theater support commands to somewhat larger, more capable theater 
sustainment commands, each with multiple and separate deployable 
command posts. The exact number and locations of these organizations 
are, as yet, undetermined. The initial analysis and recommendations 
that have been staffed with the combatant commanders, Army components, 
and the National Guard Bureau have included several options for the 
167th Theater Support Command that we continue to explore. A final 
decision on which course of action provides the best solution within 
our force structure requirements is pending a review of the mission 
capability and accessibility required for each type of unit. The 
objective is to ensure an increased capability for Army theater 
logistics and a relevant mission for the Army National Guard.
    The intent is to reach agreement on the number and locations of all 
theater logistics structures in early April.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye
                         performance of stryker
    Question. General Schoomaker, the first Stryker Brigade Combat Team 
was deployed to Iraq in late 2003. Concerns were expressed prior to its 
deployment that it would be vulnerable to the types of threats 
prevalent in Iraq today. Can you comment on the performance of the Team 
to date?
    Answer. The first deployment of a Stryker Brigade Combat Team 
(SBCT) occurred in December 2003 when SBCT 1, 3d Brigade/2d Infantry 
Division (3/2 IN) took over U.S. military operations in northern Iraq 
from the 101st Airborne Division. The SBCT's unique combination of 
increased number of infantry Soldiers and a robust reconnaissance 
capability, have made the SBCT an extremely effective force in 
Operation Iraqi Freedom when compared to other brigades. The SBCT has 
effectively used speed and situational understanding to kill and 
capture a significant number of enemy fighters. Tactics include the 
rapid movement of infantry to objectives and the employment of snipers 
to reduce civilian casualty threat. They have earned the nickname of 
the ``Ghost Soldiers,'' as the non-compliant forces (NCF) never hear 
them coming. The Stryker vehicle is designed to enable the SBCT to 
maneuver more easily in close and urban terrain while providing 
protection in open terrain.
    Stryker vehicle survivability is exceptional; as of March 14, 2005, 
there have been well over 345 incidents where the vehicles have been 
subjected to hostile action. These vehicles have been involved in over 
168 separate Improvised Explosive Device (IED) incidents in Iraq with 
only 25 vehicles declared battle losses, and over 58 incidents 
involving Rocket Propelled Grenades with one vehicle declared a battle 
loss. There have only been three fatalities directly associated with 
these incidents. A majority of vehicles involved with these 345 
incidents were able to continue the mission or return to base under 
their own power. All non-battle loss vehicles were quickly repaired and 
many returned to duty with within two days.
    The operational readiness (OR) rate for the Stryker vehicles is 
being maintained above 95 percent. As of March 14, 2004, the Strykers 
have been driven over 4.7 million miles in Iraq. There are 
approximately 105 contractors embedded in the Stryker Brigade, 
providing logistical support for the Stryker and other systems. These 
contractors, working closely with the SBCT's mechanics, have played a 
key role in maintaining the high Stryker OR rate. Resupply of Stryker-
specific and other repair parts to the brigade is also being 
accomplished very effectively.
          performance of stryker in small scale contingencies
    Question. General Schoomaker, the Director of Operation Test and 
Evaluation was critical of several of the Stryker vehicle variants in 
his last annual report. Many of the vehicles in the Stryker family were 
judged to have limitations for use in small-scale contingencies. What 
is your response to that criticism?
    Answer. I would say two things. First, the report published in 
January 2004 was completed prior to the Stryker's remarkable combat 
performance. Second, the range of conditions in which the Stryker has 
and is performing clearly demonstrates its value in small-scale 
contingencies.
    The Stryker Brigade Combat Team (SBCT) is a full spectrum combat 
force. The SBCT is designed and optimized for employment in small scale 
contingencies in complex and urban terrain, confronting low-end and 
mid-range threats that may employ both conventional and asymmetrical 
capabilities. The SBCT's core capabilities are high mobility and an 
ability to achieve decisive action through dismounted infantry assault, 
supported by organic direct and indirect fire platforms, and enabled by 
superior situational understanding.
    True, the January 2004, Director of Operational Test and Evaluation 
(DOTE) Beyond Low Rate Initial Production (BLRIP) report identified 
some concerns about the Stryker. Now, over 14 months since data cut-off 
for the referenced DOTE report, we are well into the second successful 
SBCT operational combat deployment.
    During the past 16 months, at least one SBCT, comprised of 311 
Stryker vehicles, has been deployed in Iraq and has continuously 
demonstrated and validated the effectiveness of this organization. The 
Stryker is but one of the many components responsible for the success 
of the SBCT. Thus far, the Stryker has proven to be extremely reliable 
and survivable in combat operations. The Stryker fleet in Iraq has 
logged over 4.7 million miles (over five times the projected annual 
usage level) and has sustained a readiness rate over 95 percent, 
exceeding the Army standard. These vehicles have been exposed to over 
345 incidents of hostile attacks, including over 168 improvised 
explosive device and vehicular improvised explosive device attacks, and 
over 58 rocket propelled grenade attacks. The cumulative resulting 
battle losses from these 345 attacks are 28 Strykers as of March 14, 
2005.
    Army Test and Evaluation Command's (ATEC) January 27, 2004, summary 
assessment of the Stryker family of vehicles stated ``Overall, the 
Stryker family of vehicles is effective, suitable, and survivable; 
Engineer Squad Vehicle (ESV) suitability to be determined with 
additional testing. Stryker vehicles contribute to the key operational 
capabilities of the SBCT and achieve the desired capabilities of a 
medium-weight force which is more lethal, mobile, and survivable than 
light forces and more deployable and more easily sustained than heavy 
forces.''
    ATEC's assessment was that ``vehicle performance limitations can be 
mitigated through (1) force augmentation as outlined in current 
doctrine, (2) tactics, techniques and procedures and unit leader 
training, (3) tailored support packages and (4) focused product 
improvement initiatives.'' The DOTE concerns were discussed during the 
Army System Acquisition Review Council (ASARC) in January 2004, where 
it was recommended that a systematic process be implemented to address 
these issues. During the Defense Acquisition Board Review, the Defense 
Acquisition Executive concurred with the ASARC recommendations and 
authorized full rate production of seven of the 10 Stryker 
configurations.
    Actions the Army has already implemented include: refined the 
tactics, techniques and procedures for Stryker employment; provided 
digital capability to all Strykers in the SBCT, ensuring that every 
Stryker crew has full access to situational awareness information; 
corrected the quality control and assurance process for the Modular 
Expandable Armor System (MEXAS) such that all 14.5 mm ceramic applique 
armor meets the correct protection level; issued MEXAS battle damage 
repair kits to the Stryker Brigade in Iraq; improved the silent watch 
capability through routine component replacement with a battery 
possessing higher storage capacity; validated several improvements 
required for extreme cold weather operations; replaced the current 
automotive-style seat belt with an aircraft-style belt that 
accommodates easier use in full combat gear; applied selected force 
protection improvements to enhance crew survivability; and recently 
awarded a production contract for one brigade set of Rocket Propelled 
Grenade add-on armor.
    Actions currently being implemented in production, and planned for 
full retro-fit to previous delivered vehicles include: upgrading the 
remote weapon station with a more powerful thermal imagery sight, laser 
range finder, auto-focus and several other improvements; incorporating 
built in diagnostic capability; and integrating several human factor 
engineering modifications.
    Major design actions currently in development include: improved 
central tire inflation system to accommodate the increased weight of 
add-on armor; and improved crew escape hatches for emergency egress.
    We are continuing to assess emerging technologies and review 
recommendations from the deployed SBCT to further enhance the 
capability, force protection and performance of all the Stryker vehicle 
configurations.

                          SUBCOMMITTEE RECESS

    Senator Stevens. The subcommittee will reconvene next week, 
March 16, at 10 a.m., when we will hear from the Department of 
the Navy.
    [Whereupon, at 11:20 a.m., Wednesday, March 9, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 16.]

</pre></body></html>
